<html>
<title> - TECHNOLOGY AND EDUCATION: A REVIEW OF FEDERAL, STATE, AND PRIVATE SECTOR PROGRAMS</title>
<body><pre>[House Hearing, 107 Congress]
[From the U.S. Government Printing Office]



   TECHNOLOGY AND EDUCATION: A REVIEW OF FEDERAL, STATE, AND PRIVATE 
                            SECTOR PROGRAMS

=======================================================================

                                HEARING

                               before the

          SUBCOMMITTEE ON TELECOMMUNICATIONS AND THE INTERNET

                                 of the

                    COMMITTEE ON ENERGY AND COMMERCE
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED SEVENTH CONGRESS

                             FIRST SESSION

                               __________

                             MARCH 8, 2001

                               __________

                           Serial No. 107-18

                               __________

       Printed for the use of the Committee on Energy and Commerce


 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 house

                               __________

                   U.S. GOVERNMENT PRINTING OFFICE
71-485                     WASHINGTON : 2001

_______________________________________________________________________
 For sale by the Superintendent of Documents, U.S. Government Printing 
                                 Office
Internet: bookstore.gpo.gov  Phone: (202) 512-1800  Fax: (202) 512-2250
               Mail: Stop SSOP, Washington, DC 20402-0001
                    ------------------------------  

                    COMMITTEE ON ENERGY AND COMMERCE

               W.J. ``BILLY'' TAUZIN, Louisiana, Chairman

MICHAEL BILIRAKIS, Florida           JOHN D. DINGELL, Michigan
JOE BARTON, Texas                    HENRY A. WAXMAN, California
FRED UPTON, Michigan                 EDWARD J. MARKEY, Massachusetts
CLIFF STEARNS, Florida               RALPH M. HALL, Texas
PAUL E. GILLMOR, Ohio                RICK BOUCHER, Virginia
JAMES C. GREENWOOD, Pennsylvania     EDOLPHUS TOWNS, New York
CHRISTOPHER COX, California          FRANK PALLONE, Jr., New Jersey
NATHAN DEAL, Georgia                 SHERROD BROWN, Ohio
STEVE LARGENT, Oklahoma              BART GORDON, Tennessee
RICHARD BURR, North Carolina         PETER DEUTSCH, Florida
ED WHITFIELD, Kentucky               BOBBY L. RUSH, Illinois
GREG GANSKE, Iowa                    ANNA G. ESHOO, California
CHARLIE NORWOOD, Georgia             BART STUPAK, Michigan
BARBARA CUBIN, Wyoming               ELIOT L. ENGEL, New York
JOHN SHIMKUS, Illinois               TOM SAWYER, Ohio
HEATHER WILSON, New Mexico           ALBERT R. WYNN, Maryland
JOHN B. SHADEGG, Arizona             GENE GREEN, Texas
CHARLES ``CHIP'' PICKERING,          KAREN McCARTHY, Missouri
Mississippi                          TED STRICKLAND, Ohio
VITO FOSSELLA, New York              DIANA DeGETTE, Colorado
ROY BLUNT, Missouri                  THOMAS M. BARRETT, Wisconsin
TOM DAVIS, Virginia                  BILL LUTHER, Minnesota
ED BRYANT, Tennessee                 LOIS CAPPS, California
ROBERT L. EHRLICH, Jr., Maryland     MICHAEL F. DOYLE, Pennsylvania
STEVE BUYER, Indiana                 CHRISTOPHER JOHN, Louisiana
GEORGE RADANOVICH, California        JANE HARMAN, California
CHARLES F. BASS, New Hampshire
JOSEPH R. PITTS, Pennsylvania
MARY BONO, California
GREG WALDEN, Oregon
LEE TERRY, Nebraska

                  David V. Marventano, Staff Director

                   James D. Barnette, General Counsel

      Reid P.F. Stuntz, Minority Staff Director and Chief Counsel

                                 ______

          Subcommittee on Telecommunications and the Internet

                     FRED UPTON, Michigan, Chairman

MICHAEL BILIRAKIS, Florida           EDWARD J. MARKEY, Massachusetts
JOE BARTON, Texas                    BART GORDON, Tennessee
CLIFF STEARNS, Florida               BOBBY L. RUSH, Illinois
  Vice Chairman                      ANNA G. ESHOO, California
PAUL E. GILLMOR, Ohio                ELIOT L. ENGEL, New York
CHRISTOPHER COX, California          GENE GREEN, Texas
NATHAN DEAL, Georgia                 KAREN McCARTHY, Missouri
STEVE LARGENT, Oklahoma              BILL LUTHER, Minnesota
BARBARA CUBIN, Wyoming               BART STUPAK, Michigan
JOHN SHIMKUS, Illinois               DIANA DeGETTE, Colorado
HEATHER WILSON, New Mexico           JANE HARMAN, California
CHARLES ``CHIP'' PICKERING,          RICK BOUCHER, Virginia
Mississippi                          SHERROD BROWN, Ohio
VITO FOSSELLA, New York              TOM SAWYER, Ohio
TOM DAVIS, Virginia                  JOHN D. DINGELL, Michigan,
ROY BLUNT, Missouri                    (Ex Officio)
ROBERT L. EHRLICH, Jr., Maryland
LEE TERRY, Nebraska
W.J. ``BILLY'' TAUZIN, Louisiana
  (Ex Officio)

                                  (ii)


                            C O N T E N T S

                               __________
                                                                   Page

Testimony of:
    Domench, Daniel A., Division Superintendent, Fairfax County 
      Public Schools.............................................    28
    Grad, Rae, Chairman, PowerUP: Bridging the Digital Divide....    53
    House, Jennifer, Vice President of Strategic Relations, 
      Classroom Connect, Inc.....................................    58
    Koster, Emlyn H., President and CEO, Liberty Science Center, 
      Liberty State Park.........................................    64
    Krisbergh, Hal, Chairman and CEO, Worldgate Communications, 
      WISH TV....................................................    51
    McDonald, Sister Dale, Director of Public Policy and 
      Educational Research, National Catholic Education 
      Association................................................    32
    McHale, Judith A., President and Chief Operating Officer, 
      Discovery Communications, Inc..............................    36
    Moore, Kate L., President, Schools and Libraries Division, 
      Universal Service Administration Company...................    16
    Spencer, David A., President and CEO, Michigan Virtual 
      University.................................................    22
Material submitted for the record by:
    Advanced TelCom Group, Inc., prepared statement of...........    83
    Ruberg, David C., Chairman, President and CEO, Intermedia 
      Communications Ins., prepared statement of.................    83
    Winstar, prepared statement of...............................    85

                                 (iii)

  

 
   TECHNOLOGY AND EDUCATION: A REVIEW OF FEDERAL, STATE, AND PRIVATE 
                            SECTOR PROGRAMS

                              ----------                              


                        THURSDAY, MARCH 8, 2001

              House of Representatives,    
              Committee on Energy and Commerce,    
                     Subcommittee on Telecommunications    
                                          and the Internet,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10 a.m., in 
room 2322, Rayburn House Office Building, Hon. Fred Upton 
(chairman) presiding.
    Members present: Representatives Upton, Gillmor, Shimkus, 
Wilson, Davis, Terry, Tauzin (ex officio), Markey, Rush, Eshoo, 
Engel, Green, McCarthy, Luther, and Sawyer.
    Staff present: Will Norwind, majority counsel; Howard 
Waltzman, majority counsel; Robert Simison, legislative clerk; 
Cliff Riccio, legislative analyst; Andy Levin, minority 
counsel; Brendon Kelsay, professional staff.
    Mr. Upton. Good morning, everyone. We do like to start on 
time, and I know Ranking Member Markey is on his way. We have 
had a little competition here, who owes who for being late, 
because we are now even.
    I would like to just say a couple of things before I give 
my opening statement. We are in session now. There are many of 
us on a number of different subcommittees. I serve on five 
subcommittees, and other hearings are going on in our Energy 
and Commerce Committee as well, so members will be coming in 
and out. And we are also expecting a number of votes both this 
morning and this afternoon, so there will be plenty of time for 
coffee breaks, if you know what I mean. But we will get started 
and see how long we can go before we come back.
    As chairman of this subcommittee, I have shaped my agenda 
on several broad themes, not the least of which is how 
technology can improve people's lives. Just a few weeks ago, I 
launched my own Leave No Child Off-Line tour in my District, 
which included a teleconference with over 500 high school 
students and 11 different schools, followed by a visit to a 
public-private partnership between Cisco and one of my local 
school districts.
    Cisco Systems networking program does prepare students for 
the 21st Century workplace, while serving as a valuable model 
for e-learning. Many graduates of the program have gone on to 
high-paying jobs in the technology field, and I can say without 
a doubt technology is indeed improving these kids' lives.
    The goal of today's hearing is to paint a broad picture of 
what investments in technology and education are being made in 
the United States on the Federal, State and local and private 
sector levels. As such, this hearing is designated to get at 
the facts about what a representative sampling of the programs 
are, how the programs work, who benefits from the program, and 
what levels of funding are associated with such programs.
    I am particular proud that the State of Michigan is 
represented here today. Governor Engler has made technology and 
education a top priority, and his initiatives are a tremendous 
value to the students and teachers of my State.
    While today's witnesses are but a representative sample, it 
is my hope that we will come away from this hearing with a 
deeper understanding and appreciation of the value of 
technology and education and the tremendous investments made at 
all levels of government and the private sector through public-
private partnerships.
    As Federal legislators, it is important to note that the E-
rate is but one, albeit significant, technology and education 
program which falls within our committee's jurisdiction. There 
are relatively smaller programs through NTIA like the TOPS 
program, that also fall within our committee's jurisdiction, 
not to mention programs through the Department of Commerce and 
Department of Education within our committee's jurisdiction.
    In addition, I want to recognize another Federal technology 
and education issue within our committee's jurisdiction, the 
Instructional Television Fixed Service, ITFS, which, I can 
assure, while not within the scope of this hearing, is very 
much in our subcommittee's radar screen as our nation grapples 
with spectrum management issues.
    In closing, I want to quote the inspirational Mario 
Mariano, who said that ``with technology and education, we have 
a remarkable opportunity to attack problems that have plagued 
us for so long, but we must think in new ways, apply new 
approaches, and do more to bring people and resources together 
to advance a common purpose to help young people grow up with 
hope, personal responsibility, and the opportunity to lead 
meaningful and productive lives. We must ensure that these 
young people avoid becoming the illiterate of the 21st Century, 
not only unable to read or write which itself is a serious 
challenge, but unable to learn in a fast-changing adoptive 
world that requires nothing short of a fundamental change in 
how we intervene, develop and educate young people.''
    This is not news to our witnesses today, who have committed 
so much to improving kids' lives through technology and 
education, and I look forward to hearing from all of them. With 
that, I recognize my good friend--and now even in the score--
the gentleman from Massachusetts, my friend, Ed Markey.
    Mr. Markey. Thank you, Mr. Chairman, very much. You know, 
whenever you are passing legislation for big, multinational 
companies, that is your best opportunity to do something for 
poor people, ordinary people, because they want this big thing 
so badly.
    And so when we were doing the Telecommunications Act back 
5, 6 years ago, this presented itself as a tremendous 
opportunity. In other words, the CEOs that sat at that table 
were telling us that they were going to, if freed from 
restrictions--cable, telephone, satellite, et cetera, down the 
line--that they would so rapidly speed up the technology 
revolution, that they would so rapidly expand the American 
reach across the globe, that we would become Number One, 
looking over our shoulders at Number Two and Three in the 
world.
    But, of course, if you are going to do that, then you have 
to have a way of ensuring that you are going to give a 
concomitant skill set to the young people in the country so 
that they qualify for those jobs. Otherwise, we will be 
besieged in this committee and across Congress with requests 
for thousands of additional H1B visas each year to come into 
our country to fill up these jobs because we do not have enough 
Americans with the skill set.
    So, in my District, in my hometown, which is largely 
minority now--Walden, Massachusetts--we have 67 languages 
spoken in my public school system. And, yet, in addition to 
Social Security requests and veterans' requests, the largest 
requests that I am now receiving from companies in my District 
is for H1B visas to bring in trained people from the very same 
countries that these children come from. But, of course, the 
children come from the lower part of the socioeconomic spectrum 
in those countries, and the H1B visa recipients come from the 
higher economic spectrum. So, they are all from very smart 
stock except, because of socioeconomic circumstances both there 
and here, they were not being given a shot. And by the year 
2030 in the United States, 50 percent of all children will be 
minorities--50 percent will be minorities--minorities no more, 
by the way.
    And so if we want a trained workforce that is going to have 
the capacity to have good jobs and good incomes so that we can 
all retired on Medicare and Social Security without having out 
benefits cut, we have to train these kids now.
    And so the thought behind the E-rate was quite central, and 
we built it into the 1994 Act out of this subcommittee. I built 
in this discount rate, Jack Fields and I, a discount rate, we 
called it. And then I called it the ``E-rate''. We call it the 
``E-rate'' here on the committee. I was going to call it the 
``ed-rate'', I thought that would go too far, Mr. Chairman, but 
the E-rate. And it is really meant to say that in a post-GATT, 
post-NAFTA world, that you have to ensure that the kids get the 
skillset.
    And so the formula is skewed in a way that benefits those 
kids who are in the most need because, when the phone bills are 
paid for, then those parents and those teachers in school 
systems that otherwise were not moving, now have basically an 
argument they can make to the rest of the school system--why 
don't you move faster? Why don't you take advantage of this? 
Where are the computers? Where is the teacher training? And so 
you empower those parents, you empower those teachers.
    Now, obviously, I was very disturbed that President Bush 
was considering block granting the E-rate, putting it just back 
into the general pool of money. Now, the reason I am concerned 
about that, obviously, was all of the Governors and all of the 
States over all those years had plenty of opportunity to help 
this kids, but they weren't doing it. And so this was a special 
program targeting them, using telecommunications policy.
    So, I was heartened yesterday when I heard Secretary Page 
say that they are now starting to move in a different 
direction, and that is good news--excellent news--because I 
think they are beginning to get educated about this program and 
how successful it is.
    It is an excellent program. It is telescoping the timeframe 
that it is taking in order to ensure that every child, 
regardless of income, regardless of race, regardless of the 
language spoken by their parents in their homes, gains access 
to this skillset.
    And so that is part of the deal, in other words. We can't 
move forward as a nation unless, as we are doing something for 
big business, we are doing something for ordinary people at the 
same time. Otherwise, it is not a policy because you are not 
ensuring that the rest of the Nation is, in fact, able to take 
advantage of it.
    And so it is not just the bottom line of corporations that 
really determines whether or not our policies here are 
successful, but whether or not every American is a success. We 
just don't one company's picture on the cover of Forbes or 
Business Week and say that is a success, only when the picture 
of the United States is on the cover of every magazine in the 
world, knowing that all of our people have benefited, are we a 
success.
    So that is what the E-rate is all about, and it is one of 
the great success stories of the 1990's, and when we look back 
we are going to realize that it was one of the great engines 
which gunned our people, making it possible for them as 
families to begin to contemplate, not looking over their 
shoulder in a rearview mirror at ancestors and their jobs which 
are leaving their communities, but looking forward through the 
eyes of their children in terms of the possibilities, the 
opportunities that are going to be presented to them.
    So this is a great hearing, Mr. Chairman, and I hope that 
in the years ahead we can continue to bring in even more 
witnesses to help demonstrate how successful this program has 
been. I thank you for having it.
    Mr. Upton. Thank you. Mr. Davis.
    Mr. Davis. Thank you, Mr. Chairman. Mr. Chairman, one of 
the most important technology issues that have confronted the 
Congress in the past few years have shared a core commonality. 
The have illuminated the need for policymakers across the 
Nation to rethink the role of education in an age where 
information, how you access it, how you use it, and how you 
disseminate it is the key to a driving economy.
    Legislation we enacted last year to increase the number of 
H1B visas, for instance, provided a short-term bandaid solution 
for a long-term structural problem, and that is the need to 
transform the outdated educational systems that keep all 
learning within a classroom into an approach that promotes 
learning and teaching both within and outside the physical 
classroom through the use of technology.
    I commend the chairman for giving us the opportunity today 
to gain a more thorough understanding of the role of technology 
in education and to find out what is already working across the 
country to improve the knowledge and skillsets of our children.
    I am especially pleased to welcome from my District, Daniel 
Domenech, the Superintendent of the Fairfax County Public 
School System, where 147 native languages are spoken in the 
schools, and where my two younger children attend public 
school. It has been my pleasure to know Superintendent Domenech 
for a number of years now and, Mr. Chairman, may I say that I 
can't think of a better choice for a witness who can really 
help us understand what is possible when local communities band 
together to improve the welfare of our children.
    A native of Cuba who came to this country at the age of 9, 
Superintendent Domenech has achieved a diverse career through 
his teaching, work in minority communities in Queens, New York, 
to his administrative roles in other multiethnic areas of New 
York, and now in Northern Virginia, where one out of five 
adults over the age of 25 was born in a foreign country.
    He has achieved tremendous success with bringing technology 
to the classroom through public-private partnerships in Fairfax 
County, and I look forward to hearing his testimony today, 
along with the other distinguished panelists.
    Most of us agree that we have a duty to improve the ability 
of future generations to compete and succeed in a global 
economy. We do know that there is a scarcity of skilled 
Americans who are able to fulfill the demands of a technology-
driven economy, and that obstacle is only growing exponentially 
as our working population ages.
    While we may not all agree on a single solution, our time 
will be well spent today in hearing how newly implemented 
programs are working toward eliminating that obstacle. Thank 
you.
    Mr. Upton. Thank you. Mr. Sawyer.
    Ms. McCarthy. I believe Mr. Sawyer is acknowledging in the 
order, although he does outrank me.
    Mr. Upton. Ms. McCarthy.
    Ms. McCarthy. Mr. Chairman, this is a spectacular panel, 
and I am going to submit my remarks for the record because they 
know a lot more than I do and I want to hear from them. So I 
would like to yield back my time.
    Mr. Upton. Mr. Sawyer.
    Mr. Sawyer. Thank you very much, Mr. Chairman. I have also 
a longer opening statement that I am going to forego. Just let 
me add to what Ed Markey had to say, however.
    I really believe that it is arguable that the decision that 
transformed the 20th Century was one that is comparable to some 
of the decisions we have made in the last 5 years of the 
century, and that was the recognition that the expansion of the 
railroads west represented a growth in this country that needed 
to be met with a concomitant elevation of the skills of this 
nation all across the acquired skill spectrum.
    The last time we really had to do that was then, we have 
really made incremental since then, but today we face that very 
same challenge that was met by Justin Morrow a century and a 
half ago in the first enactments and the subsequent enactments 
of the Land Grant Colleges Act which took the expansion of the 
railroads west and set aside the dollars in order to transform 
higher education and, in so doing, changed America in very 
fundamental ways.
    We face the challenge of engaging a similar opportunity in 
ways that will call on a level of wisdom that many of us don't 
really call on frequently enough. It will call on us to raise 
our sights and alter our assumptions about where we are going.
    And that, Mr. Chairman, I am pleased to insert my formal 
statement in the record and to request unanimous consent to 
insert Mr. Dingell's statement in the record since he is unable 
to be here.
    [The prepared statement of Hon. Tom Sawyer follows:]

  PREPARED STATEMENT OF HON. TOM SAWYER, A REPRESENTATIVE IN CONGRESS 
                         FROM THE STATE OF OHIO

    Thank you Mr. Chairman and Mr. Markey for calling this very timely 
and important hearing on Technology and Education. As a teacher and the 
husband of a 30 year teaching veteran, I am keenly aware of the 
educational challenges we face as a nation.
    Everyone should have the opportunity to learn and thrive in our 
community. We should make it our responsibility to ensure that everyone 
is able to read and write to the best of their abilities. Yet, in the 
information age, good reading and writing skills must be accompanied by 
some technical skills. Without these, the haves and the have-nots will 
be divided by more than just literacy, they will be divided by digital 
literacy. These are the new basic skills, which are essential for 
workers who want to take advantage of the rapid pace of change and 
growing complexity of the global economy. These are the skills we need 
to teach our community, and the places to teach these skills are in our 
schools and community centers.
Successful First Step: E-Rate
    The E-rate is a good first step in bridging the digital literacy 
divide. There is currently a digital divide separating our community 
along geographical, monetary and ethnic lines. Regardless of these 
factors, every child in our country should have access to the Internet 
and its resources. The E-rate program has helped more than 80,000 
schools and libraries get on-line by providing telecommunications 
services at a discounted rate.
    This program is an excellent step toward bridging the digital 
divide, but at it's current funding level, it is not enough. In it's 
third year, funding requests for the program are estimated at $4.72 
billion. However, the FCC has maintained its $2.25 billion ceiling for 
funding commitments to the program. Until every school in the United 
States has had an equal opportunity to receive these funds and is able 
to provide their students with access to technology, the E-Rate's work 
is not finished. I question whether the E-Rate should be combined with 
the Technology Literacy Challenge Fund or block granted while it is 
still being effectively used by our educators.
    Another valuable resource for schools is the Technology Literacy 
Challenge Fund. Written in Title III of the Elementary and Secondary 
Education Act, it provides formula allocations to states for the 
purpose of improving technology access, education, professional 
development, and instruction in elementary and secondary schools. Funds 
are awarded to local educational agencies on a competitive basis within 
each state. The Challenge Fund's FY2001 appropriation is $450 million.

Beyond E-Rate: The New Challenge
    There are other important issues that must be addressed in order to 
bridge the digital literacy divide and make technology an equitable and 
useful tool for our educators. First, we need to find a way to provide 
hardware for our classrooms. Second, we need to provide upkeep of the 
technology in our schools, to ensure that our children are not learning 
on out-dated and impractical technology. Third, we need to train our 
teachers on the use of technology how to train our teachers on the use 
of technology and how to integrate it into their curricula. Instead of 
teaching our children how to use technology, we should teach our 
children using technology.

Kent State Is Bridging This Divide
    In my district, Kent State University is working to further bridge 
this digital divide through its Research Center for Educational 
Technology (RCET). RCET provides a network for pre-kindergarten through 
college level educators and university researchers committed to 
studying the impact of technology on learning.
    One place that RCET conducts research is in the Ameritech 
Classroom, located at Kent State University. The classroom serves as 
the learning environment for a class of students and their teacher, who 
conduct class in the classroom for half days over a six week period of 
time. Teachers bring their own class and their own curriculum. The 
Ameritech classroom provides assistance to the teachers, so that they 
learn to integrate the classroom's technology into their curriculum. 
RCET observes the children and the teachers, to study the impact of 
technology on teaching and learning. To date, more than 70 teachers and 
nearly 1000 students in grades K-9 have participated either directly in 
the program, or indirectly through workshops and outreach programs.
    Programs like RCET and the Ameritech classroom are researching ways 
to effectively use technology as a tool to educate our children, while 
the E-Rate is providing the funding source to bring telecommunications 
into our classrooms. These programs are working to create an 
educational environment where all children are able to become digitally 
literate, but there is still more to be done. We need to take the next 
step toward bridging the digital divide and find a way to fund the 
necessary hardware for our classrooms, the upkeep for this hardware, 
and the training of teachers in the use of technology.

Beyond K-12: Current Workforce Training
    While we are considering possibilities for technology and 
education, we should widen the scope of our initiatives to address 
digital literacy within the current workforce.
    One-Stop Career Centers provide valuable resources to workers in 
search of a job. Yet, with the severe shortage of workers in the high-
tech sector and the increase in demand for H1-B visas, I question 
whether we are doing enough to train our current work force in 
technology.
    I am interested to hear from our witnesses on how we can better 
support technical training for our current workforce as well as our 
future workforce. Through a thorough review of federal, state and 
private sector practices toward education and technology, I hope that 
we can find a solution to bridging the digital literacy divide.

    Mr. Upton. Without objection, I would note that all members 
of the subcommittee--I will make the unanimous consent request 
that all members of the subcommittee, in fact, their entire 
opening statements will be made part of the record and, at this 
point, I will go to Mr. Shimkus.
    Mr. Shimkus. Thank you, Mr. Chairman. I am going to be 
following Congressman Markey with the running shoes on as we 
have a hearing downstairs on the EU privacy laws, which is an 
exciting issue. So, I apologize to the panel if they see me 
coming back and forth.
    The issue I want to focus on is how do we train the 
teachers to be available to keep using this new medium. I got a 
letter from one of my constituents on the tax proposals, and 
marriage penalty, and reductions, and she is working two jobs, 
trying to get three kids through college. She teaches night at 
a local community college to make sure she has her 
certification to keep qualified to teach. Anymore educational 
requirements really comes out of her ability to meet the needs 
of her family. It was a very sad and frustrating letter, and I 
scribbled her a note, but that is my focus.
    This new medium, how do we bridge that? We can have all the 
technology in the world, but if we can't get it to the teacher 
who can get trained without taking away from the other aspects 
of their lives and fending for the needs of their family, then 
it is really more personal than a lot of people like to 
believe. So that is what I will be trying to address and see 
how we can do that. If you can address that at some point, I 
would appreciate that.
    A great hearing, Mr. Chairman, and I look forward to being 
a participant. I yield back my time.
    Mr. Upton. Thank you. I recognize the chairman of the full 
committee, Mr. Tauzin.
    Chairman Tauzin. Thank you, Mr. Chairman. I wanted to make 
a special visit to the subcommittee today to welcome this panel 
and congratulate you on your focus, Mr. Chairman.
    I think the concept of literally focusing in on how the new 
technologies can make a difference in the lives and can educate 
children to the potential of their lives is truly a good one, 
and I want to wish you well on that.
    I want to especially welcome WISH TV representatives here. 
WorldGate Communications--Hal Krisbergh is here representing 
them--began a pilot program in my home State as a result of a 
high technology conference we had at LSU where we determined 
that young children in my home State, primarily minority kids 
and some rural parishes I represent, start school so 
disadvantaged that they never catch up. And the concept of 
using this new technology to bring the Internet not just to the 
school, not just to the library, but right into their homes, 
without the need of a computer, using equipment that Mr. 
Krisbergh and his company produced that literally connects the 
Internet to an analog television set by the cable--and, again, 
his generosity, and the other cable companies, has created a 
new pilot program in the State. LSU and my home university, 
Nichols--we call Nichols ``Harvard on the Bayou'', you know--
worked on software programs that were demonstrated here in 
Washington. I think 12 States or more now participate with 
similar pilot programs, and it is just the beginning, just 
scratches the surface of what can be done if we introduce this 
technology at an early age to children who might never 
otherwise experience it. And all of a sudden, they and their 
families, their whole families--single moms in most cases--but 
the other siblings and other relatives now have that as part of 
their lives, and they are beginning to explore the possibility 
of their young lives, possibility of lives that otherwise would 
have been lost, I think, and that is a great focus.
    Mr. Chairman, I think we, at this level, get all tied up in 
which big companies will win what battles for a marketplace 
under what policy we set, and we forget that the real focus 
needs to be on the real faces out there, the children and the 
lives of individuals in our society who are going to be either 
improved or left behind because we either make this technology 
meaningful in their lives, or we never do. And it is a right 
focus. I commend you for it. I thank the witnesses, it is such 
a broad array of witnesses that I think you will hear a lot 
today about this potential, and about what is happening out 
there in the marketplace, and what people are really doing to 
make it meaningful.
    And I thank you for sharing with us today, for bringing 
your expertise to our consideration but, most important, Mr. 
Chairman, you get it. I mean, you are onto it. This is where we 
in Government ought to be focused as we make these big policy 
decisions, where the rubber really hits the road with this 
technology, and where children and real lives are affected. 
Thanks again, my great wishes to your successful hearing. My 
thanks to all you witnesses for coming today.
    [The prepared statement of Hon. W.J. ``Billy'' Tauzin 
follows:]

 PREPARED STATEMENT OF HON. W.J. ``BILLY'' TAUZIN, CHAIRMAN, COMMITTEE 
                         ON ENERGY AND COMMERCE

    Mr. Chairman, thank you for holding this hearing today. The 
confluence of technology and education is an exciting and important 
trend in this country. Advances in technology have enhanced the 
learning experience of many of our youth. Technology-based learning 
tools can make the educational experience much more enriching for 
children. And, as the Internet fosters a more knowledge-based economy, 
a solid education is the key to advancement in the workplace.
    I would like to welcome our guests today, particularly Hal 
Krisbergh, Chairman and CEO of Worldgate. Through WISH TV, Worldgate 
works with cable companies and schools to provide in-school and in-home 
Internet access in disadvantaged communities. WISH TV enables users to 
access the Internet and e-mail through their television sets and 
existing cable connections. No computer is required. Currently, WISH TV 
has pilot programs in eleven schools across three states, including at 
Belle Rose Primary in Belle Rose, Louisiana.
    Last fall, WISH TV also came to the Rayburn Building to demonstrate 
its service. Several fourth-graders showed former FCC Chairman Bill 
Kennard and I just how easy it is to use WISH TV's wireless keyboards 
to access the Internet through regular television sets. WISH TV 
provides disadvantaged communities with an opportunity to embrace the 
Internet that they otherwise would not have. I am delighted that WISH 
TV is helping enrich the minds of my constituents in Assumption Parish 
and I look forward to the program being extended across the country.
    Today's panel demonstrates the breadth of programs that exist to 
bring technology into the classroom. We have representatives of 
federal, state, and local initiatives; private efforts; and public/
private partnerships. It is important to understand that providing 
Internet access to disadvantaged communities is not strictly dependent 
upon federal support. The e-rate program has distributed more than $1 
billion so that schools and libraries can receive discounts on 
telecommunications services. But the e-rate program has also not even 
distributed all of the money that has been promised to schools and 
libraries. A GAO study in December found that, of the $3.7 billion that 
had been committed to applicants in Years One and Two, at least $1.3 
billion (35 percent) had not been paid out by August 2000, despite the 
fact that the deadlines for use of the funds had to be extended several 
times. I am not mentioning this issue to be overly critical of Kate 
Moore or the Schools and Libraries Division. I am merely trying to 
point out that state, local, and private efforts as well as public/
private partnerships are at least as responsible for the current 
availability of Internet access in schools and libraries as federal 
programs.
    I plan to work with Jerry Weller again to phase out the schools and 
libraries program. We will use one-third of the Spanish-American War 
tax to fund the schools and libraries program for several more years--
putting the other two-thirds of that tax back into the pockets of 
consumers. After several more years of funding, the schools and 
libraries program will have achieved its goal: ensuring that our 
nation's schools and libraries have access to advanced 
telecommunications services.
    Based upon the efforts that we will hear about today, I am 
confident that we can finish the job of bringing the Internet into our 
schools within the next several years. Before I leave Congress, I want 
every child in Louisiana to have access to the Internet. I applaud our 
witnesses for their efforts to make my goal a reality and I look 
forward to hearing about their progress.

    Mr. Upton. Mr. Terry.
    Mr. Terry. I will waive.
    Mr. Upton. Okay. Well, that is the--and let me just say 
this again. For the subcommittee members that are not here, 
their statements will be part of the record.
    I just want to introduce the panel and, at that point, we 
will break. The buzzers you hear mean that that is the second 
bell for votes.
    [Additional statements submitted for the record follow:]

PREPARED STATEMENT OF HON. STEVE LARGENT, A REPRESENTATIVE IN CONGRESS 
                       FROM THE STATE OF OKLAHOMA

    Mr. Chairman, thank you for holding this morning's hearing to 
examine the federal, state, and private sector investment in technology 
and the impact it has made on our educational system.
    Over the past three years, the Universal Service Administrative 
Company (USAC) has committed over $5.8 billion dollars, collected from 
telephone customers, to wire up our nation's schools and libraries to 
the Internet. I think this is a significant accomplishment.
    As I read over our witnesses testimony before this morning's 
hearing, it was clear that technology is, and will continue to be, an 
important component of our children's education.
    However, one thing I did not discern from the testimony was the 
verification that our children's test scores are going up for that $5.8 
billion investment. My primary concern as a policy maker, and more 
importantly as a father of four, is that our country's youth are 
actually learning the skills to compete on a high level in the 21st 
century.
    This week, we've experience two tragic high school shootings. I'm 
concerned that our kids are losing their sense of purpose, as well as 
hope.
    A couple of years ago, Tom Brokaw wrote a best a selling book 
entitled, Our Greatest Generation. The book chronicled the lives of 
average Americans who grew up during the depression, made huge 
sacrifices for their country during World War II, raised their 
families, and contributed to society. In short--they made a difference.
    I'm worried that the sense of purpose and hope that was the 
hallmark of our parent's and grandparent's generation is turning into a 
sense of disillusion and entitlement in many of our children's 
generation.
    The use of technology is an important tool in our kid's education, 
but we as parents, teachers, superintendents, and society as a whole, 
need to find additional ways to instill a sense of purpose and hope, so 
that our children will have a bright and prosperous future.
                                 ______
                                 
PREPARED STATEMENT OF HON. BARBARA CUBIN , A REPRESENTATIVE IN CONGRESS 
                       FROM THE STATE OF WYOMING

    Thank you Mr. Chairman for holding this very important hearing.
    I am proud today to relay to my colleagues on the Subcommittee a 
success story from the most rural state in the union and how it has 
become a model of 21st Century education.
    The reason: it has embarked on a telecommunications breakthrough 
that will not only benefit every public school student in the state, 
but also every community in that state.
    I, of course, am talking about Wyoming and the work that has been 
done by Governor Jim Geringer and Judy Catchpole, Superintendent of 
Public Instruction.
    The Wyoming Equality Network is a statewide, high-speed data and 
video network that connects all Wyoming public schools and gives 
communities the capability for telemedicine, economic development and 
community outreach applications as well as access to the Internet.
    Wyoming is known as the Equality State. The initiative to ensure 
access to education and advancements in telecommunications is based on 
the principle of equality--equal access to education and information by 
all of Wyoming's public school children.
    Wyoming is an extremely rural state with only 480,000 residents 
covering more than 98,000 square miles.
    There are 49 school districts with 154 elementary schools, 63 
junior high or middle schools, and 73 secondary schools.
    To say the least, our elected officials had their work cut out for 
them in attempting to construct a statewide intranet to provide data 
access to every school building in the state and two-way interactive 
videoto every high school in the state by this past summer.
    I'm proud to announce that their hard work and dedication has paid 
off.
    Wyoming public schools are connected. It's a success story that 
originates from local officials working in a cooperative effort to do 
what's best for Wyoming's youth.
    I am committed to doing everything I can on the federal level to 
continue that success by encouraging the deployment of advanced 
services to all reaches of Wyoming.
    Again, Mr. Chairman, I'm very pleased that this subcommittee has 
taken on this very important issue. I yield back my time.
                                 ______
                                 
PREPARED STATEMENT OF HON. CHIP PICKEING, A REPRESENTATIVE IN CONGRESS 
                     FROM THE STATE OF MISSISSIPPI

    Mr. Chairman, I commend you for conducting this hearing today. This 
Subcommittee is well aware of the many benefits of technology to 
consumers and the economy, but has not focused on the benefits 
technology can bring to the classroom.
    I understand that education will be a focus for Chairman Upton and 
I applaud that decision. Anything that this Subcommittee can do to 
promote and expand some of the initiatives that are taking placing 
around the nation is well worth our time.
    In my home state of Mississippi, I am quite proud of what is 
happening insofar as bringing technology into the classroom. I'd like 
to take a few minutes to describe to my colleagues three of the 
programs that have been implemented in Mississippi.
    The Blair E. Batson Hospital for Children is located in Jackson, 
and is at center stage when it comes to treating the medical needs of 
Mississippi's children. The patients come from all of Mississippi's 82 
counties and come as the victims of serious trauma or with life 
threatening or chronic illnesses--cancer, cystic fibrosis, sickle cell 
anemia, hemophilia, congenital heart defects and many others. While the 
hospital and its professional staff are unique on their own, ``Connect-
2-Tomorrow'' puts the hospital into a league by itself.
    Connect-2-Tomorrow is a program that placed Internet, email and 
Internet video conferencing software into the hospital to allow the 
patients the ability to remain connected to the outside world. Through 
this initiative, patients are enabled to remain in contact with their 
schools and teachers as well as family and friends. For patients at 
such an early stage in life, a lengthy stay in the hospital can be 
quite traumatic. This program allows children to remain active and 
engaged in their schools as well as stay in touch with their peers. 
Funded in part by a grant from NITA, it is an excellent example of 
pairing federal funds with state funds to produce a worthy program.
    Another Mississippi program that has great potential is ExplorNet, 
which is also operating in several other states. ExplorNet establishes 
a ``vocational-type'' program in high schools that trains students in 
repairing, upgrading and building computers. At the completion of the 
course, these high school students have real world experience and 
skills valuable in the marketplace. Several schools in my district are 
using this program and I will be visiting one in the next few weeks.
    The last program I would like to mention is Mississippi EDNET which 
was formed to promote education and research throughout Mississippi. 
EDNET is a modern, cost effective distant learning system capable of 
reaching and teaching Mississippians where they live and work. It 
provides two channels of educational programs designed for use at home 
or in the classroom free of charge.
    Mr. Chairman, I think this programs and others we will hear about 
today demonstrate the vast potential of technology in education. 
Whether it is through ITFS, the internet, or video streaming, 
technology can be a ``multiplier'' of resources to reach a broader 
audience and give students a broader view of the world around us. Once 
again, I appreciate your conducting this hearing and look forward to 
working with you to improve the opportunities and technological 
resources allocated for educational purposes.
                                 ______
                                 
PREPARED STATEMENT OF HON. BOBBY L. RUSH, A REPRESENTATIVE IN CONGRESS 
                       FROM THE STATE OF ILLINOIS

    Mr. Chairman, thank you for holding this timely hearing on the 
various programs and investments made in technology and education. I 
would like to speak about one program that is near and dear to my 
heart, the E-rate program. In the past few months we have heard many 
proposals from the current Administration to abolish the E-rate program 
or turn it into a block grant. As a staunch proponent of bridging the 
digital divide between the haves and the have nots, I must speak out 
against such action.
    Since its inception, the E-rate program has wired thousands of 
schools and libraries and committed over $5.8 billion dollars, funding 
over 82,000 applications. The E-rate is reaching students in my 
community and across the country. In a time where everything is 
technology driven, we must prepare our students to be technology savvy 
in order to compete in this global economy. The E-rate program is 
accomplishing this task by successfully bringing technology to schools 
and libraries across the country.
    Mr. Chairman, we will later hear more about the E-rate from our 
invited witness, Ms. Moore, so I will not beleaguer the point of why we 
need this valuable federal program. However, preparing our students to 
be competent technologically is not an easy feat and cannot be 
accomplished by the E-rate alone. We need more State and Corporate 
partnerships to help bridge the digital divide. With that said, I look 
foward to hearing the testimony of our distinguished panelist on their 
programs and how they are bridging the digital divide.
                                 ______
                                 
  PREPARED STATEMENT OF HON. ANNA ESHOO, A REPRESENTATIVE IN CONGRESS 
                      FROM THE STATE OF CALIFORNIA

    Mr. Chairman, thank you for your work and for calling this 
important hearing.
    I'm pleased that the President has expressed a commitment to 
education and technology. But in his plan titled ``No Child Left 
Behind'' I was concerned to read that the E-Rate could be consolidated 
with other technology grant programs.
    I know that many of us believed President Bush's proposal to 
convert the E-Rate into a block grant program with other Department of 
Education technology programs would be a grave mistake. But I was 
pleased to hear that Secretary Paige calmed the concerns of many by 
saying the E-Rate would not be consolidated into the Department of 
Education.
    The universal fund is an economic security issue as much as an 
educational or telecommunications issue. By putting computers in the 
classroom the E-rate is helping build the next generation of scientists 
and mathematicians. In order for our children to succeed in the 21st 
century they must be computer literate and we must work to give our 
children access to the tools they need to learn and succeed.
    Our goal must be for every child in America to bridge the digital 
divide. Currently, the E-Rate programs serves all schools--public, 
private and parochial. The program is targeted to poor schools and 
rural schools. Each school gets to apply for the telecommunications 
services they want and need.
    In 1994, before we had the E-Rate, 3% of classrooms were wired, 
while in 2000 72% of classrooms were wired. It is important that the E-
Rate be available to every school. If it changed to block grants, 
private and parochial schools would have to negotiate with State 
education agencies and worry about entanglements of federal 
regulations. Five years ago, Congress voted overwhelmingly in favor of 
the Telecom Act which included the establishment of the Universal 
Service Fund for the Internet--which we call the E-rate. In the House 
the vote was 414 to 16. In the Senate the vote was 91 to 5.
    I hope the President and the Congress can stay as committed to the 
E-Rate as we were in 1996. Today the stakes are high and I do not 
intend our children to miss out on the global economy.
    Thank you, Mr. Chairman, and I appreciate you holding this very 
informative hearing.
                                 ______
                                 
 PREPARED STATEMENT OF HON. ELIOT ENGEL, A REPRESENTATIVE IN CONGRESS 
                       FROM THE STATE OF NEW YORK

    Thank you, Mr. Chairman, for holding this informational briefing on 
public and private investments in education technology. We all know 
that technology has become an integral part of our lives, and that 
students must have access to information technology in order to 
increase their achievement in school and to provide them with the 
skills they need to succeed in the workplace.
    Unfortunately, however, many American students do not have access 
to computers and the Internet. There is a significant ``digital 
divide'' separating American information ``haves'' and ``have nots.'' 
There is a persistent and growing discrepancy between the information 
rich--who tend to be wealthier, more educated, and living in more 
affluent suburbs--and the information poor--who tend to be poorer, less 
educated, and living in rural areas or central cities.
    The digital divide is quite evident in my Congressional District. 
Many of the schools in the Bronx and Westchester are too old to be 
wired, do not have adequate funds to buy computers, and are too 
concerned with teaching children the basics in overcrowded, underfunded 
schools. Seeking out companies to donate the necessary equipment to 
bridge the digital divide is a burdensome task that is too infrequently 
undertaken. As a result, many of the students in my district have no 
experience working with computers or the Internet.
    Despite these barriers, one middle school in my district has formed 
a unique collaboration with both Manhattan College and Apple to provide 
computers to every student in the school and created a supportive 
learning environment for its students. The school, Middle School 368, 
or the ``Information Technology School'' (In-Tech), provides every 
child at the school an I-Mac lap-top computer to be used for 
schoolwork, homework, research purposes and communicating with 
teachers, via email, after school hours. The children are being taught 
how to use the hardware and different software applications for both 
basic school applications and 'real-world' applications used by graphic 
designers and web designers. Manhattan College provides In-Tech with 
support for an extended school day and an inspirational new math 
program to encourage girls, who too often avoid math, to master the 
subject matter. The school also offers a before school program where 
girls and boys can play mathematical games and learn math in a fun, 
stress-free manner. In-Tech's tremendous technology will be adapted for 
the morning sessions so that the kids will have access to over 50 math-
geared Internet sites.
    I am proud to highlight In-Tech as a wonderful example of how we 
can use technology in the classrooms. I look forward to hearing from 
the rest of the panel on other ways we can incorporate technology into 
education.
                                 ______
                                 
  PREPARED STATEMENT OF HON. GENE GREEN, A REPRESENTATIVE IN CONGRESS 
                        FROM THE STATE OF TEXAS

    Mr. Chairman: I want to commend you for calling this hearing today 
to provide the Subcommittee with a better picture of exactly what types 
of technology assistance are available from both the public and private 
sector to help bridge the Digital Divide.
    Mr. Chairman, five years ago the Internet was just starting to 
reveal its true potential.
    Today, in the half decade since the passage of the 
Telecommunications Act of 1996, we have a clearer understanding of how 
to apply the benefits of the Internet to many of the social problems 
facing this country.
    In particular, the Internet offers the hope and promise of being a 
significant educational tool.
    Access to the Internet provides our children with boundless 
information options. Our goal now needs to be how we can use that 
information and raise the educational standards of our nation's 
children.
    The focus of today's hearing will be on examining all types of 
federal, state, local, and private efforts to bring the Internet to 
schools.
    I want to make some brief comments concerning the positive effects 
that the federal E-Rate program is having in my state and community.
    The State of Texas has received over $26 million dollars in the 
last two years via the E-Rate program.
    The Houston Public Library system has benefitted from over $400,000 
in E-Rate grants over the last three years.
    And Houston area schools benefitted from over $9 million dollars of 
funding from E-Rate in the most recent program year alone.
    E-Rate is working.
    I understand that President Bush would like to eliminate this 
valuable education tool and block grant the money to the states, but my 
local folks are telling me they like the program just the way it is.
    Consolidating or eliminating this valuable educational tool would 
be a disservice to the children of this country.
    That is not to say the program cannot be fine tuned.
    I am sure many of you are aware of the General Accounting Office 
(GAO) report highlighting some difficulties being experienced by the 
Universal Service Administrative Corporation (USAC) in getting the 
Schools and Libraries Division up and running.
    Of particular concern was the amount of obligated funds going 
unspent because of the many problems schools and libraries encountered 
when submitting the necessary paperwork acknowledging receipt of 
service.
    Without this paperwork indicating that they are receiving service 
from their vendor, the USAC cannot release funds for reimbursement.
    The Subcommittee is going to be hearing from Ms. Moore, President 
of the Schools and Libraries Division who I hope will touch on measures 
being undertaken by her organization to improve the disbursement rates.
    Money obligated, but not spent, keeps children who need the 
Internet for homework or school projects from accessing it.
    Although I hope this program will eventually become a model of 
efficiency, I have introduced The Children's Access to Technology Act 
to ensure that no obligated funds go unspent.
    My legislation creates a new fund for Title I schools using any 
obligated funds that go unspent at the end of any E-Rate program year.
    I understand funds are tight for this program, but we should use 
every dollar given. We also should urge the FCC to increase overall 
funding.
    Again Mr. Chairman, I appreciate you calling this hearing today and 
I hope we will get some new suggestions on ways to increase the flow of 
technology to our children no matter what the source.
    Thank you and I yield back the balance of my time.
                                 ______
                                 
 PREPARED STATEMENT OF HON. BILL LUTHER, A REPRESENTATIVE IN CONGRESS 
                      FROM THE STATE OF MINNESOTA

    Thank you, Mr. Chairman, for recognizing me.
    While some may think it a bit trite to say, I believe we all agree 
that giving every school-aged child access to the Internet is a 
challenge that Congress must meet. Given the importance of information 
technology in the modern economy, it is crucial that all of our 
children at a young age--whether they are rich or poor, urban or 
rural--become acquainted with cyberspace and all of its resources. With 
the rapid and astounding progression of the Internet, this need to 
educate all of our children in such a fashion is only going to become 
more critical in the future. Otherwise, we will be fostering an entire 
generation of citizens who will be at a basic disadvantage in our 
global economy.
    Mr. Chairman, I look forward to hearing the testimony from our 
witnesses today to see how effective federal programs are at meeting 
the needs of a modern education. Thanks you, Mr. Chairman, and I yield 
back the balance of my time.
                                 ______
                                 
    PREPARED STATEMENT OF HON. JOHN D. DINGELL, A REPRESENTATIVE IN 
                  CONGRESS FROM THE STATE OF MICHIGAN

    Thank you, Mr. Chairman, for holding this important hearing on the 
subject of technology and education. First, I would like to extend my 
appreciation to all the witnesses for appearing today, and extend a 
special welcome to our distinguished guests from the Michigan Virtual 
University, David Spenser and Jamey Fitzpatrick. I am pleased that you 
could be here to share information about your important work with the 
Committee.
    Today's hearing focuses on what is perhaps the single most 
important challenge of the Information Age. That is, how do we make 
sure that every child across the nation has an equal opportunity to 
access the latest technology in furthering his or her education.
    Our new President campaigned on the slogan that ``no child will be 
left behind'' when it comes to education. I was pleased to note in 
recent press reports that Mr. Bush has reconsidered his earlier 
proposal to move the e-rate program to the Department of Education, 
presumably to be administered through block grants. I believe that move 
would have been a disaster for schools and libraries everywhere, but 
particularly those in the neediest areas of the country who have come 
to rely so heavily on this program.
    If the President really wants to leave no child behind, then I 
believe it is absolutely essential that he and Congress work together 
to make sure the ``digital divide'' is closed in education, and the 
sooner the better.
    Along those lines, a particularly distinguished and highly 
respected leader in government service once said, and I quote, ``Some 
say all you have to do is pull yourself up by the bootstraps, but there 
are too many people who don't have boots, let alone straps.'' That 
compelling observation was made in 1995 by now Secretary of State Colin 
Powell. Powell also happens to be one of the founding members of 
PowerUp, an organization represented by one of the witnesses before the 
Committee today, whose explicit mission is to close the digital divide.
    So it appears that at least the elder Powell would agree the 
digital divide issue is an important one. In my view, it is self-
evident that all children today must have an equal opportunity to 
access computers and other information technology if they have any hope 
of being competitive in the job markets of tomorrow.
    That is why Mr. Towns and I introduced the Digital Bridge Trust 
Fund Act last Congress. It would have phased out the telephone excise 
tax over a period of years, and in the interim used the money to build 
a trust fund targeted at bridging the digital divide. The trust fund 
would accomplish a number of things. It would help train new teachers 
in the use of technology in the classroom. It would help low-income and 
rural communities provide better access to computers and hands-on 
training. And it would help strengthen NTIA's Technology Opportunities 
Program, also known as the ``TOP'' program, which provides matching 
funds to innovative community technology programs. Mr. Towns and I plan 
to reintroduce this legislation in the near future, and I look forward 
to working with Chairman Upton and other Members of the Committee on 
this important legislation.
    Among the programs the Committee will be discussing today is the e-
rate program. While the goals of the program are laudable, I have, in 
the past, taken issue with the breadth of the FCC's authority in this 
area. But in July of 1999, the 5th Circuit Court of Appeals upheld the 
legality of the FCC program as designed, and that decision was later 
upheld by the U.S. Supreme Court. With those decisions behind us, there 
is no uncertainty as to the legitimacy of the e-rate program. And, 
after an uncertain start, the FCC has--to its credit--modified the 
program to ensure that the neediest schools and libraries have priority 
in receiving e-rate funds.
    However, there is still one area of particular concern that I think 
should interest all Committee Members. The e-rate program is financed 
by contributions made by all telecommunications carriers to the 
Universal Service Fund. These companies are then permitted to collect 
from customers what they have contributed to the fund. However, no 
controls currently exist to make sure these companies do not collect 
more from consumers than they are actually paying into the fund.
    Given that some companies are charging as much as 8.5% of the 
consumer's telephone bill for the e-rate, and the FCC, through the 
USAC, only collects at a rate that is slightly more than 5%, we must 
ask where the rest of the money is going. Clearly no company should be 
cutting a fat hog on the e-rate program. If excess money is collected, 
it should be refunded to customers in a timely manner.
    Mr. Chairman, I certainly hope we can get to the bottom of this 
billing and collection problem with due haste. Our constituents deserve 
to know that their money is being properly spent. Thank you, Mr. 
Chairman, and I yield back.

    Mr. Upton. We welcome Ms. Kate Moore, President of Schools 
and Libraries Division of the Universal Service Administrative 
Company; Dr. David Spencer, President and CEO of Michigan 
Virtual University; Dr. Dan Domenech, already defined as the 
Fairfax County Public Schools Superintendent; Sister Dale 
McDonald, Director of Public Policy and Educational Research 
from the National Catholic Education Association; Ms. Judith 
McHale, President and COO of Discovery Communications; Mr. Hal 
Krisbergh, Chairman and CEO of WorldGate Communications; Ms. 
Rae Grad, Chairman of the PowerUP-Bridging the Digital Divide; 
Ms. Jennifer House, Vice President of Strategic Relations for 
Classroom Connect, and Dr. Emlyn Koster, President and CEO of 
Liberty Science Center.
    At this point, we will probably take about hopefully what 
will only be about a 15-minute break for allowing members to go 
and vote and return. Hopefully there will not be an immediate 
vote following that. At that point, when we come back we will 
start with your testimony and proceed as long as we can go.
    [Brief recess]
    Mr. Upton. We did have a couple of votes. I am told that we 
have about an hour once this present vote expires and at that 
point we are probably going to have six consecutive votes, so 
we will probably break at that point for a little while.
    Your statements are made part of the record in their 
entirety, and what I would like to do is limit your oral 
presentation to about 5 minutes. We have a little timer that 
Will is going to operate--I can do it myself, but it is fun 
little gadget here. When we first started, we had little 
kitchen eggtimers, so we have moved on.
    Ms. Moore, we will start with you, and you will see how 
this thing works. There is a little yellow light that gives you 
an advance that probably about 30 seconds later the 5 minutes 
will expire, but if you would limit your remarks to about 5 
minutes, that would be terrific.

 STATEMENTS OF KATE L. MOORE, PRESIDENT, SCHOOLS AND LIBRARIES 
 DIVISION, UNIVERSAL SERVICE ADMINISTRATION COMPANY; DAVID A. 
SPENCER, PRESIDENT AND CEO, MICHIGAN VIRTUAL UNIVERSITY; DANIEL 
  A. DOMENCH, DIVISION SUPERINTENDENT, FAIRFAX COUNTY PUBLIC 
 SCHOOLS; SISTER DALE McDONALD, DIRECTOR OF PUBLIC POLICY AND 
EDUCATIONAL RESEARCH, NATIONAL CATHOLIC EDUCATION ASSOCIATION; 
   JUDITH A. McHALE, PRESIDENT AND CHIEF OPERATING OFFICER, 
  DISCOVERY COMMUNICATIONS, INC.; HAL KRISBERGH, CHAIRMAN AND 
  CEO, WORLDGATE COMMUNICATIONS, WISH TV; RAE GRAD, CHAIRMAN, 
  POWERUP: BRIDGING THE DIGITAL DIVIDE; JENNIFER HOUSE, VICE 
PRESIDENT OF STRATEGIC RELATIONS, CLASSROOM CONNECT, INC., AND 
  EMLYN H. KOSTER, PRESIDENT AND CEO, LIBERTY SCIENCE CENTER, 
                       LIBERTY STATE PARK

    Ms. Moore. Thank you, Mr. Chairman. Thank you and members 
of the committee. I appreciate the opportunity to be here today 
to describe the work of the Schools and Libraries Division of 
the Universal Service Administrative Company, known as USAC, as 
we administer the Schools and Libraries Universal Service 
Support Mechanism, also know as the ``E-rate''.
    The Schools and Libraries Program provides up to $2.25 
billion annually in support of eligible schools and libraries 
to help offset the cost of advanced telecommunications 
services. Libraries, public schools, private schools, 
kindergarten through high school are eligible for the program.
    Over the first 3 years of the program, we have committed 
$5.8 billion funding over 82,000 applications to organizations 
in all 50 States, the District of Columbia, and all United 
States Territories.
    The neediest schools and libraries have been served with 
the majority of the funding going to them. More than 80 percent 
of public schools, well over a third of Catholic schools, over 
10 percent of other private schools, and more than half the 
nation's libraries are participating in this program.
    The commitments we have made to the eligible entities 
receive discounts ranging from 20 to 90 percent on 
telecommunications services or Internet Access as well as 
internal connection projects, projects which help to wire a 
network and facilitate the use in schools and libraries of 
advanced telecommunications services, and that range of 
discount--those range of discounts correspond to the income 
level of students' families and whether that location is urban 
or rural.
    While it is schools and libraries who apply and receive 
commitment of funds from the SLD, the actual cash disbursements 
are made consistent with the Act to service providers. This 
program is not a grant program, it is a discount program 
covering telecommunications and related services.
    I should note that USAC has no policy role. We simply 
administer the Universal Service Fund in accordance with 
regulations promulgated by the Federal Communications 
Commission.
    The administration of the program is based on three 
principles--reliance on marketplace competition with the whole 
theme of the Telecommunications Act dependence on local 
decisionmaking, and requirement for local investment. Indeed, 
to receive funding applicants must certify that they have 
secured access not only to their share--that is, the 
undiscounted portion of the bills that they get--but also to 
other required resources, such as the computers, professional 
training and software.
    Internally, we operate with a commitment to integrity and 
effective stewardship, excellence in client service, and cost-
effective administration. We take very seriously our 
responsibility for program integrity and invest heavily in the 
review and audit functions.
    As for cost-effective administration, last year costs were 
less than 2 percent of the program funds. For each year of the 
program, we have received over 30,000 applications for funding, 
most of them happily filed online. We are beginning now to 
review the 37,000 applications received for the fourth year of 
the program, where demand is estimated to be over $5.7 billion.
    The FCC has established a priority system that we must 
follow when demand exceeds available funds. The first priority 
is to support telecommunications and Internet Access, and the 
second priority is to support internal connections requests, 
starting first with the neediest applicants and making 
commitments to the less needy only as funds permit.
    In closing, Mr. Chairman, let me turn to a survey report 
developed by members of the Education and Library community, 
``E-rate: Keeping the Promise to Connect Kids and Communities 
to the Future'', because this speaks to the heart of the 
program and what we do.
    The E-rate has increased opportunities for learning in 
schools and libraries across America. Students are actively 
involved in dialogs either through e-mail or videoconferencing, 
with scientists and other experts, as well as fellow students 
from around the world.
    As Karon Tarver, Technology Director for the East Chambers 
Independent School District in Winnie, Texas commented, ``The 
E-rate has helped this farming community student body to see 
beyond the rice fields. Students are more interested in 
technology and participating in a global economy.''
    Thank you, Mr. Chairman and members of the committee in 
this program. I would be pleased to answer your questions.
    [The prepared statement of Kate L. Moore follows:]

 PREPARED STATEMENT OF KATE L. MOORE, PRESIDENT, SCHOOLS AND LIBRARIES 
           DIVISION, UNIVERSAL SERVICE ADMINISTRATIVE COMPANY

    Good morning, Chairman Upton and Members of the Committee. My name 
is Kate Moore, President of the Schools and Libraries Division of the 
Universal Service Administrative Company. I would like to thank you for 
the invitation to appear before you today and to provide you with 
information about what the Universal Service Administrative Company is 
doing to administer the Schools and Libraries Universal Service Support 
Mechanism, also known as the ``E-rate.''
    My testimony will focus on three areas:

1. Description of USAC, and the operations supporting the Schools and 
        Libraries Program

2. Programmatic Highlights

3. Recent Improvements for Program Participants

               USAC AND THE SCHOOLS AND LIBRARIES PROGRAM

    The Universal Service Administrative Company (USAC) is a private, 
not for profit corporation incorporated in September 1997 with the 
purpose of administering the four Federal universal service 
mechanisms--the High Cost support mechanism, which supports 
telecommunications in areas costly to serve, the Low Income support 
mechanism, which helped low income telephone subscribers, the Rural 
Health Care support mechanism which supports telecommunications 
services for rural not for profit health care providers and the schools 
and libraries support mechanism, which supports telecommunications, 
Internet access and internal connections to libraries and k-12 schools. 
Through that work we are providing every state, the District of 
Columbia and all territories with access to affordable 
telecommunications services.
    Until 1996, the Universal Service Fund supported only two support 
mechanisms--the High Cost support mechanism and the Low Income support 
mechanism. In the Telecommunications Act of 1996, Congress expanded the 
reach of the Universal Service Fund to provide support for not for 
profit rural health care providers and schools and libraries.
    The Universal Service Fund is generated through contributions from 
all telecommunications companies in the United States, including local 
and long distance phone companies, wireless and paging companies and 
pay phone providers. USAC administers the Universal Service Fund under 
regulations promulgated by the Federal Communications Commission (FCC). 
Although consumers benefit from the Universal Service Fund, only 
companies that provide telecommunication and other services may draw 
money directly out of the Universal Service Fund, which defrays the 
cost of delivering service to consumers.
    The High Cost is the largest support mechanism and will provide 
estimated explicit support of $2.7 billion in 2001, the Low Income $600 
million, Rural Health Care $10 million and Schools and Libraries $2.25 
billion. These programs together provide affordable access to modern 
telecommunications services for consumers, rural health care providers, 
schools and libraries regardless of geographic location or 
socioeconomic status. The Schools and Libraries Division (SLD) manage 
the day-to-day operations of the Schools and Libraries program.
    A Board of Directors governs USAC and oversees the actions taken by 
management and the Board Committees. The USAC Board of Directors is 
comprised of nineteen members and includes representation from the 
telecommunications and information services industry, state 
telecommunications regulators, state consumer advocates, low-income 
consumers, education and library community and the USAC CEO.
    USAC has no policy role; its job is to administer the Universal 
Service Fund in accordance with FCC regulations. We are not permitted 
to advocate policies or to lobby; our role is simply to effectively and 
efficiently implement the program consistent with FCC rules and 
regulations.
    The Schools and Libraries Program provides support for eligible 
schools and libraries to help offset the cost of advanced 
telecommunications services. Public and private schools, kindergarten 
through high school are eligible. FCC rules rely on state law for 
precise definitions of ``schools'' for the determination of eligibility 
for the program. Public libraries, and many private ones, are eligible 
for the program.
    Eligible schools and libraries receive discounts ranging from 20 to 
90 percent on the following services:

<bullet> Telecommunications services, including local and long-distance 
        service
<bullet> Internet access
<bullet> ``Internal connection'' projects such as wiring and networking 
        schools and libraries to facilitate the use of advanced 
        telecommunications technology.
    The range of discounts available to schools and libraries 
corresponds to the income level of students in their community and 
whether their location is urban or rural. Income for a school or 
district is measured by the percentage of students eligible for the 
National School Lunch Program (NSLP) administered by the United States 
Department of Agriculture.
    While it is members of the schools and libraries community who 
apply for the funds, and who receive commitments of funds from SLD, the 
actual cash disbursements are made, consistent with the 
Telecommunications Act, to service providers, after the services have 
been delivered to the customer. This program is not a grant program; it 
is a cost-reduction program for the schools and libraries.
    SLD has committed $5.8 billion for the first three program years--
to all states, the District of Columbia and all territories. The 
neediest schools and libraries have been served. More than 80% of 
public schools, more than a third of Catholic schools, over 10% of 
other private schools, and more than half the Nation's libraries are 
participating.
    The application process is a three-step process. First, the 
applicant completes a form that we post for 28 days on our web site 
that serves as an open invitation for vendors to bid. At the same time 
the applicant develops or refines a technology plan, ultimately to be 
approved by agencies such as the state department of education or the 
state library agency. Secondly, after the 28-day period the applicant 
is free to select the vendors, sign a contract for services and send us 
another form with details concerning their selection of products and 
services and vendors. Finally, after the vendor has begun delivery and 
the service is working as contracted, the applicant completes another 
form, affirming the technology plan has been approved and allowing us 
to pay the vendor.
    The administration of the program is based on the following three 
principles:

1. Reliance on marketplace competition. Applicants must seek 
        competitive bids on all services the program supports. Our web 
        site provides a national bulletin board to advertise their 
        service needs. State and local competitive bidding procedures 
        drive the process.

2. Dependence on local decision-making. The local public or private 
        schools and libraries have the flexibility to select the 
        technology and network design that will best meet their 
        educational needs. Selection of service providers is also made 
        by the school, school district or diocese, the library, or, in 
        the case of statewide applications, by the state. USAC is not 
        involved in selecting the type of service, service 
        configuration or vendors. State and local needs and procurement 
        laws and regulations, with the specific program requirement 
        that they choose the most cost-effective bidders, drive the 
        decision process. In addition, the application process is open 
        to organizations at the school level, the school district 
        level, and the state level. The same openness is true for the 
        library sector. The decision about who administers the Schools 
        and Libraries program funded projects is a flexible one--made 
        by local and state authorities, based on their needs, not 
        USAC's needs.

3. Requirement for local match. No matter how poor the applicant, the 
        program requires state or local investment. For the neediest 
        schools, services are discounted at 90%. At the same time, to 
        receive funding, the applicants must certify that they have 
        secured access not only to their share (such as the 10% match), 
        but also to the other resources--such as computers, 
        professional training time, and software--that are needed in 
        order to effectively use the Schools and Libraries program 
        discounts.
    As indicated above, the Schools and Libraries program is designed 
to serve a broad range of applicant types, at every level, and it 
supports private schools as well as public, including secular, and 
indeed, faith-based schools.
    Before providing funding and programmatic highlights, let me 
observe that we at USAC are committed to 1) integrity and effective 
stewardship, 2) excellence in client service, and 3) cost-effective 
administration. We take very seriously our responsibility for program 
integrity. No one would want us to be anything but vigilant in assuring 
compliance with FCC rules and the law, and as you know, Congress has 
already directed GAO to undertake two in-depth studies of this program 
in the course of its three-year life. We invest significantly in the 
Program Integrity Assurance Review and audit functions.
    To help our customers participate in the program, we maintain a 
Client Service Bureau to answer their calls and e-mails. We conduct 
extensive outreach. We work closely with stakeholder groups--such as 
the Council of Chief State School Officers, the American Library 
Association, and representatives of service providers. And we maintain 
a web site on which applicants can file applications for funding and 
stay abreast of program developments.
    We are committed to program integrity and customer service and also 
to keeping administrative cost as low as possible. Last year, 
administrative cost was below 2.0% of the $2.0 billion available to 
applicants in that period.

      PROGRAMMATIC HIGHLIGHTS OF THE SCHOOLS AND LIBRARIES PROGRAM

Funding Requests and Commitments
    Over the three-year life of the program USAC has committed over 
$5.8 billion dollars for schools and libraries, funding over 82,000 
applications. In year one, we committed $1.7 billion; Year 2, $2.0 
billion; and Year 3, $2.1 billion. For each year of the program, we 
have received over 30,000 funding applications--most filed on line. We 
are beginning now to review the more than 37,000 funding requests for 
Year 4, where demand is estimated to be over $5.7 billion.
    The FCC has established a priority system that guides us when 
demand exceeds available funds, as it did in the first year of the 
program and last year as well. The first priority is to provide support 
for telecommunications and Internet Access requests. The second 
priority is to fund internal connection requests, starting first with 
the neediest applicants, and making commitments to the less needy only 
as funds permit.

Participation and Impacts
    From Year 1, participation by public schools has been high. We 
estimate that applications received within the filing window included 
requests for 80 percent of America's public schools. That increased to 
approximately 85 percent for Year 3. We believe that in-window 
applications for Year 1 covered approximately 35 percent of America's 
Catholic schools; that increased to about 38 percent for Year 3. 
Participation by other private schools has nearly doubled--from 6 
percent for Year 1 to 11 percent for Year 3. Library participation on 
in-window applications has increased from approximately 51 percent for 
Year 1 to about 62 percent for Year 3.
    The Education and Library Networks Coalition (EdLiNC) surveyed E-
rate participants across the country and reported just what 
improvements these dollars are buying in its publication E-rate: 
Keeping the Promise to Connect Kids and Communities to the 
Future.<SUP>1</SUP> In Decatur, Michigan, a rural village in the 
southwestern part of the state where half of the 1,200 students in 
public schools qualify for free and reduced-price lunch, E-rate funds 
made it possible for the Decatur Public School District to afford 
broadband T-1 connections, the only such lines in the village. The 
Decatur Public Schools are installing five Internet-connected computers 
in every classroom, which will give students access to distance 
learning opportunities and teachers access to new teaching methods and 
materials.
---------------------------------------------------------------------------
    \1\ Education and Libraries Network Coalition, E-rate: Keeping the 
Promise to Connect Kids and Communities to the Future, undated but 
released in the spring of 2000.
---------------------------------------------------------------------------
    Cathedral High School in Boston, Massachusetts, serves an 
ethnically diverse inner city low-income community. The teachers and 
staff of Cathedral High believe that Internet-facilitated instruction 
is no longer a luxury, but a necessity. Said Richard Smyth, the 
school's Library Media Specialist, ``We serve the poor . . . so E-rate 
funds [have] allowed us to provide the access that many wealthy school 
districts already provide.'' The Schools and Libraries program 
discounts enabled Cathedral High School to install networks connections 
throughout the school and purchase a T-1 connection to the Internet. 
The teachers have computers with Internet access and, with the help of 
other grants funds attracted by the E-rate funding, Cathedral is 
pursuing computers for students.
    We hear directly from many others about the impact of the program. 
From the County Librarian in Gila County, Arizona, we heard the 
following:
        Gila County Library District serves a county with an area of 
        4700 sq.mi. and a population of 50,000. The e-rate helps us 
        with the cost of networking eight public libraries and two 
        schools scattered throughout this area, in remote communities 
        as well as small towns. One library is on the San Carlos Indian 
        Reservation, and one is accessible by a two-hour trip on an 
        unpaved road. Our e-rate allows us to bring Internet service to 
        populations that have no other local public access. Students, 
        parents, winter visitors, temporary workers and the general 
        public have all benefited from this connectivity.
    More formally, the U.S. Department of Education's National Center 
for Education Statistics reported last year that the portion of 
instructional rooms with Internet access in public schools increased 
from 51 percent in 1998 to 63 percent in 1999.<SUP>2</SUP> We believe 
that E-rate funds were a major contributor to that increase, with funds 
from Year 1 and 2 accounting for nearly 1 million newly connected 
classrooms.
---------------------------------------------------------------------------
    \2\ National Center for Education Statistics, Internet Access in 
U.S. Public Schools and Classrooms: 1994-99, February 2000.
---------------------------------------------------------------------------
    The Schools and Libraries program also impacts service providers 
and, through them, the economy. Some 4,733 service providers received 
the Schools and Libraries program commitments for Year 3, ranging from 
America's largest telecommunications companies and advanced 
communications equipment manufacturers to small telephone companies, 
Internet service providers, cabling installers and other small 
businesses.
    The U.S. Department of Education sponsored a formative evaluation 
of the E-rate program's effects by the Urban Institute.<SUP>3</SUP> It 
examined data from the first two years of the program and linked SLD 
data with data from the National Center for Education Statistics. The 
major findings of the report were:

    \3\ Michael J. Puma, Duncan D. Chaplin, and Andreas D. Pape, E-Rate 
and the Digital Divide: A Preliminary Analysis from the Integrated 
Studies of Educational Technology, September 2000.
---------------------------------------------------------------------------
<bullet> America's public schools have taken the greatest advantage of 
        the program, accounting for about 84 percent of the total 
        funds.
<bullet> The E-rate is having the intended effect of supporting the 
        development of Internet and telecommunications services, 
        especially in poor areas. Per student funding to school 
        districts increases dramatically with poverty.
<bullet> Larger entities take greater advantage of the E-rate program, 
        suggesting that larger organizations may have more of the 
        human, technical, and fiscal capacity needed to apply for the 
        E-rate program.
<bullet> Because of the program's preference for high-poverty schools 
        and the greater ability of large organizations to take 
        advantage of the E-rate, urban areas fare well in the program. 
        Funding generally increases with increasing concentrations of 
        minority students.
<bullet> Controlling for poverty in districts where up to 50 percent of 
        the students qualify for free or reduced price lunch, rural 
        districts receive higher funding per student than urban 
        districts.
<bullet> The largest share of E-rate funds (58 percent) has gone to 
        support the acquisition of equipment and services for internal 
        building connections, particularly in the higher-poverty 
        districts where, the authors suggest, schools may have had 
        particularly poor infrastructure and wiring to support the 
        development and effective use of telecommunication services.
<bullet> States vary greatly in their use of the E-rate, and the 
        differences are probably driven to a large degree by the E-rate 
        funding formula, which favors poverty and rural location.
              recent improvements for program participants
    We strive continuously to simplify and clarify the program and make 
it easier for our participants.
    In consultation with the FCC, we changed the two most important 
forms for program participation for Year 3 to make it easier for 
applicants to complete the forms. We have made additional improvements 
in Year 4 by making it easier for applicants to file forms online on 
our web site. For Year 4, applicants filed 84 percent of the funding 
request forms themselves online. This broad participation rate in 
online filing means fewer mistakes by applicants, lower administrative 
costs, and a speedier process of reviewing applications. In the year 
ahead, we will have more forms available to complete and submit online.
    The Client Service Bureau available through a toll free number, is 
our first point of contact with applicants. We have emphasized better 
training and more frequent updates to help ensure that our staff at the 
Client Service Bureau gives applicants good advice. We are giving the 
Bureau new tools to help them get correct information and track the 
information they give.
    The FCC has provided enhanced flexibility in the program. Recently 
it has decided to permit applicants to change service providers more 
easily, to permit applicants and service providers to substitute 
services when new or different equipment can better meet the need, and 
to expand timeframes for implementation of one-time purchases and 
installation.
    In closing, let me turn back to the survey report I cited earlier 
E-rate: Keeping the Promise to Connect Kids and Communities to the 
Future. The findings were very heartening to those of us who work every 
day to deliver the promise of access to advanced telecommunications and 
technology to students and communities across this land. The report 
concludes that:
        . . . the E-rate has increased opportunities for learning in 
        schools and libraries across America. Survey respondents report 
        that teachers are using their new Internet access to lead 
        children on ``virtual field trips'' to zoos, museums, 
        libraries, national parks and even foreign countries. Students 
        are actively involved in dialogues either through e-mail or 
        videoconferencing, with scientists and other experts, as well 
        as fellow students from around the world. School are joining 
        together to participate in collaborative online projects, such 
        as the annual tracking of monarch butterflies, and students are 
        becoming much more interested in their own education. For 
        example, in the Holly Springs School in Holly Springs, 
        Mississippi, a rural, high-poverty school district, second 
        grade students are becoming more intellectually engaged and 
        curious learners, finding out about foreign countries on the 
        Internet, corresponding with pen pals and dramatically 
        improving their vocabulary. As Karon Tarver, Technology 
        Director for the East Chambers Independent School District in 
        Winnie, Texas commented, ``The E-rate has helped this farming 
        community student body to see beyond the rice fields. Students 
        are more interested in technology and participating in a global 
        economy.'' <SUP>4</SUP>
---------------------------------------------------------------------------
    \4\ Education and Libraries Network Coalition, E-rate: Keeping the 
Promise to Connect Kids and Communities to the Future, undated but 
released spring 2000, page 9.
---------------------------------------------------------------------------
    Thank you for your interest in the Schools and Libraries program 
and the opportunity to address this Subcommittee today. I would be 
pleased to answer your questions.

    Mr. Upton. Thank you.
    Dr. Spencer.

                  STATEMENT OF DAVID A. SPENCER

    Mr. Spencer. Good morning, Mr. Chairman and members of the 
committee, my name is Dr. David Spencer. I'm the President and 
CEO of the Michigan Virtual University. It's a pleasure to be 
here this morning, and I guess I would start my testimony by 
framing the size of our knowledge economy as around $2.2 
trillion, and the online component of e-learning within that 
economy is presently about $9.4 billion, and it is projected to 
increase to about $53 billion by 2003. We are looking at about 
a compound annual growth rate of about 54 percent just in the 
e-learning world.
    The Michigan Virtual University is pleased to participate 
this morning. We are a private, not-for-profit corporation with 
a Board of Directors made up of corporate executives, higher 
education and K-12. It was initially formed by Governor John 
Engler and the Michigan Economic Development Corporation to 
accelerate the capacity of workforce development in our State 
for the automotive industry, IT, biotech, and we have initially 
provided corporate training and education to a vast array of 
companies throughout our State. This is part of a ``Smart 
State'' initiative throughout our State of Michigan that 
Governor Engler has put in place.
    In addition to corporate training and education online, the 
Michigan Virtual University has some other unique public-
private partnerships. One of those unique public-private 
partnerships is our agreement to work in a noncompetitive with 
86 Michigan colleges and universities. At the present time, we 
have signed agreements with the President's Council, State 
universities of Michigan, which include 15 public 4-year 
universities, our 28 Michigan community colleges, as well as 
our independent colleges and universities within the State.
    We have approximately 750 online degree program courses. We 
have about 12,000 students a semester taking online courses 
that are credit-oriented. And we also have training and 
education available for our faculty at our colleges and 
universities to help them become distance-learner providers 
within those institutions.
    In addition to that, the Michigan Legislature and Governor 
John Engler provided the Michigan Virtual University with an 
$18 million grant to inaugurate the Michigan Virtual High 
School. In much the same way the Virtual University does not 
compete by offering its own degree, the Virtual High School 
does not offer its own diploma. Instead, we offer, in 
conjunction with the local school districts, an online 
education which is supplementary to what is offered right there 
with the local schools. This has been a great program.
    One of the first launches in this program has been with an 
Advanced Placement Academy. At the present time, approximately 
55 percent of our schools have face-to-face education. We have 
provided, through Apex Learning, online courses for advanced 
placement. Presently, there are about 1,000 students taking 
online courses. In addition to that, we have an AP Review 
Program which includes about 10,000 students.
    Another initiative that we are working on at MVU is a 
Career Guidance System. We have just launched Talent Freeway in 
conjunction with the Michigan Department Career Development. 
This is probably on of the best online career planning systems 
available anywhere in the country today--internships, career 
development--for parents, teachers, students, counselors at the 
schools.
    Another initiative that is part of the Career Guidance 
System is we are part of the KPMG Pete Marwick Project with the 
U.S. Army for the e-Army initiative. The online Career Guidance 
System will be made available over the next 5 years to 80,000 
soldiers for their career planning use as well.
    Probably the two most significant initiatives at the 
Michigan Virtual University are the Statewide IT Training 
initiative. Governor Engler will announce next week 700 online 
IT courses available to every teacher, every student, and every 
administrator at the higher education level and the K-12 level 
in the State, with 850,000 potential users, for free, for 3 
years, to help stimulate online education and training.
    The last initiative is the Teacher Technology Initiative, 
or the Laptop Project. Governor Engler and the State 
Legislature provided $110 million to provide every teacher, 
public school teacher, 90,000-plus in the State of Michigan, a 
laptop, software and Internet connectivity. Apple, Compaq, 
Dell, Gateway, IBM joined together in a rigorous RFP process to 
provide laptops to Michigan school teachers, and this week we 
handed out the first laptops to teachers throughout the State.
    I will close by citing a couple of initiatives and issues 
that we're looking at in e-learning today. No. 1, I think we 
must address quality and accreditation across all of our e-
learning initiatives across the country.
    Second, I think it is critical that we respond to teacher 
and faculty readiness and professional development.
    Third, I think it is important we clarify funding issues 
for K-12 e-learning.
    And, last, it is important that we create additional public 
policy partnerships all over the country to help stimulate 
further e-learning.
    [The prepared statement of David A. Spencer follows:]

  PREPARED STATEMENT OF DAVID A. SPENCER, PRESIDENT, MICHIGAN VIRTUAL 
 UNIVERSITY AND JAMEY T. FITZPATRICK, VICE PRESIDENT, MICHIGAN VIRTUAL 
                               UNIVERSITY

     ``THERE IS NO GOING BACK. THE TRADITIONAL CLASSROOM HAS BEEN 
                      TRANSFORMED.'' <SUP>1</SUP>

---------------------------------------------------------------------------
    \1\  The Power of the Internet for Learning: Report of the Web-
based Education Commission to the President and the Congress of the 
United States, Washington, D.C., December 2000, p.1.
---------------------------------------------------------------------------
    Fundamental to the success of today's Knowledge Economy is how 
companies obtain, train and retain knowledge workers. Industry experts 
recently assessed the knowledge enterprise industry, which includes 
both training and education, at more than $2.2 trillion. From 
kindergarten to corporate America, the learning industry is exploding, 
fueled by global competition, a shortage of skilled workers, the growth 
of the Internet, cost pressures and the rapid pace of change in what we 
need to know.
    The fastest-growing trend to emerge is e-learning, with Merrill 
Lynch projecting the online component alone to grow from $9.4 billion 
to $53.3 billion by 2003, a 54 percent compound annual growth rate 
(CAGR). <SUP>2</SUP> International Data Corp. predicts an 83 percent 
CAGR in the corporate e-learning market alone in that time period, with 
e-learning in the information technology field accounting for almost 
half of all training expenditures.<SUP>3</SUP>
---------------------------------------------------------------------------
    \2\ Merrill Lynch, The Knowledge Web, May 23, 2000, p. 3.
    \3\ WR Hambrecht + Co, Corporate e-Learning: Exploring a New 
Frontier, March 2000, p. 25.
---------------------------------------------------------------------------
    On the education front, colleges and universities represent the 
most wired community on the Web with more than 90 percent of college 
students accessing the Internet and spending 85 percent of their online 
time on academic pursuits. More than 2.2 million college students are 
expected to enroll in distributed courses next year, up from 710,000 in 
1998 and representing a 33 percent CAGR.<SUP>4</SUP>
---------------------------------------------------------------------------
    \4\ Merrill Lynch, p. 171.
---------------------------------------------------------------------------
    About Michigan Virtual University (MVU): Michigan Virtual 
University delivers e-learning to corporate, higher education and K-12 
audiences via the World Wide Web, intranets and other electronic 
technologies. It is a vehicle for updating Michigan's workforce to help 
keep businesses, jobs, workers and students in Michigan. It is both a 
catalyst for expanding the use of electronic learning technologies and 
a channel through which Michigan schools, colleges, universities and 
corporate course providers can make their e-learning offerings 
available to the Michigan public.
    Established in 1998 by Governor John Engler and the Michigan 
Economic Development Corp.<SUP>5</SUP>, Michigan Virtual University is 
a private, 501(c)(3) Michigan corporation governed by a board of 
directors representing the Michigan employer community, educational 
leaders and state government. MVU programs and services are available 
for all kinds of training needs, but have special focus on Michigan's 
core industries, including manufacturing, information technology and 
health care.
---------------------------------------------------------------------------
    \5\ previously the Michigan Jobs Commission
---------------------------------------------------------------------------
    Among MVU's primary goals:

<bullet> Establish MVU as the primary front door for distributed 
        learning.
<bullet> Expand the capacity of Michigan education and training 
        providers to use technology to provide more convenient and 
        cost-effective distributed learning and training opportunities 
        for Michigan's core industry sectors.
<bullet> Coordinate the development and deployment of common standards 
        for technology and student access systems, as well as high-
        quality online products and services.
<bullet> Facilitate the implementation of K-12 and higher-ed technology 
        initiatives that will accelerate their impact and spur the 
        growth of a powerful distributed learning infrastructure 
        spanning the many education systems of the state.
       corporate education and training for workforce development
    A major goal for Michigan Virtual University is to facilitate 
collaboration between business and education in support of Michigan's 
``Smart State'' strategy to become a major high-tech industry center 
and exporter of information technology products. Accordingly, MVU has 
developed partnerships with such corporations as Ameritech, Consumers 
Energy, Steelcase, General Motors, Ford Motor Co. and DaimlerChrysler 
to develop a model for modernizing job training and creating synergy 
between a tech-savvy workforce and Michigan business.
    MVU is the parent corporation of the Michigan Virtual Automotive 
and Manufacturing College and the Michigan Virtual Information 
Technology College. In the context of economic development, MVU works 
to help companies develop an e-learning strategy that will keep their 
workforce up to date and the company competitive. The goal always is to 
design solutions that provide exactly the training that is needed, 
when, where and how it is needed.
    Through online training, companies increase the likelihood of 
getting training to employees wherever they live and work, retain 
valuable employees longer, and stretch their training budgets by saving 
travel costs. Employees appreciate the scheduling flexibility of 
anytime, anywhere learning and the expanded training opportunities that 
will enhance their value to the company and their potential earnings.
    During the last three years, MVU has engaged in a number of unique 
projects and partnerships. Our testimony today will focus on major 
current initiatives:

                HIGHER EDUCATION PARTNERSHIPS & PROGRAMS

    The Michigan Virtual University supports a public policy role in 
accelerating the capacity of Michigan higher education institutions to 
develop and deliver Web-based training and education opportunities. MVU 
initiatives to support this important statewide role include marketing 
and promotion activities, providing a supportive ``incubator'' 
environment for the development and delivery of Web-based courses, 
faculty and staff development programs, instructional design 
consulting, and quality assessment tools. MVU staff often serve as key 
external catalysts to initiate campus-wide dialogs on the institutional 
and faculty issues surrounding virtual teaching and learning.
    The MVU Web-based products and services offered to our partner 
institutions are all designed to address identified barriers to the 
adoption of online teaching and learning. MVU offers institutions the 
ability to conduct their first online programs using a technology 
infrastructure of servers, course management software, e-commerce 
systems, and a help desk to significantly offset initial costs and 
risks of such trials. An online faculty development program has been 
successful in teaching faculty to prepare instructionally sound online 
courses and to engage students in interactive activities. A recently 
developed tool, the Michigan Instructional Design Evaluations System, 
provides an objective system for faculty to assess the instructional 
design quality of courses. The MVU course catalog provides a statewide 
portal to all of the online, credit-bearing courses available from our 
institutional partners. At present, more than 750 course offerings can 
be accessed by student users and represents an estimated of over 12,000 
students enrolled in online courses each semester.
    MVU has established key partnerships with the state's institutions 
including signed agreements with the 15 public four-year universities 
through the Presidents Council, State Universities of Michigan, the 28 
community colleges through the Michigan Community College Association 
(MCCA), and selected private and independent colleges. One of the key 
success stories has been the support of the community college MCCA-
Virtual Learning Collaborative, a model program for inter-institutional 
collaboration in the areas of common tuition, course marketing, student 
services, credit transfers and articulation. MVU also plays a key 
statewide role in identifying and assessing opportunities for the 
export of Michigan-based online training and education to global 
markets. An international partnership, the International Open 
University for Distance Learning, has been established to facilitate 
these international opportunities.
    Career Guidance System: Last month, Michigan Virtual University 
launched the first phase of TalentFreeway, a comprehensive, user-
friendly online career guidance system funded by the Michigan Dept. of 
Career Development. TalentFreeway is a one-stop Web portal for Michigan 
employers and residents for exploring and finding Michigan talent for 
jobs. It unites and capitalizes on the synergy of online state-funded 
tools that previously operated independently of each other: the 
Michigan Talent Bank, the Michigan Education Development Plan, Career 
Education Consumer Report, Michigan Occupational Information System and 
MVU.
    Designed for all ages, TalentFreeway directs individuals to the 
appropriate education and training resources to fulfill their career 
goals and aspirations. It also includes a one-of-a-kind distance 
learners' orientation tool, designed to improve their chances for 
successful online learning performance and achievement.

<bullet> Employers use the TalentFreeway to locate new employees 
        through the Talent Bank and the intern matching system. They 
        use the Career Education Consumer Report to review training 
        programs for employees' retention and skill upgrades. Michigan 
        Virtual University offers an online catalog of training 
        programs and hundreds of credit courses and degree programs 
        from Michigan colleges and universities.
<bullet> Parents can encourage their children's career exploration 
        through interest assessments, occupational descriptions and 
        biographies through the Michigan Occupational Information 
        System and Educational Development Plans. They can also help 
        themselves transition into a new career or access training.
<bullet> Teachers and guidance counselors use TalentFreeway to advise 
        students about careers, encourage parental involvement at home 
        through the Internet, create an education and training plan, 
        take online courses and search for internships.
    MVU's career guidance system enables organizations in Michigan and 
across the nation to customize the Internet Web portal for their own 
audiences.
    MVU has engaged state and federal agencies, employers, employees, 
students, teachers, parents, Chambers of Commerce and many other groups 
to ensure that the current site and future iterations meet the diverse 
career planning and exploration needs. In addition, the CGS has formed 
an advisory council of nationally recognized career counseling experts.
    Michigan Virtual High School: In 2000, the Michigan Legislature and 
Governor John Engler appropriated $18 million to MVU over three years 
to create and operate the Michigan Virtual High School. The goals of 
the new entity are:

<bullet> Expand curricular offerings for high schools across Michigan.
<bullet> Create statewide instructional models using interactive 
        multimedia Internet-based tools for distributed learning at the 
        high school level.
<bullet> Provide students with opportunities to develop skills and 
        competencies in online learning.
<bullet> Offer high school teachers opportunities to learn new skills 
        and strategies for developing and delivering instructional 
        services.
<bullet> Accelerate Michigan's ability to respond to current and 
        emerging educational demands.
    In spearheading the Michigan Virtual High School, MVU engaged a 
coalition of K-12 education groups, including the Michigan Association 
of Secondary School Administrators and the Michigan Education 
Association, the state's largest teacher union.
    The Michigan Virtual High School will target all public and private 
students in grades 9-12, students who are being schooled at home, 
adjudicated youth enrolled in institutional facility programs, and 
expelled and homebound students receiving supervised instructional 
support. The core academic focus areas will include at-risk programs, 
Advanced Placement and dual enrollment courses, information technology 
courses, and special interest or enrichment courses.
    The Michigan Virtual High School will not become an independent 
high school offering its own diplomas, nor is it intended to be a 
replacement for existing classroom-based instruction in Michigan public 
high schools. Instead, it serves as a supplemental education delivery 
mechanism to enhance and expand instructional opportunities for 
Michigan high schools and serve as a resource for rural, urban and 
suburban high schools throughout the state. Starting this spring, 
teachers, students and administrators at Michigan K-12 schools will 
have free access to more than 700 online information technology courses 
through the MVU and the Information Technology Training Initiative (see 
page 8).
    Advanced Placement Academy: MVU has forged a partnership with Apex 
Learning, Inc, a Seattle based company that designs and develops high 
quality online courseware in the area of Advanced Placement. Prior to 
the agreement, more than 40 percent of Michigan high school students 
did not have access to Advanced Placement courses at their local high 
school. The MVU/Apex agreement allows any high school to have access to 
online AP courses. In Michigan, more than 145 schools and 962 students 
have already benefited from MVU's online course scholarship offer for 
the 2000-01 school year. In addition, nearly 10,000 students have 
signed up for the Apex-developed College Board-related AP Exam Review 
services, available online March 12 at no cost to any Michigan high 
school student. The review is a self-paced, online tool that includes 
diagnostic testing, quizzes, practice exams and a self-study plan.
    Nearly 200 Michigan high school AP teachers have registered to use 
the free AP online Class Tools product, which provides teachers with 
high end multi-media content, including course units, tests, quizzes 
and reference materials for their individual classroom use.
    Oracle Internet Academies: MVU is working with the Oracle 
Corporation to establish as many as 15 Oracle Internet Academies over 
the next two years that will function as robust labs for Michigan high 
school students with online and teacher-facilitated learning in popular 
IT applications. Oracle will provide one teacher from each 
participating school with intensive, year-long training that includes 
several online courses and residential training at Oracle's Instructors 
Institute. Oracle will provide materials, technical support and 
certification exams for up to 30 students at each participating school. 
Although created with Oracle, the academies will provide non-
proprietary instruction in database development, including SQL and PL/
SQL, Java programming and Java database applications.
    U.S. Army Project: The U.S. Army has awarded a contract to 
Pricewaterhouse Coopers to provide distance education for an estimated 
80,000 soldiers over the next five years. The contract unites more than 
a dozen technology providers and an initial set of 29 higher education 
partners, including Michigan Virtual University, to create Army 
University Access Online (www.earmyu.org).
    Under a fee-for-services contract, MVU will provide the partnership 
with a set of education planning tools to assist the soldiers/students 
in exploring their career interests, academic achievements, and 
learning styles in order to make informed career and education choices. 
These tools will be customized from the newly developed MVU career 
guidance system and the Distance Learners Orientation Tool. MVU also 
will serve on the project's Council on Academic Management, which will 
provide guidance on the academic standards and policies to govern the 
selection and monitoring of participating education partners. MVU will 
represent the interests of all Michigan higher education institutions 
through this seat on the Academic Council and identify opportunities 
for them to partner with MVU in program development for the Army's 
online university.
    Ameritech Technology Academy: A coalition of Michigan educational 
organizations have created the Ameritech Technology Academy, an 
innovative program that will train Michigan K-12 teachers on how to 
effectively use and integrate technology into their curriculum and 
instructional strategies. This program will create a core of 2000 
education experts who will work with schools to help integrate 
technology in the curriculum and use technology in a sustained and 
effective manner. Through the Academy, four-person educational teams 
will learn the latest techniques and strategies for putting technology 
to work in all areas of the curriculum. In addition to the technology, 
the teams will consider how to help others in their building put 
technology to greater use. Each team consists of two teachers, a 
building-level administrator and a media specialist, teacher, or other 
person able to facilitate change among their colleagues. The Academy is 
funded primarily by a grant from Ameritech with additional support from 
Michigan Virtual University and the Michigan Dept. of Education.
    Information Technology Training Initiative: On March 12, Gov. 
Engler will formally announce the Information Technology Training 
Initiative. Through a partnership with NETg (National Education 
Training Group), a worldwide provider of online courseware, MVU will 
provide more than 700 Web-based information technology (IT) courses to 
as many as 850,000 students, faculty, K-12 teachers and staff. These 
stand-alone, self-paced courses will be made available free to 
individual educational institutions, which may add instructional 
wraparounds such as teacher instruction, supplementary content, 
customization and communication tools. Students and teachers will 
access the courses through their schools, at no cost, via the MVU Web 
site. The Information Technology Training Initiative will allow 
students greater access to IT training and enable teachers and faculty 
to integrate technology and online education into any and all of their 
courses and curricula. The courses cover all types of IT topics, 
including:

<bullet> End-user topics, such as PC basics, Internet navigation, word 
        processing, spreadsheets, databases, e-mail programs and 
        desktop publishing.
<bullet> Infrastructure topics, such as programming languages, client/
        server development tools, relational databases, intranet 
        development and mainframe issues.
<bullet> Certification learning paths. (Microsoft, Oracle, Cisco and 
        Novell; certification exams are third-party administered.)
<bullet> Management and professional development.
    Teacher Technology Initiative: In July 2000, Gov. John Engler and 
the Michigan Legislature approved $110 million in funding for the 
Teacher Technology Initiative. The goal of the program is to support 
teaching and learning in Michigan's public schools and public school 
academies through a significant one-time investment in Michigan's K-12 
teachers. To accomplish this, teachers will be provided with a personal 
computer, software, remote Internet access (dial-up) and Web-based 
professional development. Michigan Virtual University was asked by 
Governor Engler and the Michigan Legislature to provide leadership in 
working with state government and the entire education community to 
oversee the design and development of this project.
    MVU has completed a competitive review process to select five 
quality vendors, including Apple, Compaq, Dell, Gateway and IBM. Of the 
90,000-plus K-12 teachers in Michigan, more than 65,000 have completed 
a required Web-based assessment designed to determine their level of 
comfort and proficiency in using technology in the classroom. In 
conjunction with the Michigan Education Alliance, MVU is creating a Web 
site that will eventually be a statewide portal for education groups. 
In the meantime, the site (www.ClickOnK12.org) will be the default on 
all of the computers delivered through the Teacher Technology 
Initiative.
                              CONCLUSION:

    The e-learning movement has resulted in a great deal of high-level 
public policy discussion nationwide at K-12 schools, colleges and 
universities. Michigan Virtual University supports the findings and 
recommendations found in ``The Power of the Internet for Learning,'' 
the recently published report of the Web-based Education Commission to 
the President and the Congress of the United States.
    Expanded Web-based educational opportunities are causing many of us 
to re-examine existing local, state and federal policy issues. The 
private sector is also playing a major role in shaping the future of 
how this nation's educational institutions deliver education and 
training. As they relate to online education and training, we believe 
the following six policy issues are the most significant over the next 
2-3 years:

1. Clarify and address important accreditation and quality issues for 
        K-12 and higher education online programs and services.
2. Examine and respond to teacher and faculty readiness and 
        professional development needs.
3. Develop strategies to increase student preparation for future online 
        learning opportunities
4. Clarify funding issues, especially as they relate to K-12 per-pupil 
        funding for online student enrollments.
5. Study the implications of online education for home-schooled 
        children, charter schools and special needs populations.
6. Create expanded opportunities and incentives to stimulate new and 
        innovative public/private partnerships.

    Mr. Upton. Thank you very much.
    Dr. Domenech.

                 STATEMENT OF DANIEL A. DOMENECH

    Mr. Domenech. Mr. Chairman, Congressman Davis, and other 
members of the subcommittee, I am the Superintendent of the 
Fairfax County Public School System, with 160,000 students, the 
12th largest school district in the nation. We serve 13 percent 
of our State's elementary and secondary students, and our 
annual operating budget is approximately $1.5 billion. I am 
also a former President of the American Association of School 
Administrators, the professional organization of more than 
14,000 local superintendents and public school leaders on whose 
behalf I appear before you today.
    Our system enjoys the support of 200-plus business 
partners, with 50 percent of them offering mentoring and 
tutoring to support academic achievement, about 40 percent 
support special events, and the remainder allow us to conduct 
career day programs, job shadowing experiences, and other 
arrangements.
    My testimony will focus on three areas: Increased distance 
and interactive learning, professional and technical studies 
through our relationship with Cox Cable, and student programs 
aid professional and technical academy certifications, the 
movement of education beyond our classroom walls.
    Cox Cable, with whom we have a 20-year relationship, 
provides us with funding and support for six cable channels. 
Three are internal for such activities as instruction in 
Japanese, downloading of titles from our video library, staff 
development, monthly programs for our parents who speak Korean, 
Spanish, Vietnamese, Farsi and Arabic, and electronic field 
trips to the Berlin Wall, the Smithsonian, NASA, and many other 
interesting projects.
    Microsoft Corporation allows us to train students in 
network administration, with the aim of full Microsoft 
certification. One young person became the first student to 
successfully pass the Cisco Certified Network Program, the A+ 
Certification Program, and the Microsoft Certification Systems 
Engineering, all in the same year. And this was a student who 
may have fallen through the cracks had it not been for our 
business partnerships.
    We are one of just 30 national pilot projects supported by 
the Oracle Corporation for data base mainframe certification, 
and more than 100 of our students are working in paid 
technology internships. Through partnerships with our County 
Offices of Partnerships and Family Services, we have created 
computer learning centers with state-of-the-art computers 
acquired through business partner donations. You will hear 
later from Rae Grad, who is one of our witnesses today, and 
PowerUP, who is one of our partners in that endeavor.
    Teachers report positive learning gains for children using 
these centers and, interestingly enough, vandalism in the areas 
where they live has dropped 33 percent.
    Through the Offices of Family Services, our 5th grade 
classes are participating in wireless computer labs, which is 
becoming a major initiative in our school system, and each 
student has been given a laptop computer and printer for home 
use, coupled with free Internet access provided by Verizon. 
Attendance and behavior improvements are credited to this kind 
of program.
    We urge Congress to definitely continue the FCC's e-rate 
program and, as Congressman Markey pointed out before, we don't 
mind if we call it the ``ED Program'', which provides the 
Internet access that makes our partnerships work. Even though 
we are, some may consider, a wealthy jurisdiction, Fairfax has 
significant areas of poverty with our school poverty rates 
averaging anywhere from 20 to 82 percent, depending on the 
locality.
    Through the e-rate, our district has received more than 
$8.5 million annually in service discounts over the past 3 
years, and our businesses also provide vital infrastructure 
support--for example, Capp, Gemini, Ernst and Young gave us 
$50,000 in pro bono technology assessment consulting.
    We are experiencing a new wave of partnerships in public 
schools, and as technology continues to advance at high speed, 
schools are receiving partner benefits to keep our schools on 
the cutting edge of integration and technology in our 
classrooms.
    Even our Education Foundation, which is a group made up of 
business companies in our area, have earmarked a $10 million 
project for the next 3 years to address technology needs and 
infrastructure in a number of our schools. So, we are highly 
appreciative of the incredible support in Fairfax County that 
we receive from our business partners. Thank you.
    [The prepared statement of Daniel A. Domenech follows:]

   PREPARED STATEMENT OF DANIEL A. DOMENECH, SUPERINTENDENT, FAIRFAX 
                         COUNTY PUBLIC SCHOOLS

    Mr. Chairman, Congressman Markey and members of the committee. My 
name is Daniel Domenech. I am the Superintendent of Schools for the 
Fairfax County Virginia School System, a district with more than 
160,000 students. We serve 13 percent of our state's elementary and 
secondary students. And we are the 12th largest school system in the 
nation, in a county with nearly one million citizens. Our annual 
operating budget is $1.4 billion.
    In addition I am a former President of the American Association of 
School Administrators, the professional organization representing more 
than 14,000 local superintendents and public school leaders and on 
whose behalf I appear before you today.
    Our students enjoy the benefit and support of 178 public and 
private partnerships in the advancement of their education. Of that 
total, 130 are with individual businesses, corporations and 
professional business associations. Partners from the technology sector 
represent 56 of our supporters.
    Why are these relationships valuable? Because the arrangements are 
mutually beneficial, assisting students with the new and thriving world 
of electronic communications. In addition we receive professional 
development for our staff. All the while allowing partners to share 
their values, objectives, resources, roles and responsibilities toward 
the goal of increasing student achievement and delivering positive 
public visibility for our public sector champions.
    From Cox Communications and Cisco Systems, Microsoft and Lockheed 
Martin, to Oracle and Xerox, private/ public partnerships have been 
playing an increasing role in the advancement of education technology.
    These friends of public education have contributed millions of 
dollars in man-hours, services and grants that help us, even more, make 
a more difference in the lives of our young people. Today, I am going 
to talk about our partnerships in three areas: increasing distance and 
interactive learning, encouraging students towards network 
certification and lastly, bringing education technology beyond the 
classroom walls.
    Close to 20 years ago, our district began partnering with the 
Fairfax cable system, which is now Cox Communications. As a part of 
Cox's plan with Fairfax County, a certain percent of their revenue goes 
directly back to the county for use in our schools. We have been able 
to use this funding to develop a state of the art cable station.
    In addition to the funding, Cox Communications provides our 
district with six channels; three of which are held for intra-district 
services; these internal television operations allow us to originate 
and record more than 250 original programs per year, for school 
learning use. More than 25 school board meetings are telecast via this 
service annually.
    Thanks to Cox we have 11 full time producers and directors, six 
engineers and video designers, two to run the system's master control; 
and several who provide media, training and programming services. Every 
classroom in our 234 schools and education centers is wired for cable; 
creating a symbiotic relationship that has benefited many our schools, 
in much the same way as the Instructional Fixed Television Service 
licenses and partnerships have aided thousands of schools across the 
country.
    Because of Cox we are able work collaboratively with students and 
parents to:

<bullet> Present a biweekly news program;
<bullet> Offer monthly adult and community education programming in 
        Korean, Spanish, Vietnamese, Farsi and Arabic;
<bullet> Provide assistive technology for students with disabilities;
<bullet> Offer live mentoring programs;
<bullet> Deliver daily one-hour classes in Japanese and Advanced 
        Placement (AP) Spanish Literature instruction to students;
<bullet> Furnish enrichment programs in literature, juvenile justice, 
        music and geography;
<bullet> Take students--again, ours and others across the nation--on 
        ``electronic field trips'' to such places as the Berlin Wall, 
        with the assistance of Lufthansa airlines; the Smithsonian and 
        NASA operations;
<bullet> Offer parents--through their home or public library access 
        computers--the opportunity to work more closely with their 
        child and his/her child's own teacher to develop the content 
        and technology of their child's educational program;
<bullet> Develop and maintain relationships with the state department 
        of education in such arenas as AP distance learning classes; 
        and
<bullet> Allow in-school, interactive professional development to 
        teachers, as they work to refine classroom curriculum.
    Our youngsters, several times each year, are able to meet and speak 
with noted authors of children's books, courtesy of our ``Meet the 
Author'' cable program. Caldecott Award-winning author, Paul Curtis, 
opened young people's eyes to what is possible, if you work hard and 
are determined to succeed, by relating his story on how he was 
transformed from an automobile plant laborer to a successful writer.
    Shelley Snow, a gifted writer who often pens stories about the snow 
and dog racing stories of Alaska, prompted a student to ask, ``How do 
you write in Alaska with all that snow?'' Real learning takes place 
from such humorous exchanges.
    And this year, Fairfax County Students, will talk with Jon 
Scieszka, who wrote the hilarious book, ``Stinky Cheese Man.'' Who says 
learning can't be fun? That approach is essential, because we want 
every child to succeed, to leave no child behind. A bored student, who 
doesn't ``get it'' and doesn't care, can lead to another dropout 
statistic, another ``failed'' life; another student ``left behind''.
    The other three Cox education channels give us the opportunity to 
provide information from our schools--programs, performances, 
workshops, student success stories, and school needs--to every Fairfax 
citizen with Cox cable.
    The Fairfax County Public Schools have also been successful in 
partnering with software companies. Thanks to the Microsoft 
Corporation, we are enhancing our program that trains our students in 
network administration, through free server software and reduced rates 
for students and teachers who seek Microsoft certification. We 
currently have more than 300 students enrolled in this program. This 
partnership is working to encourage our youngsters toward full network 
certification.
    Similarly, Oracle is working with us--and we are just one of 30 
such projects in the nation--on a database mainframe certification 
program. This unique partner has generously provided extensive training 
for two of our teachers. Oracle will be providing another training 
session this coming year. Oracle provides us textbooks and all training 
for students in the program (125 this year), teacher assistance for 
setting and running servers, and waiving of the certification fees 
normally required for students and teachers.
    Finally, we are beginning one of the most important transition 
evolutions through deliverance of this technology beyond the classroom 
walls. Over the past several years, our district has partnered with the 
Fairfax County Office of Partnerships, their office of Family Services 
and their office of Private Industry to create Computer Community 
Learning Centers. These centers have developed inside apartment 
buildings and shopping centers. Essentially they are computer labs used 
by the surrounding community, especially our students. These labs are 
filled with refurbished computers that have been donated for this 
project. Believe it or not, the local fire department has taken the 
lead in helping to restore these computers. With the help of of Booz-
Allen, members of the local fire department have been given the 
opportunity to become certified technicians.
    However, the beauty of this program is designed in the benefit it 
gives to our students. Each computer contains programming that is 
aligned with the curriculum taught in our schools. A student earns 
points for every hour he/she spends in the Computer Community Learning 
Center. Upon earning a specified sum of points, that child is able to 
take a computer home.
    Once these machines are in students' homes their learning is 
further enhanced, thanks to our partnership with Star Power, with free 
access to the Internet. Just two days ago, we awarded computers to two 
4th grade students, who work on stations at the Sacramento site in a 
local shopping center. This great gift of empowerment to those students 
would not have been possible without community partnerships.
    That one example is evidence of the importance of placing the 
technology where learning occurs.
    A pilot project, currently in service, with the assistance of the 
Fairfax County Office of Family Services, allows a fifth grade class--
at Woodley Hills Elementary School--to participate in a wireless 
computer lab. Each student in the class has been given a laptop 
computer to take home with them. Through grant money, we have been able 
to provide each of those students' homes with a printer. Via 
partnership with Verizon, each student has free internet access from 
home.
    The child's computer has become an integral part of classroom 
instruction. Students have been able to assimilate technology as part 
of the learning process. Though this program has only been in this 
class since November, we are already seeing improvements in attendance 
rates and social/ emotional behavior. We expect to find academic 
improvements by the end of the year.
    Placing the technology in schools, is paramount, if we are to allow 
partnerships to flourish.
    The Federal Communications Commission E-Rate program offers school 
districts and libraries discounts climbing to 90 percent of the costs 
for telecommunications services, Internet access and internal 
connections (wiring, network hardware and network maintenance). Within 
our school district, we have individual schools ranging from 20 percent 
to 82 percent. Over the last three years, the E-Rate program has 
afforded Fairfax County Schools more than $ 8.5 million in discounted 
services. Left untold and behind the scenes, Fairfax benefits from 
millions of dollars of leveraged funds our district and community have 
put toward telecommunication services and products.
    Finally, the effect of public/private partnerships in education 
technology has forced us to develop the content and technology 
together. It is useless to have new avenues for technology, unless 
there is applicable education content to use with those opportunities.
    As technology continues to advance at a high speed, schools across 
America offer ample evidence that partnerships vastly expand public 
school learning horizons.
    Thank you, Mr. Chairman. I am happy to entertain any questions you 
may have.

    Mr. Upton. Thank you very much. I just note that since the 
President calls me ``Freddy Boy'', maybe we ought to call this 
the ``Ed-E'' program.
    Mr. Domenech. That will work.
    Mr. Upton. I know that's not news to you either.
    Sister McDonald, welcome to the committee.

                STATEMENT OF SISTER DALE McDONALD

    Sister McDonald. Good morning. I am Dale McDonald, Director 
of Public Policy and Educational Research at the National 
Catholic Educational Association in Washington, DC.
    Mr. Markey. Can I first point out that I am a graduate of 
the Immaculate Conception Grammar School, Catholic Boston 
College and Boston College Law School?
    Sister McDonald. I am a B.C. grad also, although I am from 
New York. I am a member of the Sisters of the Presentation from 
New York.
    Mr. Markey. You know that B.C.'s playing Villanova at noon 
today on ESPN.
    Mr. Upton. The Wolverines are on at 4:30, but they are not 
expected to do very well.
    Sister McDonald. NCEA is a professional membership 
organization. We serve Catholic educators across the spectrum 
of Catholic education, primarily in the 8,200 schools and the 
2.6 million students that are in Catholic schools today.
    I speak today on behalf of my association in particular, 
and the private school community in general, and I speak in 
support of the E-rate program and its positive impact on 
improving telecommunications access for students in our 
schools. I have been involved with the E-rate program since the 
passage of the Telecommunications Act, working with the 
Education and Libraries Network Coalition, EdLiNC, on the 
implementation processes that were developed before the FCC, 
and then working with our schools to be sure that they access 
the program in a meaningful way for them.
    My remarks will focus primarily on what the E-rate programs 
has leveraged for our schools, and why I think that is so.
    The focus of the E-rate was to close the educational 
digital divide by promoting equity and excellence in 
telecommunications access for everyone, and that is a key part 
of our participation in this program. It is the most popular of 
the programs in which our schools participate. We are big 
consumers of most of the Federal ESEA programs, but this has 
far greater consequences because every school is entitled to 
participate equally. Again, the targeted discounts are to the 
schools that are in most need, but those schools that may not 
have a high concentration of poverty but are themselves cash-
poor are also able to participate. And that has been a big deal 
for us.
    What the E-rate has leveraged for us is the increased 
levels of technology hardware and connectivity using both the 
studies done by the National Center for Educational Statistics 
and also the annual Quality Education Data Surveys. We have 
seen we have made enormous progress in very short time. And 
that has come about primarily because of the E-rate and the 
awareness it has raised in our community of the need for 
technology not as a frill that we used to think it was, but as 
an integral part of the education we offer our students.
    The E-rate has also helped us to think strategically about 
technology for our schools where as earlier than really 3 years 
ago, we had some computers in some computer labs, but there was 
not an overall process. So, through the E-rate we had to 
develop technology plans which became a smart way to approach 
this. And then because of the component in the application 
process where you certify professional development to teachers, 
we have begun to put a great deal of emphasis on that aspect of 
``if we have the stuff, then we have got to learn how to use 
it, and use it smartly''. And we have data here in the formal 
remarks that look to the achievements we have made on both of 
those levels.
    The curriculum infused with the technology is starting to 
become words that are in actualization in various levels across 
our schools, depending on the level of hardware primarily that 
one is able to use to access. Our least rate of growth is in 
the area of high speed, but that is related primarily to the 
ability to match what the undiscounted portion is.
    The anecdotes that are provided here also look at just 
giving you a snapshot of the diversity of the application 
consequences, depending on the level of poverty at the school, 
and then what that has been able to--a 90-percent discount in 
most of our schools that are eligible for that has leveraged a 
great deal of attention as well as contributions and in-kind 
services, and so on. But what is important, even if the school 
gets $3500 or it gets $185,000, those are a lot of dollars for 
individual schools, particularly our schools where most of them 
are small parish schools--45 percent of our schools are in 
urban districts--there is not a lot of discretionary money for 
technology, but this has helped significantly. $2500 that is 
discounted on one part of the service may even lend to 
providing technology hardware to match.
    One of the reasons that I think this program has had the 
most impact is the equity issue, that all of our schools are 
able to participate and to participate directly in this. I go 
back to Congressman Markey's remarks at the beginning: It is 
not fair to a program that we have to go through the districts 
trying to get a share of a Block Grant or a share of a District 
Grant. We have had a lot of frustration in certain districts 
trying to receive the equitable participation in the Federal 
ESEA programs. This is straightforward: You apply, albeit 
somewhat cumbersome the first time out but, after that, you 
know where you are going, what to expect, and the key part 
would be the funding stream as it is now. There is a 
predictability to it. It is one thing to get the school wired 
and to apply for a T1 line, but then if you don't have the 
circumstances in which you can support that without the 
discount, you are in trouble. So that has been a major part of 
our participation, is the reliable funding stream through the 
Universal Service Program.
    [The prepared statement of Sister Dale McDonald follows:]

     PREPARED STATEMENT OF SISTER DALE MCDONALD, NATIONAL CATHOLIC 
                        EDUCATIONAL ASSOCIATION

    I am Sister Dale McDonald, PBVM, PhD, Director of Public Policy and 
Educational Research at the National Catholic Educational Association 
in Washington, D.C. NCEA is a professional membership organization that 
has been providing leadership and service to Catholic educators since 
1904. NCEA's mission is to advance the educational and catechetical 
mission of the Church and provide leadership and service to its members 
in preschools, elementary and secondary schools, parish catechetical/
religious education programs, diocesan offices, boards, colleges and 
universities, and seminaries who serve over 7.6 million students.
    I speak today on behalf of my association in particular, and the 
private school community in general. I speak in support of the E-rate 
program and its positive impact on improving telecommunications access 
for students in our schools. I have been involved with the E-rate 
program since the passage of the Telecommunications Act of 1996, 
working with the Education and Libraries Network Coalition EdLiNC as 
implementation processes were developed by the FCC.
    The EdLiNC coalition's campaign, centering on the term ``E-rate,'' 
focused attention on the intended purposes of the program: to close the 
education digital divide by promoting equity and excellence in 
telecommunications access for everyone. While the discounts are 
targeted to schools that serve the poorest populations, all public 
elementary and secondary schools, as well as K-12 not for profit 
private and parochial schools, with endowments under $50 million, are 
eligible to participate.
Impact on Catholic schools:
    In general, the E-rate program helped to accomplish several 
significant changes in our schools. About 48% of all Catholic schools 
receive E-rate discounts that have enabled most of them to bring the 
Internet and some high-speed circuits, local and wide-area networks and 
distance learning capabilities into the school. Significant areas of 
impact can be noted since the 1995-1996 school year, before the E-rate 
program was enacted in the 1996 Telecommunications Act. According the 
National Center for Educational Statistics, in two surveys Advanced 
Telecommunication in U.S. Private Schools: K-12, conducted in the 1995-
1996 and 1998-1999 school years, this progress can be documented for 
Catholic schools:
1) Increased levels of technology hardware and connectivity

------------------------------------------------------------------------
            Hardware and Connectivity              1995-1996   1998-1999
------------------------------------------------------------------------
student-to-computer ratio.......................        10:1         8:1
percentage of schools with Internet access......          35          83
percentage of schools with instructional rooms             4          27
 with Internet connectivity.....................
ratio of students to instructional computers           174:1        19:1
 with Internet access...........................
percentage of schools with Internet using dial-           94          65
 up connections.................................
percentage of schools with LAN networking in              33          51
 classroom......................................
------------------------------------------------------------------------

2) Development of technology plans:
    The E-rate application process requires the applicant to have an 
approved technology plan with stated technology and educational goals, 
as well as professional development of teachers and resources needed to 
finance the acquisition of hardware and software to support 
telecommunications services. This has motivated the schools, as well as 
the Diocesan School Offices, to develop comprehensive plans for 
implementing long and short-term goals pertaining to the thoughtful 
integration of technology into the life of the school.
3) Professional development of teachers:
    The professional development component of the E-rate required 
technology plans has had an impact on how schools spend their general 
funds budgeted for professional development of the faculty. Data 
collected by NCES in 1999 indicate that Catholic schools have made 
great strides in this area. Such information was not even solicited 
prior to 1998.

------------------------------------------------------------------------

------------------------------------------------------------------------
Professional development technology related activities
 provided by schools: percentage of schools that provide
 the following
any advanced telecommunications training for teachers......        88%
training in integration of technology into curriculum......        74%
use of the Internet........................................        66%
------------------------------------------------------------------------

4) Curriculum infused with technology:
    The E-rate has helped schools develop their education programs to 
include an Internet-enhanced curriculum in classrooms in a way that is 
fundamentally changing how students learn. Reported teacher use of 
technology to enhance the learning experience for students is now close 
to half; but technology and connectivity needed to provide distance 
learning opportunities is low. This area requires the highest and most 
expensive levels of connectivity and hardware and is the area to show 
the lowest rate of growth.

------------------------------------------------------------------------

------------------------------------------------------------------------
Technology use in teaching/learning activities
percentage of teachers regularly using computers/                  48%
 telecommunications for teaching...........................
percentage of schools that provide distance learning                7%
 opportunities for students................................
percentage of schools that provide distance learning               16%
 professional development activities for teachers..........
------------------------------------------------------------------------

Anecdotal reports on how the E-rate has impacted individual school 
        recipients:
    The levels of participation for our schools vary widely, based on a 
number of factors. Schools in the 90% -80% discount levels, based on 
family income, have been able to obtain substantial discounts on 
internal wiring that allowed them to build an infrastructure that 
provides not only network connectivity within the school and among 
schools, but also opens up the classrooms to distance learning 
opportunities. Schools receiving smaller discounts (20-40%) have also 
been able maximize their resources to bring technology into their 
schools in classrooms and resource rooms. In almost all schools 
receiving the E-rate discounts, those dollars have leveraged others by 
way of additional contributions and grants from donors who want to 
support the potential they see being developed. Three scenarios 
illustrate this point:
    Cathedral High School in Boston, Massachusetts serves an inner-
city, ethnically diverse low income population that entitles the school 
to a 90% E-rate discount. These discounts have enabled the installation 
of network connections throughout the school, use of a T-1 line to 
connect to the Internet, and development of infrastructure that is 
bringing computers into all of the classrooms. It has enabled the 
school to participate in the Virtual High School program that allows 
students to supplement curricular offerings with distance learning 
classes. E-rate funding has also enhanced the school's community based 
programs that serve the neighborhood immigrant populations with ESL 
classes, computer training and summer school programs that make use of 
and benefit from Cathedral's augmented infrastructure. The program has 
also attracted other grants, enabling Cathedral to provide professional 
development training for its teachers and the purchase of the hardware 
and software not covered under the E-rate program.
    St. Mary's School in Richmond, Virginia, receives a 40% discount. 
Although it is located in an area with one of the highest per capita 
incomes in the country, the school itself does not have a great deal of 
discretionary income. St. Mary's has used the E-rate to defray the 
costs of phone lines for dial-up connections and Internet connectivity 
and has enlisted its parents in developing a technology policy and 
raising funds for hardware. Parents have considerable input into how 
technology is integrated into the curriculum and report that there has 
been increased levels of teacher/student/parent communication. The 
professional development required by the E-rate application process 
resulted in St. Mary's placing a priority on providing training for 
teachers to be able to use technology in the classroom to promote 
higher levels of learning and the development of critical thinking 
skills in the students.
    St. Francis Xavier School in Moundsville, West Virginia is a small 
K-8 school in a northern West Virginia community that has experienced 
the loss of a once vital industrial economy. The 40% discount level 
enabled the school to connect each classroom to the computer lab and 
Internet. Most significantly, E-rate dollars have attracted additional 
funds. They received a grant to purchase a scanner, digital camera and 
web design software to create a website and publish a school newspaper. 
Also, the E-rate initiative, has prompted the diocesan school office to 
begin investing in technology for all of the schools by providing 
grants and hiring a technology coordinator for the diocese. Students 
are using the technology in the classroom to do research and learn how 
to use information discriminatingly and effectively. To further 
parental involvement in students' learning, the school has planned 
classes for parents to learn how to use the Internet and the software 
their children are using.
    It is important to keep in mind that these discounts represent 
significant dollars for our schools. Despite the myths that prevail 
concerning private schools, most Catholic schools do not have large 
amounts of discretionary funding. In order to keep tuition affordable 
for parents, particularly in urban areas, fundraising must occur just 
to meet the general operating costs of the school. In the not too 
distant past, technology was considered a frill that most schools could 
not afford. The awareness that the E-rate program has raised in our 
schools of the necessity of technology access for students to prepare 
them for life and work in the 21st Century has leveraged more creative 
and aggressive development activities to acquire technology for the 
schools.
Reasons for this impact:
    The E-rate has been one of the most successful programs in terms of 
attracting participation of Catholic schools as well as the other 
religious and independent schools. A key component of that success has 
been the access and equity issues associated with the E-rate program 
structure and administration.
    High levels of participation, in comparison with ESEA and other 
government programs, may be attributable in large part to the fact that 
it is a program that does not require schools to go through the local 
public school district and compete for a fair share of the resources. 
Many of our schools experience a great deal of frustration in dealing 
with multiple school districts when trying to obtain the equitable 
portion of ESEA services to which their students are entitled. While 
the E-rate application processes may be a bit cumbersome for first time 
applicants, the advantage is that school administrators are able to 
apply directly to the Schools and Libraries Division of the Universal 
Service Administrative Company and request the services they know they 
need, want and can afford--and know precisely where the application 
goes and what to expect as the process unfolds. This allows 
administrators to plan wisely and begin to implement services in a 
timely manner.
    There is not much public assistance available to our schools at the 
state and local levels. Most of the technology assistance provided to 
public schools is not available to private schools because state and 
local government-funded technology bond issues or other initiatives 
specifically exclude private school participation. This is due in large 
part to Blaine Amendment type language in state constitutions that 
specifically disallows any assistance to our schools. While corporate 
sponsors have made some contributions to private schools, their efforts 
are few and not sustained. Therefore, the E-rate program is a source of 
support that will provide the consistent assistance that is necessary 
to facilitate effective long-range technology planning and 
implementation.
    Because the E-rate is not a U.S. Department of Education federal 
program that triggers church-state issues, schools can apply directly 
to USAC on an equitable basis with their public school counterparts. 
Catholic and other private schools do not have to negotiate with state 
and local education agencies, subjecting them to the entanglements of 
federal regulations that do not exist under the current E-rate 
structure. The E-rate program has worked very well for all schools, 
particularly those in the private sector, under the administration of 
the FCC, the appropriate entity to administer a telecommunications 
program.
    Retaining and expanding opportunities for improving access to new 
and innovative technologies for all students, regardless of the schools 
they attend, must be part of any new legislative initiatives. The 
ideals of the E-rate program--education, excellence and equity for 
everyone--have made a significant impact on learning opportunities for 
students, particularly those in Catholic, other religious and 
independent schools.

    Mr. Upton. Thank you.
    Ms. McHale.

                  STATEMENT OF JUDITH A. McHALE

    Ms. McHale. Good morning, Mr. Chairman and members of the 
subcommittee. I am Judith McHale, President and Chief Operating 
Officer of Discovery Communications, the parent company of the 
Discovery Channel, The Learning Channel, Animal Planet and 30 
other television networks around the world. I also serve as 
Chair of Cable in the Classroom, the cable industry's 
educational centerpiece. In addition, I serve on the Maryland 
State Board of Education, giving me a unique perspective on 
these educational issues from the public as well as the private 
sector.
    I want to talk this morning about the contributions the 
cable industry is making to enhance the quality of education in 
our nation's communities and the industry's vision of equipping 
classrooms with new technologies so that we can strengthen our 
children's learning experience.
    Over the last 12 years, cable companies and cable 
programmers, through Cable in the Classroom, have provided free 
cable connections and more than 500 hours per month of 
commercial-free educational programming to over 80,000 schools 
in the United States. Forty national cable networks and 8500 
local cable companies have contributed over $100 million 
annually, or more than $1 billion over the last decade, to this 
public service initiative.
    Here is how Cable in the Classroom works. First, a 
community's local cable company provides free cable connections 
and free cable service to any accredited K through 12 school. 
Second, cable networks, including Discovery, CNN, Nickelodeon 
and the Weather Channel air special, commercial-free programs 
designed specifically for use in the classroom. Once a school 
begins receiving the service, teachers have at their disposal a 
vast array of educational programs that can supplement their 
curriculum and offer students a visual teaching aid that brings 
subjects to life.
    Looking forward, let me share with you today how the cable 
industry is continuing to make a difference as new technologies 
develop which will enhance our educational system. First, by 
increasing access to broadband technologies across the digital 
divide; second, by providing compelling and informative content 
on air and online; third, by ensuring privacy and safety of our 
students online; and, fourth, by strengthening professional 
development to help our teachers learn to use new technologies 
and teaching methods effectively.
    For schools, the quality of Internet access is critical. 
Broadband access will be the new standard. Slow, unreliable 
connections that cannot support interactivity or rich 
multimedia content will no longer be sufficient.
    Toward this end, the cable industry has developed an 
initiative called High-Speed Education Connection. Under this 
program, cable companies are deploying broadband technology 
including free cable modem and high-speed Internet access to 
libraries and K through 12 schools.
    The second challenge is to build on the programming that 
Cable in the Classroom has provided for so many years to ensure 
there is the appropriate level of informative, interesting and 
usable content online. Most of the 40 Cable in the Classroom 
programmer members offer extensive online resources for 
educational purposes, and Cable in the Classroom online serves 
as both a clearinghouse for free educational resources offered 
by the cable industry and as a portal linking teachers to these 
resources.
    A third challenge is ensuring that what our kids see online 
is safe, proper and positive. The Internet carries with it 
danger as well as promise.
    The cable industry provides special resources and training 
to help parents and teachers feel safe and productive in 
cyberspace. For example, Cable in the Classroom recently 
launched a program called Take Your Parents to Cyberschool. 
With guidance from the National Association of Elementary 
School Principals, Cyberschool uses an interactive online 
service to show children and parents how to find safe, 
educational resources on the Internet.
    Simply installing technology in classrooms is not enough. 
Our teachers and educators must have the capabilities to use 
technology effectively and incorporate its usage into the daily 
rhythms of their classes and lesson plans.
    To address this issue, in 1998 we launched the Cable in the 
Classroom Professional Development Institute, a series of 
hands-on computer workshops offered to educators across the 
country at no cost to schools. These interactive sessions 
introduce educations to the vast curriculum resources and 
services of cable and help educators make effective use of 
video and the Internet.
    In addition, the cable industry has launched WebTeacher, a 
comprehensive, interactive online tutorial that includes 
strategies for navigating the Internet and finding the best web 
sites for classroom instruction.
    I have a personal and deeply held passion for improving 
educational opportunities for our children. The cable industry 
shares this goal and is committed to making certain that 
students of all ages have access to the most advanced 
technologies and the best and most compelling educational 
content available. Thank you.
    [The prepared statement of Judith A. McHale follows:]

 PREPARED STATEMENT OF JUDITH A. MCHALE, PRESIDENT AND CHIEF OPERATING 
                 OFFICER, DISCOVERY COMMUNICATIONS INC.

    Mr. Chairman and Members of the Subcommittee, I am Judith McHale, 
President and Chief Operating Officer of Discovery Communications Inc, 
the parent company of Discovery Channel, The Learning Channel, Animal 
Planet and 30 other networks around the world. I also serve as Chair of 
Cable in the Classroom, the cable industry's educational centerpiece.
    I would like to talk this morning about the contributions the cable 
industry is making to enhance the quality of education in our nation's 
communities and the industry's vision of equipping classrooms in every 
state with new technologies so that we can strengthen our children's 
learning experience. 1Over the last 12 years, cable companies and cable 
programmers, through Cable in the Classroom, have provided free cable 
connections, high speed Internet access and more than 546 hours per 
month of commercial-free educational programming to nearly 81,000 
schools in the United States. Forty national cable networks and 8,500 
local cable companies contribute over $100 million dollars annually to 
this public service.
    Here is how Cable in the Classroom works. First, a community's 
local cable company provides free cable connections and free cable 
service to any accredited K through 12 school. Second, cable networks, 
including Discovery, CNN, Nickelodeon and the Weather Channel air 
special, commercial-free programs designed specifically for use in the 
classroom. Once a school begins receiving the service, teachers have at 
their disposal an array of educational programs that can supplement 
their curriculum and offer students a visual teaching tool that brings 
subjects to life.
    As we move forward to address the opportunities and challenges of 
today's Information Age, it is important to recognize the research that 
suggests appropriate use of technology can result in significant 
improvement in student development and increased academic achievement. 
The latest research demonstrates that school improvement programs that 
employ technology for teaching and learning yield positive results. 
Given that many schools and classrooms have only recently gained access 
to technology, the positive outcomes of these studies suggest a future 
for education that has only just begun.
    How can the cable industry make a difference as we adapt new 
technologies to enhance our educational system? Let me share with you 
today four areas where the cable industry can serve teachers, educators 
and communities to meet today's lofty ambitions:

<bullet> First, by increasing access to broadband technologies across 
        the digital divide.
<bullet> Second, by providing compelling and informative content on air 
        and online.
<bullet> Third, by ensuring privacy and safety of our students online.
<bullet> And, fourth, by strengthening professional development to help 
        our teachers learn to use new technologies and teaching methods 
        effectively.
    An integral part of school improvement in the 21st century will be 
student and teacher access to the Internet. Universal access to the 
Internet will help end the isolation of teachers, provide more 
challenging learning experiences for students and make schools more 
accountable to parents and communities.
    The quality of Internet access is critical. Broadband access will 
be the new standard. Slow, unreliable connections that cannot support 
interactivity or rich multimedia content will no longer be sufficient.
    Toward this end, the cable industry's has developed an initiative 
called High-Speed Education Connection. Under this program, cable 
companies are deploying broadband technology including free cable modem 
and high speed Internet access to libraries and K through 12 schools. 
Today, schools and libraries around the country are more effectively 
utilizing the vast resources available on the Internet because of the 
cable industry's dedication to this project.
    The second challenge is to build on the considerable on air content 
that Cable in the Classroom has provided for so many years to ensure 
there is the appropriate level of informative, interesting and usable 
content on-line. Most of the 40 Cable in the Classroom programmer 
members offer extensive online resources for educational purposes and 
Cable in the Classroom online--CIConline.org--serves as both a 
clearinghouse for free educational resources offered by the cable 
industry and as a portal linking teachers to these resources.
    A third challenge is ensuring that what our kids see online is 
safe, proper and positive. The Internet carries with it danger as well 
as promise. Students, especially young children, need protections from 
harmful or inappropriate intrusions in their learning environments. The 
cable industry provides special resources and training to help parents 
and teachers feel safe and productive in cyberspace. For example, Cable 
in the Classroom recently launched a program called Take Your Parents 
to Cyberschool. With guidance from the National Association of 
Elementary School Principals, Cyberschool uses an interactive online 
service to show children and parents how to find safe, educational 
resources on the Internet.
    As we tackle the issues of privacy, informative content and access 
to broadband technologies, gaps persist between technology's presence 
and its effective use. Simply installing technology in classrooms is 
not enough. Our teachers and educators must have the capabilities to 
use technology effectively and incorporate its usage into the daily 
rhythms of their classes and lesson plans.
    To address this issue, we launched in 1998 the Cable in the 
Classroom Professional Development Institute, a series of hands-on 
computer workshops offered to educators across the country at no cost 
to schools. These interactive sessions introduce educators to all the 
vast curriculum resources and services of the cable television industry 
and help educators make effective use of video and the Internet.
    In addition, the cable industry has launched webTeacher, a 
comprehensive, interactive online tutorial available to educators, free 
of charge. webTeacher topics include strategies for navigating the 
Internet, finding the best web sites for classroom instruction, 
developing lesson plans, and creating a home page.
    Mr. Chairman, in addition to my duties as President of Discovery 
and Chair of Cable in the Classroom, I serve on the Maryland State 
Board of Education. I have a personal and deeply held passion for 
improving educational opportunities for our children. The cable 
industry shares this goal and is committed to making certain that 
students of all ages have access to the most advanced technologies and 
the best and most compelling educational content available.
    Attached is a list with examples of cable's commitment to education 
technology. I look forward to answering any questions you might have.

         Cable Television's Commitment to Education Technology

                       I. CABLE IN THE CLASSROOM

    Perhaps one of the best-kept secrets in education is the enormous 
gift that the cable television industry provides every year to 
elementary and secondary schools throughout the country. Valued at two 
million dollars per week, more than 100 million dollars per year, Cable 
in the Classroom is also one of the most comprehensive, well-rounded 
gifts ever made to education. That gift includes cable communications 
technology, instructional resources, and professional development. It's 
a gift that perfectly matches the resources of the cable industry--
state-of-the-art connectivity, powerful content, and local, customized 
delivery--to the needs of schools.
    Cable in the Classroom has been honored for its contributions to 
the education of America's children by:

<bullet> The Eisenhower National Clearinghouse for Mathematics and 
        Science Education
<bullet> The California State PTA
<bullet> The National Middle School Association
<bullet> The Educational Press Association of America
<bullet> The National Education Association

                    II. CABLE PROVIDES CONNECTIVITY

Free Cable Connections and Basic Cable Service to K - 12 Schools
    One of the foundations of the cable industry's 12-year commitment 
to education is its donation of free cable connections and basic cable 
service to K-12, public and private schools through the Cable in the 
Classroom initiative.
    86 percent of American students (over 44 million) in 81,000 public 
and private schools have access to free cable service and over 500 
hours per month of commercial-free, copyright-cleared, educational 
programming.

Free Broadband Connections--Cable's High-Speed Education Connection
    In 1996, the cable industry was just beginning to retrofit its 
infrastructure to carry the 2-way data required to access the Internet 
over cable lines. As this technology was evolving, the industry 
launched Cable's High-Speed Education Connection, a pledge to provide 
free cable modems to schools as the new service became available in 
their communities. Cable modem technology enables schools to access 
data from the Internet at speeds hundreds of times faster than those 
available with conventional telephone modems.
    In 1998, the cable industry expanded its commitment and began to 
connect public libraries to high-speed cable Internet service. This 
initiative allows not only students, but entire communities to benefit 
from these new technologies, now available in the public arena.
    Today, over 5,000 schools and libraries around the country are 
utilizing the vast resources available on the Internet because of the 
cable industry's dedication to this project. But these connections are 
only the beginning.
    The following examples of cable's digital connections expand upon 
the original High-Speed Education initiative, demonstrating how 
partnerships among schools, civic organizations, and cable operators 
and programmers are benefiting students and communities nationwide.
<bullet> Time Warner--San Antonio, Texas
    For the past seven years, Time Warner systems across the country 
have been providing free cable service to schools, an investment of 
more than $3.5 million to date. But now, through Roadrunner in the 
Classroom, Time Warner's schools are being offered free high-speed 
Internet service, as well. When Time Warner launched Roadrunner in the 
Classroom in San Antonio, Texas, Crockett Elementary School was the 
first to be able to access the Web at lightning speed. However, all 484 
schools in approximately 18 school districts will be given a free cable 
modem connection, which will service three computer stations in each 
school's computer lab. Knowing that educators use the Internet to 
download Cable in the Classroom's free study guides, research topics 
for lesson plans and contact parents, Time Warner also offered San 
Antonio's teachers Roadrunner for Educators--high-speed premium service 
at a deeply discounted rate.
<bullet> Adelphia--Academy for the Visual & Performing Arts
    One of Buffalo's oldest schools has become a showcase for the 
latest technology, including a full-service production studio and 
editing suite, a LAN computer network and computers, VCRs and 
television sets in more than 70 classrooms--all of which have both 
Internet and cable access. Its 800+ students in grades 5-12 will next 
be linked to students at nine other Buffalo public schools. The 
school's fiber optic network and state-of-the-art equipment were 
unveiled by the mayor in May 2000.
<bullet> Cox Communications--Line to Learning
    Digital technology is providing thousands of students with 
``virtual field trips,'' thanks to Cox's Line to Learning program. The 
Wolves at Our Door event, for example, in conjunction with Discovery 
Channel, allowed more than 1,500 middle school students from six 
schools across the country to visit and interact with wolf experts Jim 
and Jamie Dutcher and a Sawtooth wolf pack at the Nez Perce Indian 
reservation outside Boise, Idaho.
    More recently, Cox Communications and Bravo Network teamed up to 
create Run Away to Cirque du Soleil. Over 10,000 students across the 
nation interacted with the performers of Cirque du Soleil in ``real 
time'' over the Internet using cable modem technology provided by Cox 
Communications. This Cox Line to Learning event featured programming 
produced by award-winning Bravo and explored careers in the arts. 
Through the Cox high-speed Internet connection, students sent questions 
to the performers via e-mail, and watched live, two-way-video 
interactive questioning from students in other parts of the country--
from Atlanta, GA, to Lubbock, Texas.
<bullet> AT&T Broadband, Los Angeles, CA--Broadband Stories: 
        Communities in Focus
    As part of a local community initiative, AT&T Broadband sponsors 
(along with the Challengers Boys & Girls Club of South Central Los 
Angeles) the Venice Dream Team, a diverse group of youngsters aged 7-
13. They cover community, national and international events, getting a 
unique opportunity to develop creative thinking and photojournalism 
skills through hands-on, online publishing. Check out the virtual 
neighborhood for kids of all ages at www.streetseen.net.
    In addition, AT&T Broadband sponsored a daylong digital divide 
summit in March 2000 attended by nearly one hundred local students, 
teachers, community leaders and legislators. Participants discussed how 
to break down the cultural, social and technical barriers to Internet 
access.
<bullet> Boys & Girls Clubs Partnerships
    In wiring their communities, many cable operators partner with 
local organizations to expand residents' access to computer and 
Internet access. Boys & Girls Clubs have been especially strong 
participants. In New England, for example, AT&T (formerly MediaOne) 
works in concert with 29 Boys & Girls Clubs to provide cable modems, 
high-speed Internet connections and support service staff and training. 
As a result, more than 5,000 at-risk, latchkey children have gained 
access to broadband educational technology and enrichment 
opportunities.
    Similar access is being replicated nationwide, with children as the 
prime beneficiaries. The Boys & Girls Clubs of the Virginia Peninsula 
reported one especially rewarding connection provided by Cox 
Communications. A 13-year-old student received better grades and 
improved his self-esteem, thanks to his newfound ability to research 
and write school assignments via Internet-connected computers.
<bullet> Cox Communications--Virginia Beach, VA
    Implementing one of the most advanced distance learning systems in 
America, Cox has expanded upon a pilot program that provides high-tech 
videoconferencing capabilities to students in ten area high schools in 
Virginia Beach, VA. A designated classroom in each school has software 
and three large-screen televisions, allowing for two-way teaching of 
mathematics, theater appreciation, public speaking, quality management, 
advanced placement (AP) statistics and physics courses. Several hundred 
high school students have already taken classes, and potential future 
wiring of the area's 15 middle and 55 elementary schools could increase 
the number of students involved in distance learning to 2,000 per 
semester. See the Virginia Beach City Public Schools Web site at 
www.vbcps.k12.va.us.

Home/School Connections
    There is ample evidence that active and involved parents have a 
significant impact on their children's educational success. Yet in 
today's fast-paced world, it is difficult for busy parents to find time 
to communicate often with their children's schools, or to keep up with 
the new computer and Internet skills their children are learning. In 
disadvantaged communities, there are often big technology gaps between 
what is available in schools and what students have access to at home.
    Innovative cable industry programs are making important electronic 
connections between home and school. Following are some examples:
<bullet> Time Warner--Akron, Ohio
    In Akron, Ohio, the C-5 Project is breaking down the doors between 
the living room and the classroom. First- and fifth-graders at Portage 
Path School use high-speed Internet service, which is provided to their 
school, free, by Time Warner Cable. With funding from Time Warner and 
grants from local philanthropists, each student also has a computer and 
free Internet service at home. Students are able to show their parents 
and care-givers what they are learning in the classroom, do research 
and submit classwork. Parents can see their children's work posted on 
the class Web site and communicate with teachers through e-mail.
<bullet> Comcast--Sarasota, FL
    Comcast Cable Communications in Sarasota worked with the Computer 
Curriculum Corporation and Brentwood Elementary School in a pilot 
program providing computers and cable modem Internet service to the 
homes of 29 fourth-graders. Parents were familiarized with the project 
and technology in a series of evening classes. Participating students' 
test scores rose as much as 40 percent and the Sarasota School Board 
has received grant money in excess of $170,000 as a direct result of 
the project.
<bullet> AT&T Broadband--Farmer's Branch, Texas
    In Farmer's Branch, Texas, Lt. Governor Rick Perry was on hand when 
AT&T Broadband and the Texas Education Agency launched a pilot program 
to study technology's impact on improving education. At Vivian Field 
Middle School, 100 students have exchanged books, binders and pencils 
for laptop computers, digital texts, and Internet access--all designed 
to enhance student achievement by linking students, teachers and 
parents through donated <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="1f5e4b394b5f5770727a">[email&#160;protected]</a> high-speed Internet access. AT&T's 
contribution of more than $50,000 in services and equipment has allowed 
students to link to their class, teacher and other classrooms around 
the world for news and information. To further encourage whole-family 
participation, this middle school offers free computer training for 
parents so that families can access online test calendars, student 
projects and digital student portfolios. With AT&T technology, parents 
in this diverse community can even convert their children's homework 
assignments to Spanish with a click of the mouse.
<bullet> Cox Communications, Lemon Grove, CA--LemonLINK
    Students, teachers, staff and parents connect in Lemon Grove, CA, 
thanks to Project LemonLINK, which utilizes Cox's hybrid fiber/coaxial 
network. One of the country's most recognized interactive home/school 
projects, it benefits 4,600 elementary and middle school students. 
LemonLINK has been cited by the Smithsonian Institution, Microsoft 
Chairman Bill Gates, California Governor Gray Davis and others. See 
www.lgsdk12.ca.us/lemonlink.

                      III. CABLE PROVIDES CONTENT

Free Access to Commercial-Free Educational Television Programming
    When cable companies pledged free connectivity in 1989, the cable 
program networks pledged to provide educational programming. Today, 
more than 540 hours per month of quality, commercial-free, educational 
programming is provided to teachers free of charge by more than 40 
cable networks.
    From the beginning, Cable in the Classroom and its members have 
listened to what classroom teachers, school media specialists and 
national education organizations say about the kinds of media resources 
that are most useful in the classroom. Consequently, there are no 
strings attached to using Cable in the Classroom resources. Teachers 
may use as much or as little of a given program as they choose to fit 
their state and local academic needs. Some teachers use segments from 
Cable in the Classroom programs every day; others may use them only a 
few times each month.
    In addition, all Cable in the Classroom programs share four 
characteristics. Educators can count on programs that:

<bullet> are free of commercial advertising;
<bullet> are available free to educators;
<bullet> provide quality educational content;
<bullet> have extended copyright clearances of at least one year.
    These programs cover a wide range of curriculum areas, including 
science, language arts, social studies and history, mathematics and the 
arts. Additional programming addresses social issues like diversity, 
drug abuse, violence and Internet ethics. Each month, there is 
something for each grade level, from pre-kindergarten through high 
school. Cable networks such as A&E, CNN, C-SPAN, Discovery, The History 
Channel, Nickelodeon and The Weather Channel air special, commercial-
free programs for schools usually in the early morning hours, with the 
idea that teachers can record the programs, build a school or classroom 
library, and use the programs at appropriate times during the year. 
Since Cable in the Classroom began, the cable television industry has 
provided more than 60,000 hours of educational programming to schools.
    Programming ranges from early childhood programs such as Allegra's 
Window, Blue's Clues, and Sesame Street from Nickelodeon and Noggin, to 
the high school level, with programs such as C-SPAN's series on the 
American Presidents, ESPN's SportsFigures, The History Channel's 
Underground Railroad series, CNN's Newsroom, and Discovery's science 
and history series. Other programs include Court TV's Choices and 
Consequences series, and The Weather Channel's lessons on weather and 
weather-related careers.
    Cable's commitment to providing schools with the highest quality 
educational tools translates to dynamic learning experiences in 
classroom across America. Following are examples of cable programming 
available to schools for their use:
<bullet> CNN Student Bureau (CNNSB)
    More than 400 schools are enrolled in Turner Learning's CNN Student 
Bureau, which offers high school and college students worldwide the 
opportunity to have their written and video work published on its Web 
site or on CNN Newsroom, CNN's daily classroom program, or on the 
broader CNN networks. CNNSB can enhance journalism, broadcast or mass 
communications programs, and be integrated into English or social 
studies departments, inter-disciplinary programs or clubs. Free print 
and multimedia curriculum materials help guide students through the 
process of creating news coverage from their perspectives. See 
www.turnerlearning.com or call 800/344-6219.
<bullet> Discovery--2001: A Discovery Space Journey
    Discovery's Inside the Space Station premiered around the world 
(149 countries, 27 languages) on December 10, 2000, and kicked off a 
yearlong initiative, 2001: A Discovery Space Journey. Complementary 
online content includes streaming video feeds of news events, live 
chats, interviews with space experts plus a full-screen 3D simulation 
that allows viewers to ``float'' and maneuver through the space station 
with the click of a mouse. The series focuses on developments in 
exploring the final frontier, with expanded broadband and interactive 
content available at www.discovery.com.
<bullet> Ovation--The Arts Network--The Rhythm of Life
    Music represents one of the biggest growth areas on the Internet. 
Ovation not only offers students the opportunity to download music, but 
also the ability to compose their own short pieces. It is all part of 
The Rhythm of Life, a three-part program exploring the building blocks 
of music: rhythm, melody and harmony. Legendary Beatles producer Sir 
George Martin offers advice along with a little help from his friends 
Billy Joel, Stevie Wonder, Celine Dion, Paul McCartney and many others. 
Ovation offers additional interactive components to dozens of its 
ArtsZone programs. See www.ovationtv.com/artszone/programs.
<bullet> Pennsylvania Cable Network
    Created in 1979 as America's first educational cable television 
network, the nonprofit Pennsylvania Cable Network (PCN) utilizes the 
power of cable to promote social and economic progress. Its regular 
programming includes TV 411, za literacy training program, and 
Essential Workplace Skills. Homework Help, a live interactive weekly 
series, airs throughout the school year. Designed to help students with 
their homework assignments, the 2-hour call-in program features state-
certified teachers answering math and science homework questions from 
elementary, middle and high school students. See www.pcntv.com.
<bullet> Time Warner Cable--Crete, NE
    To help make kindergarten children feel more comfortable with their 
first school experience, teachers at the Crete Elementary School in 
Crete, NE, designed a project called ``Franklin's Friends.'' Students 
watched episodes of the Nickelodeon series, Franklin and chose one of 
Franklin's friends to be their play ``buddy.'' They also visited the 
Nick Jr. Web site and read Franklin books on loan from their school 
library.
<bullet> Time Warner Cable--Kansas City, MO
    A hometown hero came to life for a class of seventh graders at St. 
Paul's Episcopal Day school in Kansas City, MO. For their ``We're Just 
Wild About Harry'' project, students began with an A&E Biography of 
President Harry Truman. Next they chose artifacts from ``The Truman 
Trunk'' on the C-SPAN Web site for further research, and later assumed 
the characters of significant players from that time and wrote and 
delivered speeches about national and world events. A visit by the C-
SPAN school bus capped the initiative.
<bullet> Time Warner Cable--Milwaukee, WI
    The final frontier stretched to new lengths in ``To Infinity and 
Beyond,'' a project by second graders at Tippecanoe School for the 
Humanities in Milwaukee, WI. After seeing a portable planetarium at 
their school, they created their own version by turning their coatrooms 
into a walk-through experience depicting the solar system. The students 
became museum docents, leading tours and imparting their knowledge to 
guests. Watching The Learning Channel program, Destination Mars, led to 
further projects that included artwork, fiction and non-fiction pieces, 
music and dance.
<bullet> Time Warner Cable--Raleigh, NC
    More than two centuries after the stirring events preceding the 
Revolutionary War, the historical period came alive for students at 
Fred J. Carnage Middle School in Raleigh, NC. The History Channel's The 
American Revolution became the foundation of a project that sparked 
student essays on particular incidents that led up to the revolution. 
Students reenacted the trial of the British soldiers accused of murder 
in the Boston Massacre, with a local attorney instructing them on the 
application of legal principles, rules of evidence and courtroom 
procedures of the time.
Election-Year Programming
    In 2000, cable offered a variety of programs for students of all 
ages that not only covered the presidential campaign, but also the 
electoral process. With this and other current events coverage, 
youngsters are being given the opportunity to become the best-informed, 
most active generation of citizens and voters.
<bullet> BET--Your Voice/Your Vote
    A series of special programs airing throughout the Democratic 
National Convention and featuring guests from the worlds of government 
and entertainment, Your Voice/ Your Vote targeted African American 
youth in order to increase their awareness of the importance of their 
vote.
<bullet> CNN--Your Choice Your Voice
    Leading up to the election, CNN launched a six-part Internet-based 
program for junior and senior high school students that ended on 
Election Day. Students answered quizzes each week and held mock online 
elections in their classrooms. In conjunction with local cable 
operators, 100 schools around the country were selected to participate 
and were eligible to win an A/V equipment package and a CNN Newsroom on 
the Road town hall meeting. See www.cnn.com.
<bullet> C-SPAN--Road to the White House
    In conjunction with Road to the White House, television's most in-
depth coverage of the presidential race, C-SPAN offered extensive 
online resources that included three classroom-teaching modules on 
national party conventions, presidential debates and Election Day. Its 
Web site features additional classroom materials on elections and 
politics, including the Life Portraits display of original oil 
portraits and biographical sketches of every American president. See 
www.c-span.org/classroom.
<bullet> MTV--Choose or Lose
    For the third consecutive presidential election cycle, MTV expanded 
its comprehensive Choose or Lose campaign. Choose or Lose 2000 included 
its most in-depth online component ever, complementing its coverage of 
the political process and including a voter registration drive in 
conjunction with ``Youth Vote 2000,'' the largest non-partisan 
coalition of national organizations committed to encouraging civic 
participation. In September 2000, a Street Team hit the road on Choose 
or Lose 2000: Road Map, offering a crash course in voting and promoting 
a better understanding of public policy issues among young people. See 
www.chooseorlose.com.
<bullet> Nickelodeon--Kids Pick the President
    Throughout the election year, Nickelodeon gave kids a platform to 
voice their opinions, interests and concerns. Kids Pick the President 
culminated with a Nick News Special Edition in October that included 
coverage from the kid reporters who were on the campaign trail, polls 
and more. Lesson plans accompanied this and all previous Nick News 
episodes. See www.teachers.nick.com.
<bullet> Time Warner Cable--Staten Island, NY
    Starting with the two famous funeral orations of Julius Caesar, 
10th grade language arts students at New Dorp High School in Staten 
Island, NY, created the Caesar Election Project. They launched a 
hypothetical election campaign with catchy slogans by using 
contemporary tools such as posters, buttons, television and radio 
spots. Turner Learning's By the Book--Stage to Screen guide provided 
lesson plans to accompany their viewing of the film version of Julius 
Caesar. Not only did students gain a fresh appreciation for the writing 
of William Shakespeare, but they also became more informed citizens by 
learning about today's electoral process.
Print Resources for Educators
    While use of the Internet is definitely impacting the way children 
learn and the way teachers teach, that sea change has not yet reached 
every school or classroom. In the National Center for Education 
Statistics 2000 study, teachers were asked about their use of computers 
and the Internet. Thirty-nine percent use the Internet to create 
instructional materials and 17 percent use it to gather information for 
planning lessons. To be sure to reach those educators who are not yet 
comfortable on the Web or do not have Internet access, Cable in the 
Classroom networks provide extensive print materials to help educators 
meet their curricular goals:

<bullet> BET provides an Educator's Toolkit to accompany its on-air 
        biography series, Journey's in Black. Through the kit's unique 
        activity templates of a game show, dream journals and 
        timelines, students get practice in valuable life skills such 
        as resume writing, problem solving, goal setting, interviewing 
        techniques and communication skills.
<bullet> The History Channel collaborated with the National Museum of 
        American History to produce a 28-page guide to accompany the 
        exhibit The American Presidency: A Glorious Burden.
<bullet> Teachers who integrate A&E Networks programming into their 
        curricula can receive recognition through its semi-annual Idea 
        Book for Educators. Updated and mailed every July and December, 
        the publication not only disseminates advance information about 
        A&E Classroom programs and innovative plans to teachers 
        nationwide, but also awards $500 to each teacher whose unique 
        lesson plan is included in the ensuing edition.

Free Educational Resources on the Internet
    Besides free educational television programming, since the late 
1990's, the cable television industry has provided elementary and 
secondary students, teachers and parents with vast educational 
resources on the Internet. Many of those resources directly complement 
cable networks' commercial-free educational programming. Other 
resources link learners and teachers to an array of tools that support 
academic success. Typically, the resources include lesson plans, 
classroom hand-outs, assessment ideas, safe and pre-screened hotlinks 
to related resources, and more. Increasingly, the resources are 
correlated to the appropriate academic standards that are so important 
to teachers today.
Online Materials to Help Teachers Use Educational Television 
        Effectively
    Several cable program networks provide teachers with complete 
lesson plans that support the educational videos they air.

<bullet> Court TV's lesson plans (www.courttv.com/choices) for its 
        Choices and Consequences series help teachers use actual court 
        cases involving youth to help students understand the 
        consequences of risky or violent behavior. The lesson guides 
        provide teachers with background on the video, suggestions for 
        classroom activities, vocabulary words used in the video that 
        might be unfamiliar to students, and suggestions for how 
        student learning might be assessed.
<bullet> Nickelodeon provides a similar service for some of the 
        educational series it broadcasts. For 3-2-1 Contact, for 
        example, the teacher can download lesson plans 
        (teachers.nick.com) that link each program directly to the 
        National Science Education Standards and, where appropriate, to 
        National Geography Standards. Those lesson plans include 
        suggestions for classroom activities, lists of materials needed 
        to conduct classroom experiments, suggestions for assessing 
        student learning, and links to other Web sites for additional 
        information on the topic.
<bullet> ESPN provides interactive exercises 
        (sportsfigures.espn.go.com) that are directly related to the 
        science and mathematics concepts taught in SportsFigures.
<bullet> USA Network turned its coverage of the grueling Eco-Challenge 
        race in Borneo into important lessons about cooperation, 
        teamwork and problem solving--skills essential for success in 
        school and beyond. See usanetwork.com/cablein
        classroom/eco.

Other Online Resources
    Some cable program networks and cable operators also provide more 
general support for learning. For example, Discovery offers students 
B.J. Pinchbeck's Homework Help (school.discovery.com/students) which 
they can consult from home for help with tough assignments. AT&T 
Broadband, through the AT&T Learning Network (www.att.com/ 
learningnetwork), provides teachers with help in locating distance 
education courses they can take to keep their credentials current. 
Comcast's Online Schoolyard (www.onlineschoolyard.com) provides 
learners with a variety of resources, including links to other Web 
sites where they can find information directly related to the subjects 
they are studying in school.
Cable in the Classroom Online
    CIConline.org links the cable industry to the education community. 
It serves both as a clearinghouse of educational resources offered by 
the cable industry and as a portal through which educators can find and 
link to a wide variety of educational materials. Highlights of 
CIConline include:

<bullet> Search the Listings (www.ciconline.org/cicsearch/
        searchpage.cics)--This flexible feature allows users to search 
        two months of program listings by keyword and several other 
        criteria. Once programs are identified, most have links to 
        support materials and to the network sites, where other 
        educational materials can be found. This feature makes it 
        simple for an educator to quickly identify what cable 
        programming will fit the upcoming curriculum and get new ideas 
        on how to use it.
<bullet> Connecting to Standards (www.ciconline.org/section.cfm/4/34)--
        This section features a seven-part series of articles exploring 
        the ways in which teachers meet their local or state standards 
        using cable programming and Internet resources. Many cable 
        networks have aligned their educational materials with the 
        standards; links to these and other standards-oriented 
        resources are also found here.
<bullet> Programming and Resources (www.ciconline.org/section.cfm/4)--
        This section contains myriad materials for teachers, including 
        descriptions of and links to free support materials created by 
        cable networks and a form to sign up for custom e-mail alerts 
        containing information on specified areas of interest.
<bullet> Professional Development Institute (www.ciconline.org/
        section.cfm/6)--Cable in the Classroom's Professional 
        Development Institute has created many tools to help teachers 
        and parents become more Internet-savvy. In this section, users 
        may locate free Internet training classes in their areas and 
        find a list of family-friendly, educational Web sites that help 
        make the Internet more useful.
<bullet> Family Zone (www.ciconline.org/section.cfm/7)--The Family Zone 
        gives parents and teachers a chance to take charge of the TV 
        and learn media literacy skills to share with their children 
        and students. There are also ideas on how parents can volunteer 
        for their schools simply by setting a VCR at home to tape Cable 
        in the Classroom programs and donating video tapes to schools.

Cable in the Classroom Magazine
    Eleven times a year since February 1991, educators across the U.S. 
have received Cable in the Classroom magazine to help them find and use 
the commercial-free, educational resources of the cable industry to 
improve learning. Approximately 120,000 preK-12 teachers, library media 
specialists, principals, administrators, and technology coordinators 
receive the magazine each month, and an estimated 310,000 additional 
educators read it in their schools. Ninety percent of those copies are 
donated to schools by local cable companies. Ninety-six percent of the 
educators who receive Cable in the Classroom magazine read it 
regularly, and 72 percent pass it on to a colleague. 1This award-
winning publication features articles by and about educators who 
creatively integrate video and computer technologies with books and 
other resources to offer students a richer, more engaging learning 
experience. It also contains:

<bullet> comprehensive information about more than 500 hours of 
        commercial-free, educational programming provided through Cable 
        in the Classroom, Web sites and free study guides available to 
        educators in support of these programs, and the extended 
        copyright clearances cable programmers provide, so educators 
        can tape and save these programs;
<bullet> Educator-written reviews of programs, demonstrating how the 
        programming meets state and local academic standards;
<bullet> information about cable-sponsored contests, grants, and awards 
        that recognize excellence in teaching and provide funding and 
        technology to achieve teaching goals;
<bullet> information about dozens of free online, video, and other 
        resources useful for teaching such major themes as Black 
        History Month, Women's History Month, Authors and Literature, 
        National Hispanic Heritage Month, Space Day, and many more;
<bullet> free, reproducible lesson plans, maps, and study guides 
        created by educators and inserted into the magazine by cable 
        networks.
    Educators value the information in Cable in the Classroom magazine 
so much that more than 4 out of 5 readers take action as a result of 
reading it, whether passing information on to a colleague, taping a 
program, visiting a Web site, or requesting the free materials.
    No matter where their creativity and cable's resources may take 
them, these educators start with Cable in the Classroom magazine. From 
preschool to high school; from Art to Zoology; from Language Arts, 
History, and Geography to Current Events, Space Science, and Math; 
Cable in the Classroom magazine shows educators how their peers 
integrate a variety of 21st century resources to meet high standards 
and engage their students, and guides them to the resources that will 
enable them to do the same.

   IV. CABLE'S INTERNET SAFETY, ETHICS AND MEDIA LITERACY INITIATIVES

    Television, the Internet and other types of media can be enriching 
educational resources when used wisely. They can also be the cause of 
concern, when used without care or supervision.
    Cable in the Classroom and the cable industry are helping teachers 
and families manage the vast array of media messages that are so much a 
part of modern life. By learning how to understand, analyze and 
evaluate television, the Internet and other media, teachers, students 
and families can become ``media literate.''

Take Your Parents to Cyberschool--A partnership of Cable in the 
        Classroom and the National Association of Elementary School 
        Principals
    Many parents are concerned that the Internet is a huge, chaotic 
world, and their children will be lost in cyberspace. That's why Cable 
in the Classroom, with guidance from the National Association of 
Elementary School Principals (NAESP), created Take Your Parents to 
Cyberschool. Cyberschool uses an interactive, online game to show 
children and parents how to find safe, educational resources on the 
Internet. The site also features information about media literacy and 
Internet safety.
    In February 2001, Take Your Parents to Cyberschool was launched to 
inform parents and other adults about the valuable educational 
resources available online, for use at home or school. The Web site 
www.cyberschool.ciconline.org was created to encourage students and 
parents to sit down together and tour an assortment of educational 
sites while playing a fun, interactive, educational game. After the 
game experience, adults are invited to continue surfing the site to 
learn more about Internet literacy and Internet safety.
    NAESP played an important role in creating the site and informing 
educators about this effort. During the first week, principals were 
asked to open their school computer labs and show parents how 
technology is used to support instruction. Local cable companies hosted 
community events and thousands of schools across the country 
participated. In addition, numerous partners, including McGraw-Hill 
Education, Microsoft Encarta and Motorola Broadband Communications 
Sector, donated educational prizes for visitors to the site. The site 
received more than 770,000 hits during the first four days.

<bullet> In Chicago, IL, AT&T Broadband hosted a weeklong, traveling 
        series of cybertours for students, parents and teachers. These 
        participants learned about Internet safety and productive use 
        of the Web for school assignments.
<bullet> The AT&T Portland, OR, Cyberschool sessions took place in Boys 
        and Girls Clubs, reaching out to segments of the population 
        that may have less access to technology.
<bullet> At all 22 branches of the Columbus, Ohio Metropolitan 
        Libraries, Time Warner worked with computer teachers to 
        encourage students to visit the Cyberschool site as a homework 
        assignment and set up table-top displays offering brochures on 
        Internet literacy.
<bullet> To salute National African American Parent Involvement Day, 
        the Time Warner system in Minneapolis, MN, hosted a series of 
        parent/student open-house Cyberschool tours.
<bullet> Throughout California in March 2001, the California State PTA 
        is partnering with Cable in the Classroom to encourage parents 
        to learn how to safely use the Internet to support children's 
        learning. The CA State PTA's home page hotlinks to the 
        Cyberschool site, where children and parents together can 
        access educational resources from Cable in the Classroom's 40 
        cable networks. The California Cable and Telecommunications 
        Association donated educational premiums for participants and 
        cable companies and PTA members are hosting local events.
Other Media Literacy Tools for Teachers and Parents
<bullet> Two years ago, High-Speed Access Corporation, a leading 
        provider of broadband Internet service, Cable in the Classroom 
        and several other partners created Web Smart Kids zto help 
        parents teach their children how to safely find and evaluate 
        information on the Internet. The Web Smart Kids Web site 
        (www.web
        smartkids.org) is a guide to building children's media literacy 
        skills for the online world.
<bullet> This year, Cable in the Classroom is piloting a workshop to 
        help parents and children learn how to be ``Cyber Savvy'' 
        Internet users. Workshop participants explore computer ethics, 
        Internet safety and privacy issues, and determine fair and 
        appropriate guidelines for use of the Internet and e-mail.
               v. cable provides professional development

Cable in the Classroom Professional Development Institute
    The Cable in the Classroom Professional Development Institute was 
started in 1998 to introduce educators to the vast educational 
resources and services of the cable television industry and to help 
educators and parents make effective educational uses of video and 
Internet resources. The Institute provides hands-on training through 
computer labs that travel across the country, centers in the Washington 
DC area, mobile laptop labs, and virtual workshops. The Institute is 
staffed by professional educators who also have extensive experience in 
information and communications technologies. All of the Institute's 
activities are supported by the cable industry and are made available 
to school districts free of charge through local cable companies. The 
workshops carry Continuing Education Unit (CEU) credit for teachers.
    Cable in the Classroom has been invited to present Internet 
workshops at a multitude of national and state education conventions, 
including:

--National School Boards Association Technology + Learning
--National Association of Elementary School Principals
--National Council for the Social Studies
--National Middle School Association
--California State PTA
<bullet> Washington, DC, Area Teacher Training Labs
    On behalf of the two cable providers in the Washington, DC, area, 
Comcast and Cox Communications, Cable in the Classroom has partnered 
with the DC Public Schools, the Smithsonian Institution, George Mason 
University, Arlington Public Schools, Montgomery County Public Schools, 
and Fairfax Public Schools to create computer training labs. In those 
facilities, teachers learn to become more proficient users of teaching 
technologies, integrating multimedia resources into their classes. The 
workshops last from two to six hours and are tailored to the needs of 
the participants in each class.
    In Washington, DC, Cable in the Classroom was selected to host 
workshops for the winners of the Presidential Awards for Excellence in 
Teaching Mathematics and Science Teaching. These hands-on computer 
workshops were held at Cable in the Classroom's lab at the Smithsonian 
Museum of Natural History, where the outstanding educators were 
introduced to an array of curriculum materials provided by the cable 
industry.
<bullet> Mobile Teacher Training Labs
    Through a generous grant from AT&T Broadband, Cable in the 
Classroom has three mobile laptop labs that are stationed in regions 
for approximately a year at a time. In 2001, the units are in Chicago, 
Portland-Seattle, and St. Louis. Staffed by a professional educator, 
the labs travel from school district to school district offering free 
hands-on computer workshops. In addition, the Institute has three other 
laptop labs that are shipped throughout the country at the request of 
local cable systems--all at no cost to schools.
    In the year 2000, the Professional Development Institute and its 
partner institutions offered more than 2,100 hands-on workshops at 645 
locations in 34 states, training more than 42,000 participants.
Additional Professional Development Opportunities
<bullet> Time Warner--Houston, Texas
    In Houston, Texas, Time Warner provides cable service and Cable in 
the Classroom magazine to 825 schools in 34 school districts, a 
donation valued at more than $30,000 per month. But Time Warner 
realizes that training teachers to use educational technology is also 
vital. In September 2000, Time Warner gathered librarians from 62 
schools--matching cable's free educational technology to Texas state 
standards. During another teacher training session at Wesley 
Elementary, State Representative Sylvester Turner praised Time Warner 
for its involvement in education.
<bullet> Cablevision --Educator Institute 2000
    Teachers throughout the New York City metropolitan area receive 
free, professional development through Cablevision's Educator Institute 
2000. Experts guide participants in creating lessons that make the most 
of Internet resources, and then facilitate a peer-review process to 
refine these lessons. All educators in the local franchise areas, from 
administrators to classroom teachers, with any level of technical 
expertise, are encouraged to apply. In Fall 2000, two-day institutes 
were held in New York City, New Jersey, Long Island and Westchester 
County.

webTeacher
    The Internet holds tremendous potential as a teaching tool. It can 
provide a rich source of reference materials and experiences, transport 
teachers and students to distant worlds, and enhance a wide range of 
subjects and curricula.
    But without adequate training, many teachers cannot take advantage 
of all that the Internet has to offer. While Cable in the Classroom's 
Professional Development Institute provides Internet training to 
thousands of teachers each year, it cannot be everywhere and reach 
everyone. Recognizing the need for on-demand teacher training, the 
cable television industry and TECH CORPS, a non-profit organization of 
technology volunteers, developed webTeacher.
    webTeacher is a comprehensive, interactive, 80-hour, self-guided 
tutorial available to educators, free of charge, over the Internet. 
Flexible training modules, in both English and Spanish, help teachers 
master the Internet and integrate new technologies into student 
learning. Accessible 24 hours a day, webTeacher can be an educator's 
private tutor or serve as the basis for group instruction. Topics 
include how to navigate the Internet, find the best educational Web 
sites, develop lesson plans, create a home page and receive valuable 
tips on Internet safety.
    webTeacher is frequently used in free teacher workshops given by 
Cable in the Classroom, cable state associations and TECH CORPS. 
Parents and children can also log on to this Web-based tutorial at home 
to learn about the Internet at their own pace and on their own 
schedule.
    webTeacher represents an investment of over $500,000 by the cable 
communications industry. Supporters include State Departments of 
Education, State Computer Using Educators Associations.
    See www.webteacher.org and www.webteacher.org/Espanol.

Professional Development Videos
    With cable's commitment to education comes responsibility for 
helping teachers learn how to use technology for the strongest possible 
educational impact in the classroom. Over the years, Cable in the 
Classroom has produced a number of videos that feature educators who 
model effective use of educational television and online resources.
    Most recently, Cable in the Classroom partnered with the 
Association for Supervision and Curriculum Development to produce 
Connected Teaching: Helping Students Make Positive Choices. This 23-
minute video features four educators in urban settings who have 
discovered how effective use of the cable industry's educational 
resources--online and on video--can help their students succeed. 
Developed in collaboration with the White House Office of National Drug 
Control Policy (ONDCP), Connected Teaching demonstrates the powerful 
ways educational media can engage students in core curriculum topics, 
alert them to the negative consequences of drug use, and encourage 
their involvement in pro-social activities.
    To date, thousands of free copies of Connected Teaching and its 
companion resource guide have been distributed to K-12 educators and 
colleges of education. The video has aired hundreds of times on 
national cable networks as well as on local cable stations. Local cable 
operators often use the video as the centerpiece of workshops provided 
to educators.

      VI. CABLE'S EDUCATIONAL OUTREACH TO COMMUNITIES AND FAMILIES

<bullet> Cable in the Classroom Comes Home
    Cable in the Classroom Comes Home is an initiative designed to 
involve parents and other volunteers in helping teachers bring cable's 
high-quality free resources to the classroom. Teacher surveys indicate 
that educators often do not have enough time or in-school equipment to 
tape as many Cable in the Classroom programs as they would like. The 
research also clearly shows that educators and schools need these 
resources to supplement the materials they are able to buy with limited 
budgets.
    As Cable in the Classroom Comes Home volunteers, parents and other 
community members who might not have time to offer help to schools 
during the work day, can tape teacher-requested Cable in the Classroom 
programs at home and donate the videos to their schools.
    Via the Comes Home effort, thousands of schools have built no-cost, 
commercial-free, educational video libraries over the last three years. 
Educators have more resources to enrich their lesson plans and families 
have less traditional, less time-sensitive opportunities to connect 
with their local schools.
    Advisors to this effort include the National Association of 
Elementary School Principals, the National Association of Secondary 
School Principals, the National Middle School Association, the American 
Association of School Administrators and the Association of Educational 
Communication and Technology's Division of School Media and Technology. 
Family Circle magazine carried information about the effort and the 
Food Marketing Institute (representing over 20,000 supermarket chains) 
distributed free brochures to their members to pass out to customers at 
supermarket check-out lines.

<bullet> The Retired Teachers Division of the American Association of 
        Retired Persons (AARP) actively participated in this effort and 
        asked their members to both tape requested programs and mentor 
        junior educators by previewing programs and suggesting 
        appropriate curriculum links. Many human resource associations 
        and for-profit companies promoted this effort to their 
        employees as a good opportunity for workers to help schools in 
        a meaningful way while still working traditional work hours.
<bullet> According to the Maryland State Department of Education, Cable 
        in the Classroom Comes Home is the cornerstone of a major 
        campaign for parent and family involvement in schools. This 
        statewide partnership launched with a day-long training for 
        educators from Maryland's nationally recognized Blue Ribbon 
        Schools and included meetings with the state superintendent and 
        local PTAs at the MD PTA conference.

Other Community-Based Activities
<bullet> The History Channel Time Machine
    A year-long traveling educational exhibit invites students of all 
ages to explore major events and people in our nation's history. This 
interactive experience is sponsored by cable systems such as Adelphia 
and Charter Communications and will tour schools and public venues in 
more that 50 cities by September 2001. In February 2001, the parents 
and children of Miami, Orlando and Birmingham, AL will see what it's 
like to smell imported British tea in Colonial Boston Harbor and 
``drive'' in rush hour traffic in Manhattan--all inside this cable-
sponsored, 48-foot long trailer. In Spring 2001, the History Time 
Machine will move on to other cities like Los Angeles, Milwaukee and 
Detroit.
<bullet> The C-SPAN School Bus
    The C-SPAN School Bus is a 45-foot, bright yellow ``Custom Coach,'' 
specially outfitted with video monitors, computers and television 
equipment. Half of the bus serves as a mobile classroom, while the 
other half functions as a working production studio. C-SPAN buses have 
traveled to 1,800 local communities, all 9 presidential libraries and 
all 50 states and state capitals, encouraging teachers and students to 
learn about our political system and take part in government, as well 
as celebrate American literature.
    C-Span Bus stops for March 2001 include:

<bullet> Natchez, MS (Cable One)
<bullet> Nashville/Springfield, TN (Intermedia)
<bullet> Cincinnati, OH (Time Warner)
<bullet> Columbus, OH (Time Warner)
<bullet> Boston/Plymouth, MA (Adelphia)
<bullet> Philadelphia, PA (Comcast)
<bullet> New Rochelle, NY (Cablevision)
<bullet> Comcast, Philadelphia, PA--Police Athletic League
    In the city of Philadelphia, PA, Comcast provides eleven Police 
Athletic League centers with Internet service and computers, affecting 
as many as 350 children each day. At the same time, Comcast is 
identifying opportunities for employees to mentor and train youngsters 
at the centers on computer skills and Internet applications, helping 
ensure the youngsters have the technological skills essential for 
future employment.
<bullet> Time Warner Cable--Syracuse, NY
    Elementary school students and senior citizens have a special 
connection in Syracuse, NY. First grade students were matched with 
senior citizens in homes, community centers and nursing facilities. 
Thanks to high-speed cable modem connections, they became e-mail pen 
pals. Teachers took online training courses and helped their students 
develop topics for discussion with their senior ``keypals.'' Not only 
were young and old lives enriched, but students also improved their 
reading and writing skills.
<bullet> WISH TV
    In Fall 2000, more than 1,500 fourth grade students in schools in 
Connecticut, Illinois, Louisiana and Ohio received free in-home access 
to the Internet through their television sets. WorldGate 
Communications' yearlong pilot program, which does not require a 
computer, but instead utilizes a digital set-top box to access the 
Internet, will bridge the digital divide for students in Belle Rose, 
LA; Madison, IL; Newtown, CT; and Massillon and Toledo, OH. Local cable 
operators providing cable access include Charter Communications, 
Buckeye Cablevision and Massillon Cable TV Inc.

                VII. CABLE RECOGNIZES TEACHER EXCELLENCE

    Many educators achieve remarkable results, often without the 
resources they need and the recognition they deserve. The cable 
industry is making a difference, not only by providing content and 
technology, but also by recognizing the innovative teachers who make 
such a difference in children's lives. Turning the spotlight on these 
educational role models stimulates others to excel. But the ultimate 
beneficiaries are the students, who are challenged and encouraged by 
these award-winning teachers and the resources that come with the 
awards. Students also win when the cable industry recognizes their 
achievements through local and national contests and scholarships.
<bullet> Time Warner National Teacher Awards
    Over the past twelve years, Time Warner Cable's National Teacher 
Awards have been awarded to hundreds of outstanding educators. At the 
local and national levels, thousands of teachers submit projects using 
cable's programming and Internet resources in innovative classroom 
activities. Later this year, twenty national winners will receive a 
Crystal Apple statue, a $1,000 grant and an all-expenses-paid trip to 
Washington, DC.
<bullet> AT&T Broadband's .edu Technology Grant Program
    This pilot program in the greater Chicago area, designed to support 
the effective use of technology both in the classroom and at home, 
awards grants of up to $5,000 to educators. Its objective is to display 
the educational value of technology and help teachers, students, 
families and community members access the technology tools and support 
needed to develop and nurture life-long learners.
<bullet> AT&T Broadband's Emerging Technology Awards for Educators
    Forty-eight teams of K-12 educators in AT&T Broadband service areas 
who develop a curriculum unit that integrates Cable in the Classroom 
programming, or the Internet to address local or state standards are 
eligible to win cash prizes and digital cameras for classroom use. 
Visit www.att.com/learningnetwork.

    Mr. Upton. Thank you.
    Mr. Krisbergh, welcome.

                   STATEMENT OF HAL KRISBERGH

    Mr. Krisbergh. Good morning, Mr. Chairman, members of the 
committee. Thank you for inviting me to go over our program 
here of WorldGate.
    WorldGate picks up a little bit where Ms. McHale left off 
focusing on the school initiative. We are focused on bringing 
the Internet into the home using the broadband infrastructure.
    WorldGate is a for-profit company, private for-profit 
company. We have three major focuses at WorldGate. One, using 
the broadband infrastructure to provide general deployment of 
very low-cost, high-performance Internet access to the home; 
two, an all-city initiative providing Internet access to every 
home within that community; and, finally, and specifically, an 
education initiative I know of special interest here at the 
committee. We call it the WISH TV program that Chairman Tauzin 
and Ed Markey talked about and have been involved with, and we 
actually had a major launch of that program here last summer.
    Let me get at some of the specifics. The WorldGate service 
does not require a PC in the home or a laptop, in order to 
break and close the digital divide, the key is to eliminate the 
cost of equipment.
    One of the nice things about the WorldGate service is it 
uses existing set-top converters that are deployed for other 
reasons, namely, video services. For example, the Internet 
itself grew as quickly as it did, we know, because of the use 
of PCs for desktop computing and the Internet could grow 
quickly because that platform was there. There are over 55 
million set-top boxes already deployed in the United States. 
Cable passes open 98 percent of U.S. households, and that kind 
of pervasive deployment makes access to the Internet in the 
home very, very easy.
    The service is not low-performance, we get ten times the 
speed of a typical telephone connection. The cost of the 
service is under $10 a month. Currently, WorldGate is being 
deployed across the country--in fact, Congressman Markey's 
comment--also around the world. We have just made a big 
announcement yesterday of a whole Latin American initiative to 
deploy WorldGate through Central America, Latin America, and 
Mexico.
    WISH TV is an initiative that we have begun, as I said, 
last summer. Its purpose is to provide and ensure that every 
student entering high school has had at least 1 year of 
Internet access in the home for free. We all know that sending 
a student to a local library or to a community center late at 
night in the city, or even five miles away in a rural area, is 
difficult. The idea is to bring it into the home, and we 
launched a program providing access in the home with 
participation from the two big suppliers of equipment, Motorola 
and Scientific-Atlanta, as well as major cable operators like 
Charter, Massillon, Buckeye and Cox.
    The program is also supported by Louisiana State 
University, Nicholls State who developed the content of the 
program. It is to enable the parents as well as the students to 
communicate back and forth with the school system. We are now 
up and running in schools across the country in about 10 
States, involving about 15 different schools in both rural and 
urban areas.
    The program is being expanded next year, and the key issue 
here is the support of the cable industry in terms of utilizing 
their existing pipes. This does not require any government 
funding or subsidization. It fundamentally uses the existing 
infrastructure in a way that is very low-cost again, for the 
operator. It encourages the deployment of the service, and 
basically provides what we think is a very, very interesting 
educational initiative across the country.
    The third program is our all-city initiative. LaGrange, 
Georgia has gotten a lot of attention recently as the city has 
provided free Internet access to all of its citizens. The 
initiative was initiated last year. It has been very 
successful. It is getting a lot of publicity in terms of 
allowing every single home to have unlimited free Internet 
access, a very ambitious program, and LaGrange has received the 
High Tech city of the Year Award for that, and we are very 
pleased with that program.
    But, again, in summary, as the ability to use the Internet, 
what WorldGate provides is an infrastructure and the 
technology, and specifically the cable industry infrastructure, 
a very low-cost, high-performance Internet access both for an 
educational initiative or for providing broad Internet access 
within a community, and certainly with the major objective of 
closing the digital divide. Thank you.
    [The prepared statement of Hal Krisbergh follows:]
   Prepared Statement of Hal Krisbergh, Chairman and COE, WorldGate 
                             Communications
    The WISH TV project provides a practical working solution to the 
digital divide by connecting the classrooms and homes of elementary 
school students and their parents to the Internet using the cable 
television infrastructure. WISH TV currently gives students, parents 
and teachers free Web access and email using WorldGate Communication's 
technology. Users have access to the Web and e-mail using their 
television sets and a standard cable set-top converter rather than a 
personal computer and telephone line. WorldGate's Ultra-Thin Client 
<SUP>SM</SUP> architecture places the computing power at the cable 
headend rather than in the set-top. Since data is processed at the 
headend ( the set-top doesn't require significant amounts of CPU or 
memory ( which makes the set-top less expensive and, set-top 
obsolescence is minimized because technology upgrades occur at the 
headend.
    Over the past few years, the government has spent millions of 
dollars on programs designed to close the digital divide and as yet 
none of the programs has provided a practical working solution. 
WorldGate's WISH TV has the potential to cost-effectively connect 
millions of Americans to the Internet by using the cable TV 
infrastructure and tapping into the television set, the most ubiquitous 
platform in the home. Since cable television passes 97% of all American 
households ( and virtually everyone has a television ( WISH TV offers a 
low-cost practical working solution to the digital divide.
    In January 2001, the WISH TV project launched to elementary schools 
in Illinois, Louisiana and Ohio. Students and their families are 
receiving the service at no charge for one academic year. The 
initiative has two basic goals:

1. Increase student achievement through collaboration with students, 
        parents and teachers and thus empower students to take an 
        active role in their own learning experiences.
2. Bridge the digital divide for many functionally literate parents by 
        encouraging them to learn how to simply and easily access the 
        Web and email using their television, and a cable set-top so 
        they can be involved in their children's education (able to 
        review home work assignments and communicate with teachers by 
        email) and be connected themselves to power of the Internet.
    Although the program has only been in place for two months, 
Louisiana State University researchers at Belle Rose Primary in 
Louisiana have been studying the effects of WISH TV on students, their 
parents, and their teachers. Parents, teachers and even the students 
themselves have noted changes in student behavior, attitudes, and 
motivation to learn.
    To make this program possible, WorldGate spearheaded a cross-sector 
effort including leading cable set-top box manufacturers Motorola and 
Scientific-Atlanta, cable operator partners Charter Communications, 
Massillon Cable and Buckeye CableSystem, Louisiana State University, 
Nicholls State and the elementary schools (Belle Rose Primary, in Belle 
Rose, LA, Madison Middle School in Madison, IL, Beech Grove, Newman, 
and Moffitt Heights Elementary Schools in Massillon, OH; and Arlington 
and Raymer Elementary Schools in Toledo, OH) served by those operators. 
The pilot project is expected to expand rapidly in the 2001-2002 school 
year.

    Mr. Upton. Thank you. That was a terrific story, we are all 
most impressed.
    Ms. Grad.

                      STATEMENT OF RAE GRAD

    Ms. Grad. Thank you, Mr. Chairman, and thank you, 
subcommittee members, for inviting PowerUP to present 
information to you. We are the baby of the group here. We have 
been in existence for a year. My name is Rae Grad, I am the 
CEO, and even though we are the baby, we like to think that we 
are on the move and coming to your neighborhood any day now.
    Those of you who have noticed our little logo, PowerUP, see 
the ``U-P'' is capitalized. You might wonder why.
    Mr. Upton. Upper Peninsula, we knew that that was----
    Ms. Grad. That would be wrong.
    Mr. Upton. It is not ``Freddy Boy Upton'' either.
    Ms. Grad. It stands for ``Unleashing Potential'' in youth, 
and that is what we do, and we very purposefully have that ``U-
P'' in our title because we think what we are doing with 
Internet connectivity and giving children and youth a chance to 
be connected to the 21st Digital Century is quite remarkable.
    What makes us different? Well, one of the things is that we 
are very comprehensive in what we do. It is always good to see 
model programs out there doing wonderful things, but we do get 
concerned when approaches are fragmented--if there is a big 
push on wiring but no hardware, if there is a big push on 
hardware but there is no wiring, if there is a big push on 
content, but no hardware and software. So we said, well, let's 
do the whole thing.
    So we have a comprehensive solution which includes 
hardware, software, connectivity, training of staff, content--
so we have a portal called PowerUP online--and a philosophy of 
positive youth development so that we go where there are 
educational things happening, or where there are after-school 
things happening, and we say, ``How can we make this child 
whole'', all the things a child needs to succeed, and that is a 
critical part of what we do.
    We also focus very much on partnerships. We could not be 
where we are today without partnerships, and it is a lesson we 
have all learned over and over again, but I am here to tell you 
partnerships work. Partnerships with the government, 
partnerships with the private sector, partnerships with the 
non-profit.
    So, for instance, we have private sector corporations like 
AOL giving us 100,000 Internet accounts for free. We have the 
Waitt Family Foundation giving us 50,000 PCs for free. Cisco 
gives us routers and switches, all we need. HP give us--this is 
free service--all we need of network printers. Cable 
companies--Ms. McHale, you are right--the cable industry has 
been phenomenal. They are coming to the table because I think 
we all collectively agree that children are going to be doing 
the jobs of the future and strengthening our economy of the 
future, we have to make sure they are in the 21st Century of 
the future, and that is what we are doing.
    Another thing that makes us different is that we have 
designed our program to go to-scale. This is not a demo, this 
is not a pilot. This is a program that will go to-scale. We 
estimate there are about 15 million children who are in an 
after-school setting that need some help in positive youth 
development. If everything goes according to plan, we will be 
touching the lives of those 15 million children.
    And, again, let me emphasize, we work within the schools, 
when the school is open and in an after-school timeframe. Where 
that is not possible, then we focus on the after-school space 
because we know the children leave the school and then have a 
lot of hours in the day when they can get into a lot of 
trouble.
    So, our goal last year was to set up 250 sites around the 
country. We are over 300. Mr. Rush, we are in the Chicago Urban 
League and, Mr. Davis, you know--oh, he has left. We are in 
Michigan, but not in your district, but we will get there, I 
promise you that.
    What are the lessons that we have learned? After-school 
space is essential. As important as the school day is, do not 
forget that children leave and have nothing to do, and there 
are vacations and there is summer, so the after-school space is 
so important to connect with.
    We also know that partnership, not ownership, is essential, 
and that is how victory is gotten. Flexible solutions are 
critical. We can't say there is one cookie-cutter approach, we 
must give communities flexibility. And we must underscore the 
importance of the Federal role and the State role in making 
this happen.
    What I would ask of you is that any Federal effort should 
require partnerships, make that a proven point of what you do. 
Provide the States flexibility wherever you can so they can 
combine funds, CTC Funds with 21st Century learning funds, with 
anything we can do to combine funds. Make sure that we invest 
in technology programs so that we are looking at the whole 
child and not just can you push a mouse or a keyboard. And 
encourage the Federal partnerships that are already there and 
expand them. Help us work with 4H in USDA. Help us work with 
the neighborhood networks. Help us work with the schools 
through 21st Century.
    The private sector and the non-profits are there to be a 
partner. There are so many resources that we can bring to the 
table that we know that the partnerships will result in all of 
our children having equal access to the Digital Age. Thank you.
    [The prepared statement of Rae Grad follows:]

    PREPARED STATEMENT OF RAE GRAD, CHIEF EXECUTIVE OFFICER, POWERUP

                              INTRODUCTION

    Mr. Chairman and members of the Subcommittee, my name is Rae Grad 
and I am the Chief Executive Officer of PowerUP: Bridging the Digital 
Divide. PowerUP is a unique 501(c)(3) nonprofit organization that 
leverages public and private partnerships to bring America's 
underserved youth a wealth of positive youth development through 
technology. PowerUP's mission--to bridge the digital divide--involves 
focus and commitment to meet the needs of young people in the digital 
age. With help from our partners--national and local, public and 
private--we are preparing young people for success today and well into 
the future. On behalf of PowerUP itself, as well as its many corporate, 
non-profit, and governmental partners, I want to thank you for holding 
this hearing and inviting PowerUP to testify.
    PowerUP is committed to ensuring that America's youth acquire the 
skills, experiences and resources that they need to succeed in the 
Digital Age. Launched in late 1999, PowerUP was established by Steve 
Case, then Chairman and Chief Executive Officer of AOL and now Chairman 
of AOL-Time Warner, and Secretary of State Colin Powell, formerly 
Chairman of America's Promise. Together, they sought to create a unique 
organization to help young people succeed in the digital age. PowerUP 
differentiates itself from other youth serving technology programs by: 
1) providing a comprehensive life skills solution that focuses on the 
whole child, rather than simply serving as a computer distribution 
program; 2) creating a model that can be built to scale quickly; and 3) 
emphasizing the power of corporate, non-profit, and governmental 
partnerships to leverage existing resources. PowerUP's goal is to 
foster both positive youth development and technology literacy all 
across this country.
    From Mr. Case's and Secretary Powell's shared vision, PowerUP was 
created, committed to the goals and aspirations for America's youth 
that are articulated in the ``Five Promises,'' the cornerstone of 
America's Promise. The Five Promises include:

1. An ongoing relationship with a caring adult--PowerUP encourages and 
        assists youth in its centers to be linked to a caring adult 
        mentor to provide guidance and support.
2. Safe places and structured activities--Through PowerUP, young people 
        spend non-school time in secure, supervised, and well-equipped 
        PowerUP sites. Through PowerUP Online, PowerUP provides 
        positive youth development activities (K-12) in an online 
        environment.
3. A healthy start in life--Via PowerUP Online, young people can obtain 
        online information about: preventive health care; fun 
        activities involving health-related topics; healthy lifestyle 
        and behavior choices; and nutrition.
4. Marketable skills through effective education--Using PowerUP online, 
        young people learn how to master the technical skills necessary 
        to succeed in the digital age. In addition to learning 
        activities, online access provides information on internships, 
        apprenticeships, summer jobs, and career opportunities.
5. An opportunity to serve--PowerUP links with local volunteer 
        organizations to provide community service opportunities for 
        PowerUP youth and their families.
    In its first full year, PowerUP has enjoyed tremendous success. Our 
goal was to install 250 sites. We have met and exceeded that goal with 
sites in 43 states plus the District of Columbia and Puerto Rico.
 powerup's nonprofit, corporate, and federal governmental partnerships
    PowerUP owes a large measure of its initial success to its 
extremely generous corporate and foundation partners including:

<bullet> An initial $10 million start up grant from the Case Foundation 
        to cover PowerUP's staff and operational needs as well as to 
        support grants to local and national organizations to establish 
        PowerUP sites in their communities. As a result of this initial 
        funding, PowerUP was able to attract a diverse group of 
        additional corporate and foundation partners who made 
        contributions that supported a broad range of technological and 
        non-technological needs.
<bullet> A donation from AOL-Time Warner and the AOL-Time Warner 
        Foundation of 100,000 AOL accounts to enable PowerUP children 
        to have access to the Internet and the creation of PowerUP 
        Online, a web resource that provides children of all ages an 
        interactive package of technology resources to reinforce 
        scholastic achievement and digital literacy;
<bullet> A donation of 50,000 Gateway computer systems by the Waitt 
        Family Foundation to be used at PowerUP sites around the 
        country;
<bullet> Donations from Cisco Systems of networking equipment, 
        including switches and routers, to service all sites 
        established in 2000;
<bullet> A donation from Hewlett Packard of 1,750 printers to be used 
        at PowerUP's sites;
<bullet> A donation from Time Warner Cable of high speed, Internet 
        connectivity to multiple sites across the country; and
<bullet> Donations from PowerBar of healthy and nutritious snacks for 
        students at PowerUP's sites.
    Forging strong partnerships with nonprofits has also been key to 
PowerUP's rapid expansion. We have partnered with youth serving 
organizations like the Boys and Girls Clubs of America, which has 3000 
facilities nationwide and serves 20 million youth annually, to enable 
us to quickly and easily deploy PowerUP's resources in ``Operation 
Connect'' centers throughout the country. Additionally, our partnership 
with the YMCA has afforded us the opportunity to establish technology 
labs in its existing community centers. Our partnerships with the 
National Urban League, which is using PowerUP's hardware, software, and 
online resources to establish and improve Urban League affiliate 
``Digital Campuses,'' and with ASPIRA, which has developed PowerUP 
centers to provide technology access to Latino youth, has enabled 
PowerUP to establish many centers that are serving the nation's 
minority communities. Finally, our partnership with Save the Children 
is assisting our penetration into underserved rural communities and 
American Indian reservations, as well as in some urban centers.
    Equally important, we have begun working closely with a number of 
states and federal government entities, including the Department of 
Education, the Department of Housing and Urban Development, the 
Corporation for National Service/AmeriCorp Vista, and, most recently, 
the Appalachian Regional Commission, to expand further PowerUP's reach.

                     POWERUP'S FEDERAL PARTNERSHIPS

    Our federal partnerships allow us to build and add value to 
existing federal efforts to provide services to youth. Most significant 
is our partnership with the 21st Century Community Learning Centers at 
the Department of Education. This vital program has been a major force 
in the growing effort to provide after-school opportunities for youth. 
It is an excellent example of how leadership on a federal and national 
scale can leverage significant resources. Over seventy percent of 21st 
Century Community Learning Centers funded under the program have had a 
strong technology focus and PowerUP is proud to partner with several of 
these to provide a technology-rich experience for hundreds of youth.
    We understand that the 21st Century Community Learning Centers 
program may be consolidated with other programs and administered by the 
states. In our view, this movement towards state administration will 
allow for greater state involvement and commitment to after school 
technology programs. We hope that the focus on technology will be 
preserved and indeed strengthened, as this program is reauthorized.
    We are also in the process of strengthening and developing 
relationships with the Neighborhood Network Program at HUD, the 4-H 
Program at USDA, and, hopefully, other federal agencies that reach 
children to ensure that PowerUP's resources are deployed in a manner 
that complements federal efforts.
    Of course, our partnerships only matter if they make a difference 
in the lives of the children whom we all serve. Therefore, we are 
pleased to report that while PowerUP has only been operating for a 
little over one year, our local partners report very encouraging 
results:

<bullet> In New York, we recently launched the first PowerUP site for 
        deaf and hearing impaired children at the Lexington School for 
        the Deaf. The children arrived with their teachers and 
        communicated their great excitement at having this newfound 
        access to the Internet through AOL accounts, while school 
        dignitaries and the media filled a room of 20 Gateway computers 
        from the Waitt Family Foundation. We think that our experience 
        at Lexington is important because study after study has shown 
        that the disabled are severely impacted by the digital divide.
<bullet> In Tulsa, Oklahoma, an 8 member team from the National 
        Civilian Community Corp. (NCCC), an AmeriCorps program, joined 
        with the YMCA of Greater Tulsa to support PowerUP to build 
        children's basic computer skills and Internet literacy. These 
        Corps members work with students during the entire school day--
        and then assist after school with the YMCA programs. At the 
        Kendal-Whittier school, NCCC members work with students one-on-
        one using the Internet as a research tool. At Burroughs 
        Elementary, NCCC members supervise a computer room where 
        students tackle research projects using the Internet. Said one 
        NCCC member, ``Watching the students go from not knowing how to 
        use the mouse to being able to get on the Internet and surf is 
        amazing. Students' eyes light up when they see us walk in the 
        room because they associate us with Internet use.'' Not only is 
        this a great experience for the students, but for the Corps 
        members as well.
<bullet> In Pueblo, Colorado, we launched a site at the El Pueblo Boys 
        and Girls Ranch, which serves emotionally and developmentally 
        impaired students in a residential environment.
    As our programs expand, PowerUP is implementing a national 
evaluation project to assess the effectiveness of PowerUP services and 
the impact of the PowerUP program on the youth that participate. We are 
also providing materials and training to assist PowerUP sites in 
conducting their own local-level program evaluations. These resources 
will aid site staff in clarifying program goals, documenting successes, 
and identifying challenges.

                   POWERUP'S PARTNERSHIPS WITH STATES

    We are particularly excited about the partnerships that we are 
developing with our nation's governors. For instance, last July, 
Florida became PowerUP's first formal state partner. Governor Jeb Bush 
dedicated one-half million dollars appropriated by the state 
legislature to combat the digital divide to PowerUP Florida. Governor 
Bush also worked with Florida's corporate community through his IT Task 
Force to provide PowerUP/Florida with in-kind and monetary support. As 
a result of this partnership, 27 sites will be developed by local 
community-based organizations.
    We are also very pleased with our partnership with Illinois 
Governor George Ryan, the Illinois State Board of Education, and the 
South Cook County Education Consortium. Through this partnership, 
PowerUP provided its program to 43 elementary and middle schools in 
economically challenged communities just south of Chicago. Many of 
these schools already receive assistance in connecting students to the 
Internet through the E-Rate and the Department of Education's 21st 
Century Learning program. PowerUP's partnerships with Governor Ryan, 
the Illinois Department of Education, and local schools are a powerful 
demonstration of how state and PowerUP resources both complement and 
leverage the federal government's investment in technology.
    Installation is beginning on 50 new, school-based PowerUP centers 
in Mississippi, each of which will receive 10 to 20 new computers. The 
Mississippi PowerUP sites provide another excellent example of the 
state, the federal government, and public and private sector entities 
partnering for a common cause and leveraging each other's resources. 
The Mississippi Department of Education successfully applied for and 
received a $1 million AmeriCorps grant to provide mentors in each of 
these sites.
    PowerUP recently entered into a partnership with the Appalachian 
Regional Commission and its 13 governors to begin creating new 
partnership technology centers and communities throughout the entire 
Appalachian Region. PowerUP is also in the final stages of negotiating 
a partnership arrangement with the Commonwealth of Virginia. We are 
currently working closely with a number of other states on partnerships 
and expect to announce additional ventures shortly.

                     BUILDING THE PARTNERSHIP MODEL

    We have learned much during our first year, particularly about the 
power of the partnership model on which PowerUP operates. We have also 
had the opportunity to observe and participate in federal programs, 
such as the 21st Century Community Learning Center program, that are 
geared towards assisting America's youth. From these experiences, we 
have developed an understanding of what elements make the partnership 
model work and how the federal government's programs serving youth can 
help foster these elements.
    First and foremost, we have learned the importance of our partners, 
all of whom have been crucial to our success. The value of PowerUP's 
partners is not derived solely from the financial and in-kind assets 
that they have generously donated; it arises from the extraordinary 
synergies created by their participation. We have found that when one 
company, one state government, or one non-profit organization announces 
its participation in PowerUP, others with similar public policy aims 
and complementary assets are encouraged to follow its lead. Through 
this dynamic process, PowerUP has been able to scale-up quickly and 
leverage and combine the assets of its corporate partners. Based on our 
experience, we believe that any federal efforts to bring new technology 
to youth should encourage participants to work in partnerships, be they 
non-profit, corporate or government based, to ensure that each 
partner's assets are leveraged to the fullest.
    Second, in our work with communities across the country, we have 
discovered the importance of flexibility in the use of funds. Such 
flexibility would allow us to utilize dollars from the Community 
Technology Center (CTC) program and from the 21st Century Community 
Learning Centers program, for example, to build after school technology 
capacity at the same sites. In this way we would not only satisfy the 
goals of both programs but also leverage the combined resources to 
enhance technology access for youths in these underserved areas.
    Third, the PowerUP model has worked extraordinarily well when we 
have been able to collaborate closely with governors and state 
governments. In Illinois, in Florida, in Mississippi, and in other 
states with which we are working, we have found that state buy-in, both 
literally and figuratively, is crucial to PowerUP's efforts. But we 
have found that overall there are very few state resources committed to 
technology-rich after school programs for underserved youths. We 
believe that the substantial federal investment in such programs ought 
to include incentives for states to match federal dollars for after 
school programs with their own contributions and/or to build 
partnerships with business and nonprofit groups. We can turn the 
digital divide into a digital opportunity but we need the participation 
of government at all levels as well as business and community 
organizations.

                               CONCLUSION

    PowerUP has come a long way in a short time. We still have much to 
do. With the assistance of our corporate, non-profit, and governmental 
partners, we are encouraging youth development by providing thousands 
of America's children with access to technology and technology skills. 
By the end of 2001, we hope to assist even more children. We also hope 
that our success will serve to encourage others to forge useful and 
enduring public-private partnerships to assist America's youth. To 
learn more about PowerUP, we invite you, Mr. Chairman, and all of the 
members of your subcommittee to visit our website--at www.powerup.org. 
We also would welcome the opportunity to take you on a guided tour of 
one of our many PowerUP sites around the country.
    We thank you for this opportunity to appear before you and look 
forward to answering any further questions that you have.

    Mr. Upton. On the nose, 5 minutes. That was wonderful.
    Ms. House.

                   STATEMENT OF JENNIFER HOUSE

    Ms. House. Good morning, Mr. Chairman and Ranking Member 
Markey and other members of the committee. Thank you very much 
for your support of the education technology and the 
opportunity to testify before you today on that subject.
    I am Dr. Jennifer House, Vice President of Strategic 
Relations for Classroom Connect, an Internet education company 
that develops and markets original Web-based curriculum 
products and teacher professional development programs for the 
K-12 education community.
    I am also pleased to represent the Software and Information 
Industry Association. SIIA is the principal trade group of the 
software code and digital content industry, and has long been 
at the forefront of education technology.
    In today's information age and global marketplace, 
intellect and innovation give the United States its competitive 
edge and make a highly educated and skilled citizenry 
essential. To achieve this, our nation needs a comprehensive, 
national education and workforce development strategy that 
ensures that all students achieve high standards and all 
citizens gain 21st Century knowledge and skills. Allow me to 
speak to two core elements of this--education technology and 
Federal leadership and investment.
    The Internet provides anywhere, anytime, anyplace access to 
courses that integrate rich curriculum, expert instruction and 
global discussions which were previously unavailable to many. 
Technology also facilitates communication between the school 
community,thus empowering parents to participate in their 
children's education.
    Technology through the Internet is critical to providing 
students with this wide range of 21st Century knowledge and 
tools. Basic technology, literacy, and high-order cognitive 
skills, collaboration, and the ability for self-directed 
lifelong learning. An example of this is our product called 
Quest adventure learning series, which provides students the 
opportunity to follow an expert team of scientists to solve a 
mystery, such as what happened to the Mayan civilization, or 
the Anastasi Indians. During America Quest, Michael Mahoney 
from Cardinal Pocelli's School writes, ``Each student from 
grades three through eight have come up with wonderful theories 
about what happened to the Anastasi. It has been gratifying for 
me to watch them as they looked at the evidence, searched for 
clues, followed leads, and wrote numerous e-mail messages about 
their findings''.
    Finally, technology eases efforts to collect and analyze 
data, including on a student achievement, thus enabling data-
drive decisionmaking and accountability by schools. At the same 
time, research and experience will inform our use of technology 
to improve teaching and learning and increase achievement. Much 
is already known, the key now is to develop replicable models 
that allow effective integration of technology for all teachers 
and learners.
    The nation's elementary and secondary schools need Federal 
assistance to achieve these goals. They have three primary 
needs--infrastructure and access, software and digital 
curriculum, and well-trained educators. Federal leadership in 
public-private partnerships are critical to achieve these 
goals.
    I laud Congress for the passage of the E-rate. It has been 
critical to ensuring our most economically disadvantaged 
communities have access to the nation's telecommunications and 
Internet infrastructure. The funding requests, which now double 
the FCC-set cap of $2.25 billion, are testament to how 
important these resources are and our nation's growing 
commitment to technology solutions.
    U.S. Department of Education grant programs are a second 
important element of Federal K-12 support. We are participating 
in four Preparing Tomorrow's Teachers Today Grants, exemplary 
public-private partnerships which include schools of education, 
K-12 schools, and commercial entities, developing exemplary 
models to train teachers on the effective use of technology.
    Trana Gann, a technology coordinator at the Houston 
Independent School District, has advanced her professional 
development without ever leaving the comfort of her home, using 
our Connected University Online professional development 
courses. These courses were developed with the Texas Education 
Agency to meet their particular State needs through a public-
private relationship.
    Finally, I would like to leave you with four policy 
initiatives that SIIA and Classroom Connect strongly Congress 
to initiate. First, target Federal education resources to 
national priorities, including technology, math and science, 
teacher quality, and disadvantaged students. Avoid regulations 
that inappropriately create barriers to the use of education 
technology.
    Second, continue to expand efforts to ensure universal 
student and community access to telecommunications 
infrastructure and Internet technology via the nation's schools 
and libraries.
    Third, target Federal R&D to address gaps in private 
investment, including unserved niche markets, basic cognitive 
research, and large-scale empirical evaluations that identify 
effective models.
    Finally, increase investment in training all educators to 
effectively integrate technology into the curricula, including 
pre-service and in-service training.
    Many of these principles are reinforced in the recent 
report of the Bipartisan Web-Based Education Commission. I 
encourage you to read it. Thank you for the opportunity to 
present to you today, and both Classroom Connect and SIIA are 
committed to helping you move forward with these efforts.
    [The prepared statement of Jennifer House follows:]

   PREPARED STATEMENT OF JENNIFER HOUSE, VICE PRESIDENT OF STRATEGIC 
    RELATIONS, CLASSROOM CONNECT, INC. ON BEHALF OF THE SOFTWARE & 
                    INFORMATION INDUSTRY ASSOCIATION

    Good Morning Mr. Chairman, Ranking Member Markey, and members of 
the Committee. Thank you very much for the opportunity to address you 
today on the subject of education technology. My name is Jenny House, 
and I am Vice President of Strategic Relations for Classroom Connect, 
an education company that provides online curriculum products and 
professional development solutions to support K-12 standards-based 
teaching.
    I am also pleased to represent the Software & Information Industry 
Association as chair of SIIA's Education and Workforce Development 
Policy Committee. SIIA is the principal trade group of the software 
code and digital content industry, with a membership of 1,000 companies 
building the digital economy. SIIA has long been at the forefront of 
efforts to integrate technology into education and education policy.
    In sharing SIIA's perspective and policy goals, I bring my own 30+ 
years of experience as a teacher, school and district administrator, 
and hardware and software company executive. While SIIA member 
companies and their technology serve the entire broad education and 
training market, my comments will emphasize elementary and secondary 
education to which I have devoted my professional life.
National Education & Workforce Strategy
    First, let me thank this Committee for its strong support of 
education and education technology. Federal leadership and investment 
has been critical to local and state efforts to bring the benefits of 
instructional technology to all students, especially those in the most 
disadvantaged communities.
    In today's information age and global marketplace, intellect and 
innovation give the United States its competitive edge and make a 
highly educated and skilled citizenry essential. This fact is no more 
clearly demonstrated than in the high technology industries now driving 
the global and digital economies. However, the insufficient 
availability of skilled workers recently forced the nation's high-tech 
companies to request a temporary increase in the number of foreign-born 
professionals allowed into the U.S. to meet their workforce needs.
    We all agree this short-term fix is inadequate. Our nation needs a 
comprehensive, national education and workforce development strategy 
that ensures all students achieve to high standards and all citizens 
gain 21st Century knowledge and skills. Allow me to speak to two core 
elements of this solution: education technology and federal leadership 
and investment.

Vision of Education Technology
    Learning through the use of, and about, technology and the Internet 
are critical to meeting our education and training goals. As uses are 
refined and integrated, technology and the Internet are encouraging 
innovation in education structure, policy and practice. The result is a 
transformation of teaching and learning, and improved educational 
efficiency, opportunity, effectiveness and student achievement.
    These educational improvements can be organized around three 
technology benefits: enhanced learning, 21st Century skills, and 
administrative effectiveness.
    <bullet> Enhanced Learning. Software and web-based learning provide 
tools for the ideal student-centered learning model. Access to real-
time, real-world content and exploration engages the student and drives 
the thirst for knowledge. The Internet provides anytime, anywhere 
access to courses that integrate rich curriculum, expert instruction, 
and global discussions, and which were previously unavailable to many. 
And technology enables self-paced, individualized learning in which 
integrated diagnostic assessments are linked to curriculum in a way 
that best meets the unique learning interests, needs and styles of 
students.
    Classroom Today provides a comprehensive framework of thematic 
units which cover topics related to a teacher's curriculum. Through an 
interactive educational Website, Classroom Today provides a natural way 
for teachers to integrate up-to-the-moment information from and 
interactivity of the Internet into the classroom on a basis consistent 
with individual teacher calendars. The Website is used by subscribing 
classrooms to explore and research topics in science, social studies, 
math, and language arts guided by a series of open-ended questions. 
Each unit features curriculum content wrapped around pre-qualified Web 
resources and supported by lesson plans, activities, and tools such as 
links to national and state standards as well as related assessment 
strategies.
    <bullet> 21st Century Skills. Success today requires a set of 
abilities not necessary a generation ago. Technology is critical to 
providing students with this wide range of 21st Century knowledge and 
tools. These skills begin with basic technology literacy, including the 
ability to find and analyze information on the Internet. Technology 
also facilitates higher-order cognitive skills such as problem solving 
and the ability to draw and communicate conclusions. Finally, it 
encourages collaboration and the ability for self-directed and life-
long learning. Many will only acquire these skills in a timely manner 
if given access at school.
    An example of this is Classroom Connect's unique Quest adventure 
learning series, which provides students, teachers and parents with the 
opportunity to follow an expert team, in real time, on their travels 
around the world on an educational exploration. Twice a year for four 
to six weeks, a team of adventurers and curriculum experts explore a 
mystery such as what is taking place today in the Mayan ruins in 
Belize. Students around the world are communicating with scientists on 
site and other related experts to solve the mystery of what happened to 
the Mayan civilization. The team on site communicates via portable 
computers and satellite technology carried on their backs for student 
viewing the next day. Quest subscribers direct the journey as they vote 
on the team's next destination and fact finding strategy and email the 
adventurers with questions, ideas, and insights during the trek.
    <bullet> Administrative Effectiveness. Technology also brings 
efficiencies to educational management. The Internet opens the market 
to non-traditional providers, thus enhancing education competition and 
student choice. It facilitates communications between the school and 
community, thus empowering parents to participate in their children's 
education (provided they have Internet access). Technology eases 
efforts to measure and monitor student progress, and to improve data-
driven decision-making and accountability. The result is effective data 
management, procurement savings, and other cost efficiencies long 
enjoyed by business.
    I encourage you to review the Education Anytime, Anywhere section 
of SIIA's Trends Shaping the Digital Economy report for more details 
and case studies (http://www.trendsreport.net/education).
    Continued technology advances will further enhance this value 
through hand-held computers, e-books and other low-cost devices, two-
way interactive video and voice streaming, and wireless technologies. 
At the same time, research and experience will inform our design and 
use of technology to improve teaching and learning and increase 
achievement. Many examples of success already exist. SIIA's 2000 
Research Report on the Effectiveness of Technology in Schools reviewed 
existing research and found that technology increases educational 
opportunities and student achievement, and that the degree of 
effectiveness depends on the match between such variables as student 
needs, software design, education goals, and educator training. While 
more research is needed to further refine our understanding, a primary 
goal now is to develop and implement scalable and replicable models 
that allow the effective integration of technology for all teachers and 
learners.
    Achievement of these technology-driven educational improvements 
requires that all schools and students have access to high-quality 
digital tools and curriculum, and that this technology is effectively 
integrated into teaching and learning.

Education Needs
    The nation's elementary and secondary schools need federal 
assistance to achieve these education technology goals. They have three 
primary needs: infrastructure and access, software and digital 
curriculum, and well-trained educators.
    In addressing these needs, federal assistance must recognize the 
unique challenges schools face in funding technology. It is a 
relatively new item in a budget crafted at the margin and slow to 
change. Technology is a relatively expensive item in a budget that 
devotes most resources to personnel and operations. And technology is a 
hybrid item in a budget that categorizes costs as either capital or 
recurring. As a result, our nation's K-12 schools spend only about one-
twentieth per student on technology as does the private sector spend 
per employee. Federal investment is critical to ensuring the necessary 
investment as local communities and educators adapt to this change.
    Infrastructure and Access. Schools need assistance in obtaining the 
appropriate telecommunications and technology infrastructure and 
access, including connectivity and hardware. This is especially the 
case in many urban and rural communities where access is more difficult 
and more expensive to obtain, and of course for high-poverty districts 
that are severely lacking in resources.
    Software and Digital Curriculum. Schools need high quality software 
and digital curriculum to reap the benefits of technology and the 
Internet. These tools must be learner-appropriate and safe, matched to 
education needs and standards, incorporate effective pedagogy, and be 
designed for fluid and effortless integration into the curricula and 
school management. Educators have neither the time nor resources to 
develop these tools nor translate raw content into curriculum.
    Well-Trained Educators. Perhaps most critical to the success of 
education technology, schools need educators that are able to 
effectively integrate technology into the curriculum. Technology 
provides exciting new tools that can transform a teachers methods and 
role, and invigorate their experience. With this paradigm shift at an 
early stage, educators need training and practice. Studies repeatedly 
identify the lack of teacher training as a key barrier to the more 
effective use of technology.

Public-Private Partnerships
    Public-private partnerships and federal leadership and investment 
are critical to the nation's ability to address these education needs 
and transform the vision of technology into reality for all students. 
Federal leadership serves as a catalyst for innovation, reform and 
improvement in our nation's education and training system, while 
federal resources leverage the state, local and private investment 
necessary to fuel this national effort. At the K-12 level, federal 
investment provides more than one-third of the resources used by local 
schools to access, acquire and integrate technology.
    The E-Rate has been critical to ensuring our most economically 
disadvantaged communities have access to the nation's 
telecommunications infrastructure that serves as a base for their 
educational efforts. The yearly funding requests, now double the FCC-
set cap of $2.25 billion, are testament to both the importance of these 
resources and to our nation's growing commitment to technology 
solutions.
    U.S. Department of Education grant programs are also an important 
element of federal K-12 support. These grant resources enable local 
schools to leverage their telecommunications and Internet access 
through the software and online learning tools important for teaching 
and learning innovation and improvement. For example, many schools 
supplement federal grants with state and local funds to subscribe to 
Classroom Connect's services.
    At Classroom Connect we believe educators need a broad range of 
instructional techniques and technology proficiencies to teach and 
inspire their students. Professional development is key to successful 
implementation of any curriculum in the schools, and it is critical in 
the relatively new arena of integrating technology into the curriculum. 
Our professional learning suite fulfills these needs with a tailored 
mix of Web-based learning, onsite instruction, conferences and 
publications. We have developed our Connected University online 
professional development on a foundation of anywhere, anytime, any pace 
learning for teachers and administrators. We are participating in four 
different federally funded projects through the Preparing Tomorrow's 
Teachers To Use Technology (PT3) grants. These are exemplary public-
private partnerships which include schools of education, K-12 schools/
agencies, and commercial entities such as Classroom Connect. These 
projects prepare teachers to effectively incorporate technology into 
teaching and learning while developing standard of excellence, and 
prepare the best educators to teach our nation's future leaders.
    We also participate in several important not-for-profit 
partnerships as well. Our partnership with the Stanford Research 
Institute (SRI) is analyzing the effectiveness of online learning and 
teaching that benefits the entire educational community, commercial as 
well as public. A second partnership is with the SchoolFirst 
Foundation, which is using our products in some of the nation's 
disenfranchised schools to study the impact of online learning for 
students from low socio-economic neighborhoods. We also have content 
partnerships with the American Museum of Natural History, the Library 
of Congress, and NASA.

Policy Solutions
    SIIA strongly encourages the Congress, working with the 
Administration, to enhance the federal support and leadership necessary 
to realize this education technology vision and ensure all students 
achieve to high standards and gain the necessary 21st Century knowledge 
and skills. Such policies should promote public-private partnerships 
that help provide all schools and students with access to high-quality 
digital tools and curriculum and their effective integration into all 
appropriate aspects of teaching and learning.
    These policy principles are largely reinforced by the findings and 
recommendations of the bipartisan Web-Based Education Commission, led 
by former Senator Bob Kerrey and Congressman Johnny Isakson. I 
encourage you to review their recent report, The Power of the Internet 
for Learning: Moving from Promise to Practice, as well as SIIA's 
testimony to the Commission (http://www.siia.net/shared
content/govt/issues/edu/SIIAWebComRecs.pdf).
    In general, it is the view of SIIA that public policies should: (1) 
neither prejudice nor inappropriately favor technology and web-based 
education; (2) rely to a great extent on consumer empowerment and 
market competition; and (3) make the long-term investment in 
technology, including infrastructure, research and development, and 
teacher training.
    More specifically, SIIA encourages federal policies that seek the 
following with regard to K-12 education:

<bullet> Target federal education resources to national priorities, 
        including technology, math and science, teacher quality, and 
        disadvantaged students. In return, hold schools and educators 
        accountable for ensuring all students achieve to high standards 
        and gain 21st Century knowledge and skills.
<bullet> Increase federal investment in education technology, and 
        ensure those resources are both flexible and stable to empower 
        local districts to address their unique technology needs and 
        goals. The resulting demand creates competition among 
        publishers and spurs technology innovation, quality and reduced 
        prices.
<bullet> Continue and expand efforts to ensure universal student and 
        community access to telecommunications infrastructure and 
        Internet technology via the nation's schools and libraries. As 
        I mentioned, the E-Rate has been invaluable in providing 
        connectivity and access for our nation's schools, libraries and 
        students. Any efforts to achieve this goal and close the 
        digital divide must ensure our neediest schools and libraries 
        continue to have dependable telecommunications access that is 
        protected from the often unstable federal appropriations 
        process. Many classrooms, particularly in the most 
        disadvantaged communities, remain to be connected.
<bullet> Avoid regulations that inappropriately create barriers to the 
        use of education technology. Recognize that a supportive and 
        dynamic policy environment is needed for technology to emerge 
        successfully from today's challenging and relatively early 
        development stage. Rely on balanced solutions, public-private 
        partnerships, industry self-regulation, and consumer education 
        and local communities to ensure student online safety and 
        privacy.
<bullet> Increase investment in training all educators to effectively 
        integrate technology into the curricula, including pre-service 
        and in-service training. Encourage public-private partnerships 
        that take advantage of the expertise of companies like 
        Classroom Connect and their ability to provide web-based 
        teacher training and facilitate online support groups.
<bullet> Target federal R&D to address gaps in private investment, 
        including unserved niche markets, basic cognitive research, and 
        large-scale empirical evaluations that identify effective 
        models. Emphasize public-private partnerships to ensure the 
        most relevant research is funded, findings directly influence 
        product development, and government does not distort the 
        incentive for private investment through inappropriate 
        competition.

Conclusion
    In conclusion, Mr. Chairman and Members of the Committee, SIIA and 
its member technology companies understand first-hand the importance of 
a highly-skilled workforce. And we recognize the need for a 
comprehensive national education and workforce development strategy 
that ensures all students achieve to high standards and all citizens 
gain 21st Century knowledge and skills. As my testimony has outlined, 
the elementary and secondary education reforms and innovations created 
by technology tools provides a critical target for federal leadership 
and investment. Public-private partnerships such as those being 
undertaken by Classroom Connect should be core to this strategy. On 
behalf of SIIA and the high tech community, I extend our commitment to 
work closely with you to enhance this partnership and realize our 
nation's educational and economic goals.
    Thank you for the opportunity to testify. I am pleased to answer 
any questions.

    Mr. Upton. Thank you.
    Dr. Koster.

                  STATEMENT OF EMLYN H. KOSTER

    Ms. Koster. Mr. Chairman, members of the subcommittee, I 
appreciate this opportunity to be with you and commend you on 
focusing on technology and education innovations.
    My name is Emlyn Koster and I, since 1996, have been 
President of Liberty Science Center in Jersey City, opposite 
Manhattan.
    Liberty Science Center's mission is to be an innovative 
learning resource for life-long exploration of nature, humanity 
and technology supporting the growth of our diverse region and 
promoting informed stewardship of the world. Our onsite 
audience is now over 6 million since opening in 1993.
    Today I would like to highlight how telecommunications 
technology and the Internet have been critical in enabling 
Liberty Science Center to expand its services from being 
available just onsite. We are not a museum in any traditional 
sense of the term.
    The first program to highlight for you is our Live from 
Cardiac Classroom series. Working with the surgical team at 
Morristown Memorial Hospital in New Jersey, part of the 
Atlantic Health System, and with the help of a visionary 
trustee, cardiologist Dr. William A. Tansey, and with Johnson & 
Johnson and Verizon as other corporate supporters, we have 
created this one-of-a-kind operating room experience using a 
dedicated T1 line for videoconferencing. Students watch and 
interact in real time with all operating team members, 
immersing themselves in ever facet of coronary bypass surgery. 
Our science educators facilitate a powerful learning experience 
that includes examination of all instruments used by the 
surgical team during the videoconferencing. The discussion 
ranges from risk factors to medical careers. This program also 
features pre-visit teacher activities and a curriculum packet 
that helps prepare students for this dynamic, possibly life-
changing, experience. Our latest enhancement in this type of 
program occurred just last week when we premiered Live From 
Brainworks, a similar program that links with Overlook Hospital 
in New Jersey and highlights different kinds of neurosurgery.
    The second program I would like to highlight for you is our 
large-scale collaboration with the New Jersey Department of 
Education that provides onsite, offsite and online science 
education services to the State's most at-risk school 
districts, known as Abbott Districts.
    This innovative science education initiative is one of the 
most unique and extensive found anywhere in the country. During 
the last school year, 170,000 students benefited from our 
designed interactions. Of this total, 100,000 used onsite 
programming, 66,000 offsite school-based programming, and 4,000 
online videoconferencing. As well, over 100,000 teachers 
participated in school day, weekend and summer professional 
opportunities. And over 25,000 family members from these 
communities used their free passes to enjoy a Liberty Science 
Center visit.
    In establishing this long-term partnership, we convinced 
the State Department of Education that our programming would 
add value to its science improvement initiatives. We 
demonstrated how our field trip, traveling science, and 
videoconferencing curriculum materials are all aligned with 
Stat and National Curriculum Content Standards. We demonstrated 
how our teacher professional development workshops and 
institutes are attuned to the emerging State certification 
requirements, and we thoughtfully suggested the inclusion of a 
third emphasis on the family to extend school and science 
center learning into the home.
    Use of telecommunications technology and the Internet are 
key elements in the successful implementation of all of our 
school programs. This year we will host 350 Electronic Field 
Trips on topics that include animal habitats, simple machines, 
human respiration, insects and energy conservation. Each link 
is supported by a classroom package of curriculum material for 
pre- and post-connection classroom activities. The polished 
production values of these Electronic Field Trips enable the 
teacher and our science educators to maximize the learning 
impact of this type of distance learning.
    If you visit our Website, you will find extensive online 
resource material that supports both of these programs and 
other resources about the learning and teaching of science. 
Often, field trip visits to science centers and museums have 
little pedagogical focus and can seem disconnected from school. 
At Liberty Science Center, teachers can structure their student 
explorations through a focus on a small set of exhibit 
experiences that lead their students to complete a design 
challenge.
    Mr. Chairman, I hope that these remarks have given you 
valuable insights into the innovative programs at Liberty 
Science Center, and especially how telecommunications and 
Internet technologies have enabled the development of new ways 
to extend the impact of our mission. Thank you very much.
    [The prepared statement of Emlyn H. Koster follows:]

PREPARED STATEMENT OF EMLYN KOSTER, PRESIDENT AND CEO, LIBERTY SCIENCE 
                                 CENTER

    Mr. Chairman, Congressman Markey and members of the Committee--I 
much appreciate this opportunity to be with you here today and commend 
you for focussing on technology and education innovations. My name is 
Emlyn Koster and since 1996 I have been president of Liberty Science 
Center in Jersey City. To give you a frame of reference in case you 
have not yet had the opportunity to visit us, we are on the New Jersey 
shore of the Hudson River in Liberty State Park facing Ellis Island, 
the Statue of Liberty and Manhattan skyline.
    Liberty Science Center's mission is to be an innovative learning 
resource for lifelong exploration of nature, humanity and technology, 
supporting the growth of our diverse region and promoting informed 
stewardship of the world. We are not a museum in any traditional sense 
of the term. Our onsite audience, now over six million since opening in 
1993, learns through multimedia exhibitions, giant screen films, 3D 
laser shows, photo exhibits, and activities and programs that encourage 
understanding of science and technology. These experiences then extend 
into schools, community centers, and homes through numerous traveling 
science programs and electronic connections that use videoconferencing 
and Web technologies. Our philosophy that seeks relationships with 
schools and homes establishes Liberty Science Center as a valuable 
educational resource, and not just an enjoyable destination.
    I am here today to highlight how telecommunications technology and 
the Internet have been critical in enabling Liberty Science Center to 
expand its services from being available just onsite.
    The first program to highlight for you is our Live From . . . 
Cardiac Classroom series. Working with the surgical team at Morristown 
Memorial Hospital in New Jersey, part of the Atlantic Health System, 
and with the help of a visionary trustee, cardiologist Dr. William A. 
Tansey, and with Johnson & Johnson and Verizon as other corporate 
supporters, we have created this one-of-a-kind operating room 
experience using a dedicated T1 line for videoconferencing. Students 
watch and interact in real time with all operating team members, 
immersing themselves in every facet of coronary bypass surgery. Our 
science educators facilitate a powerful learning experience that 
includes examination of all instruments used by the surgical team. The 
discussion ranges from risk factors to medical careers. This program 
also features pre-visit teacher professional development activities and 
a curriculum packet that helps prepare students for this dynamic, 
possibly life-changing, experience. Our latest enhancement in this type 
of program occurred just last week when we premiered Live From . . . 
Brainworks, a similar program that links with Overlook Hospital in New 
Jersey and highlights different types of neurosurgery.
    The second program I am profiling for you is our large-scale 
collaboration with the New Jersey Department of Education that provides 
onsite, offsite and online science education services to the state's 
most at-risk school districts. As you may know, these are called Abbott 
districts as a result of a New Jersey Supreme Court landmark ruling. 
There are thirty of them, almost all are urban, and their enrollment 
totals 270,000.
    This innovative science education initiative is one of the most 
unique and extensive found anywhere in the nation. Prior to 1997, and 
within our home community of Jersey City, for example, less than 500 of 
32,000 students visited Liberty Science Center each year on field trips 
and local families rarely walked through our doors. The Abbott 
Partnership Program has defined a new reality. During the last school 
year, 170,000 Abbott district students benefited from our designed 
interactions, 26,000 of them from Jersey City. Of this total, 100,000 
used onsite programming, 66,000 used offsite school-based programming, 
and 4,000 used online video-conferencing. As well, over one thousand 
Abbott district teachers participated in school day, weekend and summer 
professional development experiences. And, over 25,000 family members 
from Abbott communities used their free passes to enjoy the excitement 
of a Liberty Science Center visit.
    In establishing this long-term partnership, we convinced the State 
Department of Education that our programming would add value to its 
science improvement initiatives. We were not in search of a handout, 
but stressed our desire to earn public sector support through 
collaborative involvement with science education reform. We 
demonstrated how our field trip, traveling science, and 
videoconferencing curriculum materials are all aligned with the New 
Jersey Core Curriculum Content Standards. We demonstrated how our 
teacher professional development workshops and institutes are attuned 
to the emerging state certification requirements. We thoughtfully 
suggested the inclusion of a third emphasis on the family to extend 
school and science center learning into the home. And, we offered to 
provide families with a free pass for use at the Center, a quarterly 
newsletter, and monthly community evenings as part of an inclusive 
package of science education services.
    Use of telecommunications technology and the Internet are key 
elements in the successful implementation of the Abbott Partnership 
Program, and indeed in all of our school programs serving the 
surrounding four-state region. Every day from the floor of Liberty 
Science Center we use videoconferencing technology to bring the 
excitement of our exhibits and science experts into classrooms. Through 
two-way, audio and video, ITV or ISDN based technologies, students 
interact with our science educators on a host of activities that 
support the classroom curriculum at all grades. This year we will host 
350 different connections on topics that include animal habitats, 
simple machines, human respiration, insect study, and energy 
conservation. Each 45-minute link is supported by a package of 
curriculum material that includes pre- and post-connection classroom 
activities. The polished production values of these Electronic Field 
Trips enable the teacher and our science educators to maximize the 
learning impact of this type of distance learning.
    If you visit our website, you will find extensive online resource 
material that supports both of these programs and other resources about 
the learning and teaching of science. For Cardiac Classroom, you will 
meet the doctors and watch taped footage online. For educators, there 
is a teacher's guide providing lesson plans and other activities to 
complement the Live From . . . experience. For Electronic Field Trips, 
teachers also find a host of support materials that extend the impact 
of their videoconference connections. Additionally, our online 
resources repeat our complete field trip curriculum of Discovery 
Challenges. Often, field trip visits to science centers and museums 
have little pedagogical focus and therefore can seem disconnected from 
school. At Liberty Science Center, teachers can structure their student 
explorations through a focus on a small set of exhibit experiences that 
lead their students to complete a design challenge. The availability of 
Internet and Web technologies has enabled free access to these valuable 
curriculum materials.
    Mr. Chairman, I hope that these remarks have given you valuable 
insights into the innovative programs at Liberty Science Center, and 
especially how telecommunications and Internet technologies have 
enabled the development of new ways for science centers and other types 
of museums to extend the impact of their mission.
    I would be pleased to host at anytime a visit by you and any of the 
subcommittee or full committee members. You can now reach us by light-
rail, ferry and road, and of course online at <www.lsc.org>. Thank you 
again for this opportunity and I look forward to any questions you may 
have.

    Mr. Upton. I want to thank all of you for your wonderful 
testimony, and also by complying with our committee rules of 
actually submitting it either online or on-paper 48 hours in 
advance. It was a joy to read much of the testimony over the 
last couple of days and to try and get prepared for today's 
hearing.
    I want to also compliment the staff on both sides for their 
work in getting us ready.
    We all have a number of questions, and at this stage we 
will alternate between sides, although I am convinced that we 
are all on the same side, for 5 minutes, and we will try to 
limit our questions and answers to 5 minutes so that we can get 
a number of members through this process before the bells ring 
and we come back, and hopefully we will have at least one round 
or two as members pop back in from the other hearings that they 
have.
    As I have toured a number of my different institutions, 
whether it be libraries or schools, in schools at all different 
levels, from my after-school neighborhoods, and some tough 
neighborhoods in my K-12 and my intermediate school districts 
which are county-run institutions branching out to the 
individual schools. Yes, I located my Catholic schools and 
other private schools that are tapped into the system. And I 
looked at my university structure as well.
    One of the important messages to me is the strong 
importance of making sure that we have the qualified teachers 
in the classroom, able to use the material and the equipment 
that is there. In fact, I commented earlier this week in one of 
my schools, I was a student when I think the overhead projector 
was first invented, and I can remember my sixth grade teacher 
leaning across, wanting to know if it was going to be the right 
way on the blackboard, and having to look around, as it was the 
first time that he had used it. But I say that because in my 
District in Kalamazoo, we have Western Michigan University. 
Western Michigan is a public foyer university. It, along with 
Eastern Michigan and Central Michigan Universities, those three 
universities train more teachers for the classroom than any 
other three universities in the country. And Western Michigan 
is on a race right now to be the first public foyer institution 
to be completely wireless in all of its facilities, classrooms 
and dorm rooms, by this fall, racing with the University of 
Wisconsin. It is ``Down Wisconsin'', not ``On Wisconsin'' this 
week, but it is great to see this competition that is out 
there, particularly as they are in the business of training the 
teachers and having the classrooms that can do that.
    And I guess my first question to some of you here is, tell 
me exactly how--as we look particularly at the Michigan angle, 
Dr. Spencer, and the wonderful work that has been done--what 
programs do you have in-hand to actually train some of these 
teachers? I visited in intermediate school district in Berian 
County 2 weeks ago, I guess it was, and when I did this 
conferencing of the 500 students, I went into the room and 
there were literally 50 teachers in there that were being 
trained to know how to set up a WebPage, to do a whole number 
of things. It was great to see that happen. But what type of 
resources do you have, and are you doing that to train those 
teachers? And, Dr. Spencer, before you answer, I would be 
remiss in my visit to those schools, it was wonderful as the 
teachers talked about the access to the computers they are 
going to get from the number of companies that are doing it. 
One of the complaints, though, that I heard was, particularly 
the resource teacher who is actively working with all of--in 
this particular classroom, St. Joe High School--all these 
students, and because the resource is not a teacher, doesn't 
have--isn't doing math or social science, though, in fact, she 
was working with all--she does not qualify for that. Is it 
free, or a reduced-rate computer?
    Mr. Spencer. Mr. Chairman, the Teacher Technology 
Initiative provide $110 million for the 90,000 full-time 
teachers. There will likely be a second round opportunity for 
those that did not qualify in----
    Mr. Upton. She is actually training the teachers and 
working with the kids, and I thought, boy, somehow I am a 
second-class citizen here, I am not able to get the same 
benefit that, in fact, I am really doing so. I said I would 
mention that to you when you came to testify, to see if I 
can't----
    Mr. Spencer. Mr. Chairman, I not only have written it down, 
I will speak to the Governor about it as soon as I return. And 
the Legislature and the Governor have talked about those that 
have not been qualified in the first round--special education 
teachers in school districts--there are several other tiers of 
critical providers in the K-12 community that need to be part 
of that program and will likely be funded in the second-round 
initiative.
    If I might, Mr. Chairman, in response to the online 
professional development, it is probably one of the most 
important issues that we face not only at the K-12 level, but 
also at the higher education level.
    In our case, we have joined with our friends down the table 
here, and I neglected to mention that earlier. Jennifer House, 
we have recently a public-private partnership that Michigan 
Virtual University has engaged with Classroom Connect, and we 
are going to be providing their courses to our teachers.
    Second, as I mentioned earlier, we probably will have the 
most aggressive information technology initiative in the 
country launched--and Governor Engler will announce this on 
Monday--we will be providing through the National Education 
Training Group, NETg, over 700 online IT courses for all of our 
teachers across the State for free for the next 3 years.
    In addition to that, we will be providing those courses to 
the students, both at K-12 and higher education, and this, we 
hope, will be a jump-start to get our teachers up-to-speed. No 
barriers. No cost barriers, and we want everyone on the same 
page in that regard. I think those tow initiatives will help 
our teachers greatly.
    The third thing I would respond by saying is that you are 
right on the mark with regard to higher education. Western 
Michigan University is preparing to launch the first totally 
online educational technology Master's Degree program. Michigan 
State University, Dr. Peter McPherson, his organization is 
right behind them launching another Master's Degree. All of our 
colleges and universities in the State are ramping-up to make 
this a focus for the future, and that is where the professional 
development opportunities will happen for our pre-service 
teachers. It is not just our current teachers at the K-12 
level, it is those young people that are coming through 
tomorrow that will make a difference as well, so we are going 
to try to service both.
    Mr. Upton. Anybody else like to comment on--Ms. McHale.
    Ms. McHale. I think I mentioned in my remarks that Cable in 
the Classroom launched something called the Professional 
Development Institute, specifically targeted to training 
teachers--clearly, it is not enough just to put the technology 
in the classrooms--and at all levels, the base skill of using 
the technology, and then also more sophisticated use is where 
you will really begin to see improvement in the classrooms when 
we have done that. And we have taken a variety of approaches, 
some of which we have actual locations here in Washington and 
the surrounding area, where we bring teachers in. In other 
cases, we have mobile labs where we can actually take them out 
to the school. And then we have a variety of online services 
where--and Discovery has one called Shop Talk, where we get 
teachers online so they can begin to speak to each other how to 
do it. So, we are trying to take it as a sort of multi-level 
approach, but I think we would all agree that this is one of 
the most critical issues, to get the teachers trained.
    Mr. Upton. Ms. House.
    Ms. House. We have a product that we call Connected 
University that offers online courses to teachers, both 
synchronously and asynchronously. Right now, we have over 
150,000 teachers across the country participating in it, but 
what it allows teachers to do is learn how to use the Internet 
and integrate it into their curriculum and their assessment 
programs, linking with State and local standards. And we work 
with each of the States to customize courses so that it does 
meet the needs of the individual school districts as well as 
the States.
    Mr. Upton. Dr. Domenech.
    Mr. Krisbergh. I will just mention that the WISH program 
was really at a more fundamental level, right at the elementary 
school when the first access to the Internet is presented, and 
the training is not only directly with the teacher and school, 
but also obviously with the student and, more importantly, 
actually, in a strange way, with the parents. So there is a 
whole interface between the teacher, the administration, and 
the school in using the Internet in a very basic way of using 
the Internet, and that is where the curricula is designed 
specifically in how to use the Internet, not so much in the 
content which it sounds like a lot of other players here are 
focused on--not to diminish it--it is just that the WISH 
program is really aimed at that most fundamental level of using 
and accessing the technology.
    Mr. Upton. Dr. Domenech.
    Mr. Domenech. Let me quickly say that besides all of these 
wonderful programs that are there to support, what we have 
found from our principals and teachers at the building level to 
be a great investment and very much in demand, that we have 
begun to do in our school system is to place a full-time 
technology specialist in every school, to be available on a 
day-to-day basis to work with the teachers and really help us 
collect on the investment we have made in technology.
    Mr. Upton. And that is exactly the same person we are 
trying to get in the Michigan program, which I know is going to 
happen.
    Mr. Spencer. I will take care of that as soon as I get 
back.
    Mr. Upton. Dr. Koster.
    Ms. Koster. I would just like to add a comment about the 
powerful role of the science center network in the United 
States to help with teacher professional development. The 
collective annual attendance onsite of science centers in this 
country is now 120 million at some 350 science centers, which 
is more people per year than attend professional sports live. 
And most of that audience, or a large percentage of that 
audience, is teachers bringing students on field trips. The 
videoconferencing that I talked about from Liberty Science 
Center is used to train teachers without them having to move 
from their school locations. They gather at videoconferencing 
sites and we help the teachers to be more effective and 
confident in handling science concepts through the 
demonstrations we can provide from the science center.
    Mr. Upton. I appreciate all of your answers, and I notice 
my red light is on, so I yield to my colleague, Mr. Markey.
    Mr. Markey. Thank you, Mr. Chairman, very much.
    Sister, back in the last half of the 19th Century, waves of 
Catholics started to hit this country, especially in New 
England. There was a reaction, obviously. As we all know, one 
of the three ``Ks'' of the ``KKK'' is Catholic. And James G. 
Blaine, in Maine, was successful in passing a constitutional 
amendment to his State's constitution which prohibited money 
being used in Catholic schools, although they used a broader 
term. It spread to many other places in our country.
    Could you explain how the structure of this FCC E-rate 
program helps schools like yours to take advantage of this 
opportunity so that all children in the country can benefit?
    Sister McDonald. Yes. I think it is currently 38 States 
have what we refer to as the ``Blaine Amendment'', which has 
specific prohibitions against direct aid to, in some cases it 
is all private schools, in others it is religiously affiliated 
schools.
    Some of that is in the interpretation at the State level, 
what that really means, the State Attorney General, so that in 
some States where there are Blaine Amendments, people still can 
access certain programs that they can't in others.
    The key part with the E-rate is that it is not in the 
Department of Education, it is not on the budget in the same 
way that some of the other ESEA programs are. So, when we are 
looking at this, it is not really Federal tax dollars, it is a 
fee that the providers, telecommunications industry, is 
assessed in exchange for various other pieces of the whole 
telecommunications agenda.
    But the money then is really not paid directly to the 
school, the school applies to USAC for the services, and it is 
funded. It is a third-party payer, really, in the way in which, 
in some cases, you have to do with some Federal programs.
    Mr. Markey. Could you explain how that also benefits 
libraries in terms of their applications?
    Sister McDonald. Yes. The library community has been 
missing from this, and the library community has been quite a 
player because the libraries don't really fall under the 
Department of Education.
    The benefit is that a lot of the rules that would apply for 
funding purposes for schools that go through certain channels 
are not applicable in this case because it is a one-on-one, and 
I think that is important. The library community, as well, 
whether the individual library applies or they apply as a 
consortia, they are dealt with in terms of what they need, what 
they can afford to match, and so on. And what is important not 
only in terms of religious schools, but a lot of the private 
school community have philosophical differences that keep them 
from applying for Federal programs in terms of the strings-
attached mentality and so on. That has not been a problem. As I 
said earlier, we are large purveyors of ESEA programs.
    Mr. Markey. One final question, Sister. I think one of the 
key aspects of the E-rate program is that each one of the 
applicants has to have a technology plan they have to explain. 
In other words, having computers in the back of a classroom, 
which in many ways existed for the preceding 10 years before 
the E-rate passed, really doesn't do any good for the kids.
    So, explain how the requirement that a technology plan has 
to be in place helps ensure that teachers and parents are 
involved in the overall implementation of a technology plan 
which benefits the kids.
    Sister McDonald. In our case, most of our schools did not 
have a comprehensive technology plan. I mean, there was a 
budget line item perhaps to buy some computers. But what this 
program did was to heighten awareness that it is part of 
learning, not just a toy. And when people began to develop 
technology plans, it had to be approved, and that is the key 
part. It is not just a technology plan, these are approved 
technology plans that illustrate how one will use this 
effectively in an educational setting.
    In most of our schools, committees were formed using 
parents. Parents are the primary benefactors, if you will, in 
terms of supplying the additional funding for this, and so on. 
But what we got to focus on was how this works home school as 
well as within the school, and how parents can channel their 
children from playing with the computer to learning on the 
computer. And the plan, the technology plans, really helped to 
move this to the forefront of where we are going with 
technology, and teach children to use it discriminatingly. I 
think that is a key part, and we try that in the professional 
development as well.
    Mr. Markey. Thank you, Sister, and thank all of you for 
everything you are doing to make this plan the great success 
that it has become. Thank you.
    Mr. Upton. Thank you. Mr. Davis.
    Mr. Davis. Thank you. Let me start with Dr. Domenech. As a 
former President of the American Association of School 
Administrators, can you comment on the application process for 
the E-rate? Are there any administrative burdens that are faced 
by school systems which might not be as large and 
administratively sophisticated as Fairfax?
    Mr. Domenech. Well, I have to say that initially there 
certainly were some problems in getting the program underway, 
but I would say that at this point we are certainly seeing the 
program work very effectively and efficiently. We are happy 
with the way it is operating, and certainly very much endorse 
its continuation. I can't see that there are any major 
bureaucratic glitches that we would recommend at this point.
    Mr. Davis. Does anyone else have a comment on that?
    [No response.]
    Doctor, let me just ask you again, just for our school 
system in Fairfax, when you take a look at the school's current 
technology in education abilities, would you estimate that 
these programs are enabled by program funding--Federal, State, 
local and private--what is the rough component of that, and how 
do you reach out to some of these areas? It is tough to partner 
in some areas of our county, and in parts of the country it is 
harder to find business partners. We have been fortunate in 
Fairfax to have them available, and you have been great at 
getting them involved. What suggestions do you have for areas 
that may not have the same level of partnership abilities with 
business?
    Mr. Domenech. Well, even in our county, as you know, there 
are areas such as the Mt. Vernon-Route 1 area, where we have 
difficulty in getting business partners because they are not 
necessarily near the Tysons Corner area where most of our 
business partners tend to come from.
    What I think we have done, and other school systems in a 
similar situation need to do, is to really reach out to 
establish business partnerships that extend beyond jus the 
school district. For example, we have extensive partnerships 
with organizations like Oracle and Microsoft, which is not 
necessarily in our area, but they have been very helpful in 
helping us establish these partnerships.
    They are a wonderful supplement to the limited funding that 
we have. Certainly, the bulk of the funding for technology in 
our area comes from the local county level efforts. We get 
hardly anything from the State and, other than the E-rate, very 
little at the Federal level.
    Mr. Davis. Thank you. Let me ask Ms. McHale, have you seen 
any correlation between schools that are receiving the cable 
industry services and equipment in any increase that they have 
had in terms of--I don't know how you measure it--test scores 
or ability to move on or proficiency?
    Ms. McHale. I don't think we've specifically tracked that, 
but I think there is a lot of research which I have also seen 
in my role on the State Board in Maryland where you can see a 
direct correlation where you have got teachers who are trained 
and understand the technology and they can utilize these 
programs in the classrooms, that you get kids much more engaged 
in what they are doing, and then you begin to see higher levels 
of performance. I don't believe we, as an industry, have 
actually tracked it.
    Mr. Davis. Measured it, but anecdotally you have seen it.
    Ms. McHale. Exactly. And I can certainly speak to it from 
the Maryland context where we have definitely seen an impact 
where you have a sort of integration of technology and use of 
it in the classroom where you can really begin to see 
significant results. And, again, focusing on higher level 
skills and using technology as well, you can really begin to 
make significant inroads.
    Mr. Davis. Thank you. Let me just ask Mr. Krisbergh one 
last question. Do you have any idea what it would cost to 
provide WISH TV on a national basis?
    Mr. Krisbergh. The bottom line is that the cost for the 
equipment is literally a dollar month for putting that 
equipment in the home, and the service itself is less than a 
dollar a month with all the services around, so we are really 
talking less than $2.00 for the cable operator to be able to 
supply full Internet access capability with e-mail. So, 
multiply that out.
    Mr. Davis. Thank you very much.
    Mr. Upton. Thank you, Mr. Davis. Mr. Sawyer.
    Mr. Sawyer. Thank you very much, Mr. Chairman. Before I 
forget about it, I want to thank Dr. House for her kind words 
about the technology grant program. Clearly, it doesn't meet 
the needs of an entire nation in all of its complexity, but it 
has made it possible for us to drive dollars to places where 
not only can it do good, but we can learn from the good that it 
is doing. And it is precisely that that I want to ask about.
    We have heard a great deal of discussion today about the 
availability of technology, and that is important, there is no 
question of it. We have heard a great deal about content 
development in all of its exciting diversity, and what that 
means in terms of excitement in classrooms.
    I am particularly, though, interested in how we are using 
technology in learning about learning, in the new ways in which 
the technology is applicable in classrooms, and how best to 
take advantage of it.
    I suspect we are learning those lessons all across the 
United States day in and day out, but it is the organized 
research that I am particularly interested in. Let me just give 
you one example.
    In my district, Kent State University, through a 
combination of these grants and State grants and private sector 
partnerships, have put together a Research Center for 
Educational Technology. For their purposes, they have posed the 
following three questions as central areas of focus. The first 
is, under what conditions can technology be used by students 
for problem-solving, inquiry, critical thinking, and what are 
the effects of such use on student learning overall?
    The second is, under what conditions do teachers learn, 
particularly pre-service teachers learn, to make decisions 
about effective uses of technology for higher-order thinking.
    And, third, what alternative assessments, a topic that we 
heard touched on earlier, alternative assessments can be used 
to measure student learning when technology is used for higher-
order thinking?
    Can you talk to me a little bit about how we are learning 
about learning, and how we are spreading that more deeply into 
real-world classroom situations?
    Ms. House. You mentioned our PT3 grants, and we are having 
great success with those. As you know, each grant, there is a 
fundamental element for research that is part of that, and that 
all of those models be disseminated across the United States so 
that that research is available and can be infused in the 
schools. And, remember, a K-12 school district has to be a part 
of that in each of the grants. So, that is one way.
    Another is, as a company, it is absolutely important for us 
to have research going on to make sure that we are making the 
right kinds of products. We are in a public-private partnership 
with the Stamford Research Institute, who is monitoring how 
effectively teaching and learning is taking place, so that we 
can do that both with our curriculum products as well as our 
staff development products.
    Mr. Sawyer. Other comments?
    Mr. Spencer. I think it is a great question. I am thrilled 
you brought it up. It is one of the reasons I took this job and 
left a traditional college presidency to go out on the bleeding 
edge, in a sense, instructional technology.
    We are losing between 30 and 50 percent of our distance 
learners through attrition. One of the major problems we have 
is we are not preparing these distance learners to become 
successful distance learners.
    We are preparing right now at the Michigan Virtual 
University a distance learners orientation tool program to help 
adult learners, high school learners, college and university 
learners, get better prepared for a higher probability of 
success for an online teaching and learning experience. And one 
of the components in that program, Congressman, is critical 
thinking, being able to differentiate between ``if I see it, it 
must be true''. That's critical, that we help them become 
differential learners.
    Second, I think what you are going to see out there is a 
greater movement by accreditation, regional accreditation 
agencies, to get into the quality issues on a much higher 
level. The Lexington Group, of all the virtual university 
leaders throughout the country, has recently met with 
accrediting agencies to get into the quality issue.
    And the third thing I would respond to is, I think what you 
are going to see is a greater emphasis on pre-test and post-
test so that the learner has a critical learning path which is 
better tailor-made for their needs once they are going through 
it. Those would be the three things that I think are pretty 
critical, in response to your question.
    Mr. Sawyer. Thank you both for your response.
    Mr. Upton. Mr. Shimkus.
    Mr. Shimkus. Thank you. It is a good panel and I appreciate 
your answers. It shows you some of the schizophrenia that we 
deal with, though, here in Washington, where we appreciate the 
use of the Internet to get to private and parochial schools, 
but we have problems with faith-based initiatives or education 
scholarships or other issues because we are involved, but then 
we don't like to say we are involved, and then we like to have 
third-party entities to administer the funds, and it is just 
part of the joy we have here in Washington in trying to sort 
this all through.
    Two quick questions. I am going to throw this out to 
anybody who wants to answer. One is, having been a former 
classroom teacher for 4 years, my question is, are textbooks 
merging e-learning principles with CD Roms or server 
opportunities for use in classrooms, because I know when I got 
a textbook, we went through where we were going to buy our 
textbook, and they give us little 8mm films, or overheads, as 
Chairman Upton had mentioned.
    And the second question is, what are we doing to protect 
one of my passions this cycle is screening technologies. I am a 
proponent of trying to move smut to a XXX domain field. What 
are you all doing to protect or help us protect our children 
from things, since we are using the Internet and they are going 
to have access to servers and WorldWideWeb, protect them from 
things that are out there that probably children shouldn't have 
access to?
    Ms. Grad. I would actually like to take a crack at that. 
Although we are in the after-school space, certainly the tools 
that we have to use are available. One is teaching children to 
know the differences and actually to have responsible--we call 
it ``Internet Driver's Ed'', we teach them how to surf safely.
    Another thing is that there are very effective controls 
that we can put on the systems in the software and in the 
hardware to filter out the ability for children to go to 
advertising sites or not very appealing sites, and then we try 
to educate the parents and the teachers to be monitoring and to 
be very diligent.
    Mr. Shimkus. And that is the role of having an individual 
there also, as some oversight in training them.
    Ms. Grad. Right. There is no substitution for supervision, 
actually. But while many of our schools do use blocking and 
filtering software, they are all required to have some kind of 
an ethical use policy in which the school, student and the 
parent makes a contract about how this will be used, how it 
will not be used, and what consequences might follow, and then 
the supervision is built around that. And we find that more 
effectively actually than blocking and filtering because if 
kids are sophisticated about it, you can get around blocking 
and filtering, but having a consciousness that it needs to be 
monitored and having individual responsibility for it are 
really primary for us.
    Mr. Shimkus. Anyone else?
    Mr. Domenech. We have also implemented systemwide Internet 
filtering for all our schools, as a very essential component of 
what we do and it is part of our Board policy.
    I also wanted to address your question regarding electronic 
textbooks. That definitely is a direction that we are all 
taking. We have spent some time actually at Palo Alto with the 
Xerox people and some of the work they are doing with 
electronic textbooks, and the ability of teachers in the future 
no longer having to buy an entire textbook, but on-demand to 
get a particular chapter from a book that is relevant to the 
particular lesson that is going to be taught, and having that 
made available to the kids in the class. And many of the major 
publishers now are looking at and moving in that direction, and 
selling textbooks more on a subscription basis than necessarily 
a textbook.
    Mr. Shimkus. With broadband capabilities, can't we see the 
ability to do direct screening for your video presentations or 
other----
    Mr. Domenech. Oh, absolutely, but now you are getting into 
a significant area. You know, I had the opportunity to testify 
a couple of months ago before another one of our congressional 
committees on technology, and I made the reference that many of 
the school systems in America, when we talk about broadband 
technology, we talk about the superhighway, and it is like 
getting off a four-lane superhighway and onto a dirt road when 
you get into the school district. Most school districts don't 
have that broadband capability.
    Mr. Shimkus. Thank you.
    Ms. House. We have, in a public-private partnership with E-
trust, developed a pamphlet for parents and educators on safety 
on the Internet because I think filtering is one part of it, 
but I also think education is key.
    Mr. Shimkus. I agree. I thank you very much for your 
answers, and I yield back, Mr. Chairman.
    Mr. Terry [presiding]. Thank you, Mr. Shimkus.
    Mr. Engel, you are recognized.
    Mr. Engel. Thank you, Mr. Chairman. First of all, I want to 
thank all of you for the good work that you all do. I am 
obviously concerned, along with my colleagues, about the 
digital divide. And I have just gotten this brochure from 
PowerUP, Ms. Grad, and I am happy that you have three places, 
three groups, in my home county of Bronx, New York and one in 
Mt. Vernon, New York, which is also in my district, so we are 
very glad of the good work.
    When I go around to different schools, I find that they 
tell me all the time that part of the problem is the school 
buildings are so old that it is impossible to wire them to get 
the technology into them. They can't be wired. The schools 
don't have adequate funds to put in the computers. The same old 
problem, I guess, in urban areas elsewhere.
    We do have a school in my district, a public school, that 
has formed a collaboration with Manhattan College and Apple to 
provide computers to every student and create a supportive 
learning environment for its students.
    I just wanted to throw out--I know we have votes and it is 
crazy today--but how can the Federal Government--Ms. Grad or 
anybody else who would like to comment--encourage broadband 
companies such as cable and DSL provide to donate their 
services to schools, and schools where the buildings are too 
old to wire, any options for wireless systems, and what are the 
impediments for reusing these computers in schools? These are 
just some of the things I don't know--you may have said it 
before I came in and, if so, I apologize--but these are the 
kinds of problems I get all the time with people coming into my 
office.
    Ms. Grad, do you want to try it, or anybody else?
    Ms. Grad. Sure. Obviously, anything that we can do to make 
an incentive for DSL, any cable companies, any of the TELCOS, 
anything we can do to encourage them to give us broadband 
connectivity is what we want. We only provide broadband 
connectivity. Where we can't get wires into the schools, we do 
use wireless and in certain instances satellite. The wireless 
technology is on its way, and anything we can do to encourage 
its growth--we don't think it is quite there yet to be able to 
do the volume that we are doing in the interactivity that we 
are doing, but we would love the Federal Government to entice, 
encourage, or otherwise induce corporations to give pro bono 
the services, the connectivity that we need.
    And let me add, too, the cable industry actually has an 
initiative, and as it rolls out and as the technology becomes 
available and they are upgrading their systems, they actually 
make available to schools, free of charge, broadband access, 
access to it.
    In terms of dealing with the wiring in the schools, it is 
clearly a challenge and, as I mentioned earlier, on the 
Maryland State Board, one of the areas we oversee is Baltimore 
City where truly this has been a challenge as they have gone 
into some of those older schools, and so they are doing it.
    Part of the problem with wireless is that when you are 
looking for the rich multimedia that you want to get into the 
educational experience, wireless is simply not an appropriate 
remedy at this point in time.
    Ms. Moore. Congressman Engel, I just would say that 
wireless technologies are eligible for E-rate discount, so that 
is an option for schools who want to go in that direction. That 
is one of our eligible services.
    Mr. Spencer. One other thing I might add, Congressman, is 
that Internet2 is a nationally based research project to start 
dealing--not start, they have been dealing with the broadband 
issue, and connectivity, and the digital divide, and how all 
that pulls together. The same leadership team, in a sense, that 
came up with Internet1 is working in Ann Arbor, Michigan. That 
is where it is headquartered. And I think it would be a 
possible potential future discussion with Dr. Doug Van Howling 
at the Internet2 project. The committee might benefit from 
getting a real focused perspective on that. So, I just offer 
that as a future opportunity.
    Mr. Engel. Thank you. Thank you, Mr. Chairman.
    Mr. Terry. Thank you. We are going to go a little bit out 
of order and, Ms. Eshoo, you are recognized.
    Ms. Eshoo. Thank you, Mr. Chairman, I appreciate it. And I 
want to thank all the panelists, first of all, for the work 
that you do. This is a good-news panel, I have to tell you. I 
wish the entire Congress was in this room to hear you because 
we don't often hear the kinds of things that you have brought 
forward today. So you have provided a very, very important 
snapshot, a picture, of what is going on with several different 
elements. So, I want to thank you, and I want you to know that 
it is a source of pride to me to have helped set up and had my 
hand in the Telecommunications Act. I think that we got it 
right with what we set up, and that is why I wish there were 
more members here today to hear how the E-rate actually does 
work.
    Of course, your panel is broader than the E-rate, but the 
statistics about it are really quite startling. In 1994, before 
we had the E-rate, 3 percent of classrooms in our nation were 
wired, while in the year 2000 72 percent were. So, we have made 
progress.
    Sister, it is wonderful to have a Sister on the panel, I 
have to tell you. PBVMs did not teach me, but you are 
representing all of my teachers, too. I cannot imagine what 
they would have done with us if we had had these technologies 
in the school when I was growing up.
    You know politically that the E-rate has been tossed about. 
I hope the dust is settling on that. During the Presidential 
election and leading up to it, it was called the ``Gore tax'', 
and these things become political footballs. But now the dust 
is settling. I hope that the new Administration will leave this 
alone, and the Commerce Department. We have heard some very, 
very insightful things that you have brought forward out of the 
panel.
    Is there anything that you can tell us today--because I 
think that those that may not be so inclined to support the E-
rate want to hear how it might be able to be improved--have any 
of you had experiences that you can tell us that we need to 
build on--you know, the not-so-positive side of it? I mean, we 
can build on things and make them better, and that is what I 
want to do, and I think that a good part of the jury is in that 
we have done a good thing, but we can do better.
    Do any of you want to add to that, or tell us what we can 
do better? You know, the criticism is in this bureaucracy, the 
bureaucracy is out of control. Is it? Should it be shrunk? Is 
there something specific we should be doing?
    Mr. Domenech. Well, I indicated earlier to a similar 
question from Congressman Davis, that we think the E-rate is 
working, and if there is anything you can do to improve it, it 
is to increase the amount of money that we get.
    Ms. Eshoo. I am glad you said it and not me, but it is more 
important that you say it. Anyone else? I know that we have got 
a huge tax bill on the floor today.
    Sister McDonald. I concur with that. I think keeping it, at 
least never going below the funding cap, the $2.5. And you 
heard in earlier testimony, the demand far exceeds what the cap 
even allows. And what happens is that the higher ends wind up 
with the portional share in terms of wiring, and for many of 
the schools below an 80-percent discount level, they were not 
able to be funded for wiring. So that precludes people from 
moving ahead. So the funding is what is really driving that.
    Mr. Krisbergh. I might add that the whole focus on the 
schools is excellent, but I also think, as was brought up here, 
that bringing the home and the school-home connection into the 
equation is important, and maybe opening up the funding to 
include not just the school, but the home----
    Ms. Eshoo. That may be the next step of it because we can't 
leave, as the President says, ``any child behind, any school 
behind'', but--it is the equivalent of pencil, you wouldn't 
send a child home without a pencil--I mean, we have them at 
home. So that is the other bookend in this, but we have to 
complete, I think, this round.
    It is wonderful to see you here from Brisbane. I don't 
represent it, but it is in San Mateo County, that I love, and 
have represented for 10 years. Thank you for your outstanding 
work. And to the cable people, thank you for what you are 
doing. You just added to something where someone didn't even 
know that you offer what you do. So, rather than political 
beating-up on the floor, this hearing, Mr. Chairman, is 
constructive, and I thank you all. I think you are heroes and 
heroines in America for what you are doing.
    Mr. Upton. I just want to change one little word maybe for 
the record. It is not a ``big'' tax cut, it is a ``little'' 
one. Mr. Green.
    Mr. Green. Thank you, Mr. Chairman, and I don't know if we 
will have time because we all have to go vote. I have two 
questions I will merge into one.
    During the 3 years of the program, the funding level has 
been capped at $2.25 billion, and I know the funding requests 
are double that. What can we do to provide more funding?
    Also, in the concern that Mr. Shimkus has, and I share, is 
private and parochial schools seems to be lagging in E-rate 
funding behind public schools, can you account for the 
differing trends. And if you all could submit that to the 
record so we can have it because, in my own district in 
Houston, both my parochial schools--although we got a local 
Bell provider to wire one of our local schools so they could do 
that. But I appreciate it, Mr. Chairman, I know we all have to 
go vote.
    Mr. Upton. Thank you, and I am not sure that we are going 
to have members--this vote is on, and we have about, I am told, 
a few minutes, and then a big series of votes will start.
    I do have a couple more questions, and I will yield if 
members run back and forth, as I did.
    Ms. Moore, I have a question. I know that the FCC really 
does run the E-rate program. As I have visited my schools and 
libraries, I have been most impressed with the work that they 
have done, particularly in my district, for a large part, is 
indeed a microcosm of the country in terms of rural and urban, 
rich and poor, a very good blend of minorities, terrific 
learning institutions like Western and a number of community 
colleges as well, that Dr. Spencer related to, and we have got 
some terrific school districts and we have got some that need a 
little help in lots of different ways.
    Chairman Powell is going to come testify before our 
subcommittee the end of the month, and I know the E-rate will--
a number of members will be quizzing him in terms of his 
thoughts about where that program should go. And I don't know 
whether he formally will reach out to folks like you for input, 
as they look at some changes, but I am going to raise a 
situation in a hypothetical sense, though I know in fact that 
it is true.
    If you have got a school district that perhaps has a 
relatively high poverty level among the families whose kids go 
to that school, and therefore has a very high breakfast and 
lunch program, and yet the property taxes for that particular 
area are pretty decent. Maybe they have a large business that 
is there and people commute back and forth. They might have a 
particular industry that generates quite a bit of property 
taxes but, in fact--and it may be a very small community as 
well--it may be able to tap substantial dollars for their 
program which, let's face it, certainly was--in the context of 
a couple of years ago, every school needed that technology.
    Is it not true that maybe--and they are at the very top in 
terms of the priority level that they receive funding--is it 
not true that if that school district decided, ``Well, we did 
pretty well. It has been 2 years now since we got this large 
chunk of funding and we have put it to good use, but let's 
rewire, or maybe go to wireless, so let's go to the next 
step''. And then you have got another school district perhaps 
in that same county--it doesn't matter really--and they may 
have tons more students, but their breakfast rate is 
substantially less. They are able to maybe qualify for just a 
little bit, and because this other school district, time and 
time again--year 4 now, but let's say year 8--maybe they can 
revamp a second, third or fourth time.
    Should that be the case? Should there be some priority 
maybe for the schools that were at the end of the line at the 
beginning, the teams, the schools ahead of them get funding? 
Should there be a way for these other school districts that 
can't participate to the same degree because of the base, yet 
they have got maybe eight facilities, can't pass a bond measure 
for a variety of different reasons. Should there be some bonus 
later on, or at least some take-away points for a school that 
perhaps could--I don't want to use the word ``rig'' the 
system--be able to get something like that?
    Ms. Moore. Let me say, Mr. Chairman, that we are engaging 
in a dialog with FCC with respect to the priory system that it 
does set and that we must follow. And, indeed, with the 
emphasis on serving the neediest schools and, therefore, as you 
suggest, the 90-percent discount level, those who are so poor, 
in effect, that all they need to do is provide 10 percent of 
the cost of the actual services, do have the opportunity to 
enhance and build over the years, while those at the, say, 60-
70 percent, who still have a significant portion of their 
students in the school lunch program, may never be able to tap 
those internal connection support because of the priority 
system and the way it is structured.
    So we have begun a dialog with the FCC. Now that we are in 
the fourth year of the program, we can see the reality of this 
dilemma very vividly in the demand estimate that we do have, 
and so should the FCC make a decision to alter the priorities, 
we would certainly implement that according to their 
regulation.
    Mr. Upton. This was my second round. When I started my 
question, members hadn't come back, but I yield for her opening 
here for questions, the gentlelady from New Mexico, Ms. Wilson.
    Ms. Wilson. Thank you, Mr. Chairman, I appreciate that. I 
have several questions, and I will be brief because I think 
they are going to be----
    Mr. Upton. I think we have 10 minutes before they start.
    Ms. Wilson. Okay. On WISH TV, I understand that LSU is 
doing some kind of study on the efficacy of WISH TV, and I 
wonder when you anticipate that being released?
    Mr. Krisbergh. It is an ongoing process, we hope to have it 
done in the next 4 or 5 months.
    Ms. Wilson. With respect to that, and maybe for some of the 
other members of the panel here, I was very interested in Mr. 
Sawyer's questions about what we are learning about learning, 
and how technology is impacting achievement which, as we all 
know, is the ultimate goal here.
    What kind of--not anecdotal--but what kinds of systematic 
evaluation and results can we see when technology is used in 
the classroom? With all those professional development and 
support mechanisms and so on in place, how does it affect 
achievement?
    Ms. McHale. I will take a stab at it--and, again, from my 
role in the Maryland State Board of Education where we are 
actually tracking it. If you would like, I can get you a copy 
of the report where they are doing it in conjunction with the 
assessments and testing program that they have implemented, and 
I can get you a specific report where they are tracking it. The 
Maryland Business Round Table has been trying to track the 
impact of that, and I will be happy to get you a copy of that 
report.
    But there is evidence to demonstrate that where all the 
things come together, where you have got the use of technology 
aligned to the curriculum, and the teachers trained in it, that 
it does have a positive impact and is able to sort of really 
drive the standards faster. But I can certainly get you a copy 
of that report.
    Ms. Wilson. I would very much like to see that.
    Mr. Domenech. Let me also add, if I may, that when you 
mention achievement, the question here is, are you talking 
about scores on a standardized paper-and-pencil, multiple-
choice test, or are you talking about higher-order thinking? 
And probably the issue is it refers to standardized tests, is 
questionable as to whether technology truly affects increases 
in test scores. But there is no question but that when you are 
dealing with higher-order thinking skills, that technology is 
having a big impact. To the extent that it is being used in 
research, it is being used in the development of writing 
skills. For example, in our school system, we are now offering 
online, at the high school level, a Web-based course on 
creative writing where students from all 24 of our high schools 
are able to participate in a way that truly enhances the way 
creative writing was taught in a traditional classroom.
    So, the issue of achievement, it is having a significant 
impact on achievement, but I don't think we have the evidence 
to say the same thing about whether scores are increasing on 
standardized tests.
    Ms. Wilson. Standardized tests are one thing that is 
important, but achievement is really more how you define it 
rather than--I am not thinking inside a box here. But I do 
know--and maybe this leads to my follow-on question here, which 
is--and I was very interested to hear about your program with 
some of our science centers, our science museums, in a way, 
hands-on museums and things--because it is that higher-order 
thinking and solving of problems that is one of the advantages 
of technology, whether it is Freddy Fish or Sim Park, and the 
ability to make decisions and see the consequences of those 
decisions, as opposed to drill-and-kill things that just happen 
to be on a CD Rom instead of on a piece of paper. But there is 
also something about the way children learn and the way adults 
learn and the way the Internet isn't oriented frankly toward 
adults rather than children, that is something I think we need 
to get over.
    I mean, we sit here and we learn from each other in this 
way. My children--prepare for boarding--they are going to be 
arriving here at 4 o'clock this afternoon--would find this 
completely meaningless because they learn in a different way. 
And playing with magnets and feeling static electricity raise 
the hair on your head and wondering what is it that makes this 
water pour if I tip it just a little more, is a child-like 
thing and something that is much more difficult to do on a 
computer, even though we have gone beyond reading to seeing and 
now to hearing on the computer, and even the interaction and 
the feedback, but there is still more to be able to make 
technology help a child learn. And so I would encourage you in 
your efforts.
    I thank you for all the wonderful work that you have done, 
thank you for Animal Planet and some other things, to help 
bring the world to children who often are very, very far from a 
science museum on the East Coast, but still would like to hear 
what a dinosaur that looks like Snuffalopogus really might have 
sounded like because a scientist modeled it somewhere.
    So thank you all very much for your work.
    Mr. Upton. I thank the gentlelady, and my sense is that 
members are staying on the House floor, and we have this series 
of votes that are going to start. I just want to say, to sum 
things up, I appreciate all of your testimony, your hard work 
in getting things done. And I know the folks that you answer to 
will be most proud of your presentation today, as they probably 
helped write it, but it really was a compliment to you and your 
organization as you help us along this road. Again, we are all 
on the same side here. Even though these are Republicans over 
here, and these are Democrats over there, we are all on the 
same side, we want the best for our kids and for the future 
workers of this country, and it is great to see so many 
different activities, whether it be after-school activities or 
those who need it at home. I am sorry, I can rail on my friend 
and colleague from the UP that he wasn't here, Bart Stupak, he 
would have liked our analogy, but for him, he does have a very 
rural district, stretching out. I think it is the second 
largest district east of the Mississippi. And for him, whether 
it be classroom technology or health care needs, all those 
different things, his district will reap tremendous benefits 
based on what happens in this subcommittee and committee and 
the Congress in the next couple of years. I know his interest 
is well-grounded in this issue as well.
    Again, we appreciate your thoughts and comments. In 
addition to the members that put their statements into the 
record, those members that are at other subcommittees may have 
additional questions. I know for a fact that some do, and we 
will get those to you in writing, if you could respond at an 
early point in your process so that we can complete the record 
on this, but we thank you for what you do, and we wish you well 
in the days ahead, and we look forward, certainly, as a 
Congress, to making your job a lot easier and complement your 
efforts to-date. Thank you. This hearing is adjourned.
    [Whereupon, at 12:55 p.m., the subcommittee was adjourned.]
    [Additional material submitted for the record follows:]

           PREPARED STATEMENT OF ADVANCED TELCOM GROUP, INC.

    Advanced TelCom Group, Inc. (ATG) is a facilities-based competitive 
local exchange carrier that provides voice and data services to medium 
and small business in smaller towns and communities. ATG currently 
operates in Washington, Oregon, California, Nevada, Connecticut, New 
York, Maryland and Virginia.
    Since its inception, ATG has recognized its obligation as a 
Corporate citizen, to support education for underprivileged youth in 
the communities it serves. ATG works closely with schools, government, 
and private organizations to bring its resources and communications 
expertise to these organizations to create, support, and promote 
programs that educate, and otherwise assist our youth, especially those 
at risk.In every community where ATG provides telecommunications 
products and services, it actively participates in the communities--and 
its employees serve on Boards of various local associations and groups, 
mentoring and volunteering their free time.
    On a national level, ATG is a partner of PowerUp--an organization 
that brings computer knowledge to underprivileged youths through 
computer learning centers and curriculum under the leadership of 
Secretary of State Colin Powell's Digital Divide organization, and of 
the Case Foundation. ATG provides and donates the high speed Internet 
access for PowerUp centers located in Oregon, Washington, and 
Connecticut. ATG has been being instrumental in linking PowerUp with 
other organizations and municipalities with similar goals in youth 
education, such as the Institute of Student Achievement in Westchester 
County, New York, and with the cities of San Rafael, California and 
Tacoma, Washington.
    In Northern Virginia, ATG has joined with Fairfax County and the 
Case Foundation in their Computer Learning Center Youth Education 
Partnership to help fulfill their plan to create 20 learning centers in 
Fairfax County.
    In Santa Rosa, California, ATG has collaborated with two corporate 
partners to raise over $200,000 in funds and in-kind donations for 
Sonoma State University to receive a grant from the federally funded 
GearUp program to promote education at the Cook Elementary School and 
Elsie Allen High School--both schools located in economically 
disadvantaged communities.
    ATG is also the sole sponsor of education programs such as 
``telecommunications career pathways,'' computer technology intern and 
mentoring programs, and the adoption of a high school classroom by 
providing computer equipment, software, and high-speed connectivity.
    In Westchester County, New York, ATG supports a program to provide 
computer learning to thousands of underprivileged youths under the 
leadership of County Executive Art Spano.
    ATG supports, with sponsorships, many organization serving at-risk 
youths and their families, such as the Domas Foundation in Stamford, 
Connecticut, the Sagewind Group in Reno, Nevada, and Family Building 
Blocks in Salem, Oregon.
    These efforts, and others like them, are only a part of ATG's 
commitment to be involved in our communities and to assist these 
organizations with financial support, services, and expertise in 
marketing and fund raising activities.
    ATG's goal is to contribute to today's youth and give back to the 
communities we serve.
                                 ______
                                 
   PREPARED STATEMENT OF DAVID C. RUBERG, CHAIRMAN, PRESIDENT & CEO, 
                     INTERMEDIA COMMUNICATIONS INC.

    Mr. Chairman, members of the Committee, my name is David C. Ruberg. 
I am Chairman, President & CEO for Intermedia Communications Inc., a 
competitive local exchange carrier (CLEC) headquartered in Tampa, 
Florida, and operating primarily in the Eastern part of the United 
States. On behalf of Intermedia, I respectfully submit this written 
testimony for inclusion in the record of this proceeding.
    Intermedia Communications (Nasdaq:ICIX) offers broadband data, 
high-speed Internet access, and advanced network and voice services to 
business and government customers in major markets. It is among the 
largest independent CLECs in the country, the nation's fourth largest 
frame-relay provider, a leading systems integration provider, and the 
nation's largest provider of multi-tenant services. Intermedia is also 
a majority owner of Digex, a leading provider of managed Web and 
application hosting services for some of the world's most significant 
companies that rely on the Internet as a critical business tool.
    Intermedia is also a member of the Association for Local 
Telecommunications Services, known as ALTS. ALTS is the national trade 
association representing facilities-based competitors for local 
telecommunications services. ALTS represents approximately 100 CLECs, 
most of whom began providing competitive telecommunications services 
after the passage of the 1996 Telecommunications Act.
    Mr. Chairman, you have held this hearing to address the issue of 
technology and education, and how various government and private sector 
programs have been successful in integrating technology into school 
curricula and classrooms throughout America. Access to technology in 
schools has always been a top philanthropic priority for Intermedia. 
Our company's basic philosophy is centered on the premise that in order 
for our company to grow and prosper, we must have an educated workforce 
from which to draw employees. Also as our company prospers, it is our 
responsibility to share that prosperity in local communities we serve 
and within local communities where we may not have a presence, but have 
resources and relationships to share.
    In 1996, Intermedia chose to lead Florida's efforts to bring 
technology to every child through a national project called ``NetDay'' 
(www.netday.org). NetDay is a 501(c)(3) non-profit corporation whose 
mission is to seamlessly integrate technology into education and 
learning, both inside and outside the classroom. To achieve this goal, 
NetDay's mission is guided by six objectives aimed at increasing the 
penetration of technology in America's schools:

<bullet> Schools need the appropriate wiring infrastructure to access 
        the Internet;
<bullet> Classrooms need access to connections with rich educational 
        digital content;
<bullet> Teachers need the ability to integrate technology and 
        instruction;
<bullet> Students need the opportunities to take advantage of 
        technology;
<bullet> Businesses need to have a workforce that is technology 
        literate; and
<bullet> Communities need the benefits of a technology-rich education 
        for all.
    In Florida, Intermedia had an even larger vision. Our goal was to 
create a comprehensive high-technology learning environment for all 
Floridians--whatever the platform, whatever the needs and wherever the 
facility. The plans included fiber and wireless solutions, computers, 
software, teacher training, and mentoring programs for students. 
Intermedia did not limit NetDay in Florida to just K-12 students in 
public schools, but it opened the program to include after-school 
programs, community learning centers, adult programs, distance-learning 
programs and private schools.
    For Intermedia, NetDay is about connecting Americans of all ages to 
their futures. That is why we believe community technology centers are 
so important. These centers provide computers and access to the 
Internet access to grandparents and children alike. They enable people 
from all walks of life to be active participants in technology.
    A center may be as elaborate as the Hillsborough Education 
Technology Center in Tampa, Florida offering state of the art 
facilities, libraries, teacher training facilities, a small business 
incubator and community out reach programs; or it could be a single 
room in a city-owned building like the one in Gadsden County. 
Regardless of size or stature, Intermedia believes that we must all do 
our part to enable even our neediest areas with the means to secure 
access to technology.
    Intermedia committed to lead Florida's efforts for NetDay on July 
22, 1996. Within three months, more than $9 million was raised and more 
than 1,500 schools were wired utilizing more than 20,000 volunteers. In 
1997, our estimates showed that 60% of jobs in Florida would require 
computer literacy by the year 2000, yet it was estimated that only 20% 
of our students would be computer literate. So we adjusted the 
program's mission to put an emphasis on students' computer skills. To 
ensure that the program would be efficiently managed, Intermedia loaned 
out senior executives to coordinate the statewide effort. Over the last 
5 years, we have continued a high level of dedication to the program 
that we initiated in 1996. Both NetDay96-Florida and NetDay2000-Florida 
have been recognized as two of the most successful efforts in the 
country.
    Intermedia's ongoing support for NetDay activities reaches beyond 
our service areas. We have helped with more than 2,500 NetDay events 
around the country. Most recently, this February Intermedia donated as 
part of NetDay, 250 computers to the Boys and Girls Clubs, Big 
Brothers-Big Sisters organization, and the ``Take Stock in Children'' 
mentoring initiative in the Pinellas County Schools. Each computer was 
a Pentium or higher, with Microsoft ME OS and Internet content software 
and we're distributed by Intermedia employees and technicians.
    One of the unanticipated ``ripple effects'' of NetDay in Florida 
has been an on-going network of volunteers. These volunteers may have 
initially come for a ``day of wiring'', but found they could continue 
to contribute throughout the year in many more ways, including 
mentoring students and teachers in computer skills, sharing life 
experiences and relating valuable work-place skills. This resource has 
helped NetDay far exceed its initial goals.
    By partnering together for NetDay, private industry, communities, 
educational institutions and government has been able to coordinate, 
educate and deliver preset goals in an expedited and timely manner. 
Mobilizing the shared and unique resources of all the required sectors 
has greatly contributed to the singular success of NetDay in Florida. 
It is Intermedia's belief that the involvement of private industry was 
a leading catalyst to the success of the program in Florida. I have 
attached to this testimony letters of support and endorsement from 
State and county leaders throughout Florida whose communities were 
positively affected by NetDay activities since 1996. They are a 
testimony of what businesses and government can do working together to 
bring technology to everyone in America.
    I thank the Committee for the opportunity to submit this written 
testimony.
                                 ______
                                 
                     PREPARED STATEMENT OF WINSTAR

    We would like to thank the Subcommittee for the opportunity to 
submit for the record, information on Winstar's efforts in education.

                         WINSTAR FOR EDUCATION

    Winstar is committed to using its telecommunications technology for 
educationally and socially profound interactive projects such as the 
Training Cafe, The Virtual Wall and Teach Vietnam that are available 
free of charge for people around the world.
    Winstar also uses its broadband fixed telecommunications to create 
virtual communities in both Washington D.C. and New York City to 
fulfill our mission of bringing people together in extraordinary 
interactive ways using our broadband infrastructure.
PROGRAMS
    Winstar continues to be committed to education and communities, and 
is continuously seeking ways to harness our technology to assist 
communities in learning and sharing knowledge and experiences. Winstar 
programs include:

LATTICE
    Winstar's LATTICE program (Leveraging Advanced Telecommunications 
Technologies to Improve Community Environments, uses advanced wireless 
technology to provide basic telecommunication services (telephone, 
Internet and cable) to people in low income, high-cost communities. 
(High cost, in this instance, refers to the cost of installing 
traditional telecommunications services.)
    Our hope is that LATTICE will serve as a model for a nationwide 
virtual community of lifelong learners that eliminates the "digital 
divide" in inner city communities by building job skills and spurring 
economic, social and educational growth.
    Winstar provides Internet services, on-site program management, and 
Internet technology using the Training Cafe in the following locations 
in a low-income community in Washington, D.C.:

<bullet> Tyler House (urban housing development)
<bullet> Walker Jones Elementary School
<bullet> Sibley Plaza (senior citizens residence)
    The result is the creation of a virtual learning and earning 
community originating in a low-income housing development and expanding 
throughout the community.
    The collaboration, which makes up the virtual learning community 
includes the owner of the property, the residents, the school district, 
not-for-profit organizations, private companies, local colleges and 
others to leverage technology to the benefit of children and their 
families.
    The uniqueness of this project lies in the wireless connection and 
in the diversity of the community participation. Because of the 
technology, the residents have the opportunity not only to learn job 
skills, but to telecommute to those jobs as well. LATTICE exemplifies 
community collaboration, bridging the distances between home, school 
and work.

Training Cafe
    The Training Cafe is a free interactive online learning site that 
provides educators with technical skills they can use in both their 
professional and personal lives. Training Cafe's multimedia modules 
combine interactive instruction with extensive hands-on practice.
    This interactive web-based training supports the new International 
Society for Technology Education (ISTE) National Education Technology 
Standards for Teachers.
    Training Cafe offers the Internet Technology series, free of 
charge, as of Fall 2000:

<bullet> Internet Technology Series--17 interactive modules covering a 
        wide variety of Internet topics, and designed to assist 
        teachers in bringing technology into the classroom.
    Each module is interactive and takes about 45-60 minutes to 
complete. All modules are structured as described below. Users can 
select which parts of the lesson they want to work on, in their own 
time frame.

<bullet> Instruction--Module instructional content is presented as 
        interactive multimedia with hands-on exercises.
<bullet> BrainCheck <SUP>TM</SUP>--Users test their knowledge of each 
        module's content by completing the quiz in the module's 
        BrainCheck with immediate feedback on each question. Users have 
        the option of exiting a quiz to review subject material, and 
        may re-take the quiz.
<bullet> Resources--Each module includes a Glossary, module-specific 
        Resources on the Web, and Inside/Outside the Classroom 
        suggestions for using the information presented in the module.
<bullet> K-12 Lesson Plans--Each module includes one or more lesson 
        plans that have been specifically designed to integrate module 
        concepts into classroom curriculum.

The Virtual Wall
    The Virtual Wall is a digital, interactive legacy memorializing the 
58,220 men and women who gave their lives in Vietnam. Developed through 
a partnership between Winstar and the Vietnam Veterans Memorial Fund, 
the original site launch was announced by Vice President Gore during a 
White House ceremony on Veteran's Day, November 10, 1999.
    This web site allows visitors to upload text, audio or photo 
remembrances; participate in chat sessions with noted historians and 
journalists; and post information about upcoming reunions.
    The Virtual Wall is for families and friends of veterans who lost 
their lives in Vietnam, students who come to learn about the Vietnam 
War, and for all visitors from around the world.
    We are always looking to for ways to make The Virtual Wall an even 
more personal experience. On May 30, 2000, a new version of the site 
was launched, and offers many new features:

<bullet> A monthly guest column
<bullet> A monthly chat session with an expert on Vietnam
<bullet> Over 12,000 prepared reports that can be downloaded
<bullet> The opportunity to create and download custom reports
<bullet> Special sections for newly-added remembrances
<bullet> A daily update honoring soldiers, seamen, airmen and Marines 
        on the anniversary of their death in Vietnam.

Teach Vietnam
    Teach Vietnam is the cornerstone of Echoes From the Wall, which was 
produced under the leadership of the Vietnam Veterans Memorial Fund.
    Presenting history, learning and leadership through the lens of the 
Vietnam War Era, Echoes From the Wall provides invaluable lessons about 
this divisive period, while also presenting innovative exercises and 
useful tools designed to heighten every high school student's sense of 
responsibility, leadership, and global understanding. The Echoes From 
The Wall curriculum package was distributed free of charge to all 
26,000 public and private high schools in the United States. The 
complete 156-page teachers' guide and other materials from the 
curriculum package are available for educators to download via 
www.teachvietnam.org.
    Teach Vietnam features a database of government and military 
documents and an expanding archive of photographs, audio files, video 
clips and newspaper articles about key figures and important events 
from 1954 through 1975.

NYBOE Project
    The Winstar for Education's New York Board of Education Pilot 
Program provides fixed wireless broadband Internet service, Winstar for 
Education professional development training software and technology and 
curriculum integration assistance for five New York City Public High 
Schools for a period of one year.
    The high schools receive guidance in integrating technology such as 
the Training Cafe into the classroom and curriculum. Also, they receive 
a network where they can collaborate with other schools, and WFE 
Internet and professional development tools.
    This program successfully integrates Internet technology and 
software into the classroom while enhancing curriculum and minimizing 
distraction. It provides an ideal environment where numerous classrooms 
from five different schools can network with one another to create an 
on-line community, share information, participate in communal projects, 
and create lasting relationships.
    The program invites Winstar employees to participate and contribute 
their time and expertise as:

<bullet> guest speakers
<bullet> online mentors
<bullet> volunteers in the classroom

Monster Exchange
    The Monster Exchange is a program where elementary and middle 
school students and classrooms around the world work collaboratively on 
technology-based language arts projects The program is structured as 
described below:

<bullet> Classrooms select another classroom with whom to partner in 
        the Monster program.
<bullet> Each classroom is split into groups that then design original 
        monster pictures.
<bullet> The original monster design is then described using learned 
        writing skills and the descriptive writing process.
<bullet> The description is written knowing that the audience will be 
        another student trying to draw the same monster from reading 
        the description.
<bullet> The partnered classes then exchange their descriptions via e-
        mail and the Internet.
<bullet> The students are then challenged to use reading comprehension 
        skills to read the descriptions and translate them into a 
        monster picture as close to the original picture as possible, 
        without looking at the original and only using the exchanged 
        written description.
<bullet> The written descriptions, original monster pictures, and 
        redrawn monster pictures are scanned and uploaded to the World 
        Wide Web using the browser based Monster Gallery Builder.
<bullet> The Monster Galleries are then published on the Internet.

                           TECHNOLOGY TRENDS

    Technology is impacting not only the way we live in a digital 
economy, but the face of education itself. In 1996, President Clinton 
first introduced the Technology Literacy Challenge, whose components 
include the Internet, high-quality software resources and teacher 
development.
    The 1996 ``Does it Compute? The Relationship Between Educational 
Technology and Student Achievement in Mathematics'' report from the 
Educational Testing Service (ETS), taken from the 1996 National 
Assessment of Educational Progress (NAEP), suggests that ``. . . when 
computers are used to perform certain tasks, namely applying higher 
order concepts, and when teachers are proficient enough in computer use 
to direct students toward productive uses more generally, computers do 
seem to be associated with significant gains in mathematics 
achievement, as well as an improved social environment in the school.''
    With the advent of the Technology Literacy Challenge and the 
Telecommunications Act of 1996, monies have become available for 
schools to start building the infrastructure that would bring 
technology into the classroom. However, even with an infrastructure and 
equipment, an April 2000 National Center for Education Statistics 
Survey ''Teacher Use of Computers and the Internet in Publics Schools 
showed that 33% of public school teachers feel well prepared or very 
well prepared to begin using computers and the Internet.
    To sufficiently prepare our students for adult citizenship in the 
Information Age, computer-rated technology must become a tool that 
students and teachers use routinely as part of their everyday lives. 
The ISTE has established technology standards that include 
technological literacy for the effective use of informational 
technology in education. These standards work as a benchmark to guide 
the instruction to foster student achievement.
    In order to bring our teachers up to date in computer and Internet 
skills as quickly as possible, teachers need to have easily accessible 
learning programs that address multiple learning styles. Winstar and 
Macromedia have addressed this need by offering the Training Cafe free 
of charge to educators. Comprised of a series of interactive Web-based 
training modules, the Training Cafe offers ``anytime, anywhere'' 
learning by allowing teachers to work at their convenience and at their 
own pace to acquire technology skills to be used in the classroom.
    Co-developed by Winstar for Education and Macromedia, the Training 
Cafe focuses on delivering a professional development platform that 
acknowledges the biggest challenge facing our educational system. It is 
not simply access to new technologies, but intelligent use of those 
technologies to achieve educational goals. As the demand grows, the 
trend will be to see the growth of broadband capacity.

                           ACCESS AND EQUITY

    Now that a considerable portion of today's business, communications 
and research takes place on the Internet, access to computers and 
networks may be as important as access to traditional telephone 
services.
    In a 1999 survey conducted by the National Center for Education 
Statistics (U.S. Department of Education, ``. . . teachers were asked 
the degree to which they used computers or the Internet to prepare for 
and manage their classes. Thirty-nine (39) percent of public school 
teachers with access to computers or the Internet in their classroom or 
elsewhere indicated they used computers or the Internet a lot to create 
instructional materials, and 34 percent reported using computers a lot 
for administrative recordkeeping. Less than 10 percent of teachers 
reported using computers or the Internet to access model lesson plans 
or to access research and best practices.''
    ``The Digital Divide'' between certain groups of Americans has 
increased between 1994 and 1997 so that there is now an even greater 
disparity in penetration levels among some groups,'' stated the NTIA in 
its 1998 report ``Falling through the Net II: New Data on the Digital 
Divide.'' There is a widening gap, for example, between those at the 
upper and lower income levels.
    While funding has been made available for infrastructure and 
equipment, there is a lack of funding for professional development. To 
assist teachers in meeting the ISTE technology standards, Winstar 
offers the Training Cafe free of charge to educators. Winstar's mission 
is to remove friction from small-to-medium-sized businesses; Winstar 
has gone a step further and is now taking the friction out of education 
through the use of our broadband fixed wireless services. Winstar is 
committed to helping children around the world function in a digital, 
frictionless age, and realizes that the most effective way to reach 
this goal is by providing professional development tools to the 
educational gatekeepers--the teachers.
    It is our hope that we will serve as an example to other companies 
for bringing their knowledge to our future--our students.

                            TECHNOLOGY COST

    Winstar realizes the challenges of limited funding that face 
educators, and is pleased to offer the Training Cafe free of charge. By 
providing a technology foundation to teachers, the Training Cafe is the 
first step toward incorporating technology into everyday life.

                      TEACHER TRAINING AND SUPPORT

    Dynamic professional development ensures that educators are kept 
up-to-date on the latest methods of improving student learning. Ongoing 
staff development is critical to improving education through reforms 
such as the introduction of educational standards. It is important to 
note that effective professional development must be embedded into the 
everyday life of teachers, utilizing opportunities for continuous 
growth. The ability to access and utilize technology in the classroom 
plays a significant role for developing life long learners.
    A school district's accountability for training teachers in 
technology is becoming more and more a requirement. Teachers need 
ongoing exposure to technology in order to integrate technology 
successfully into the classroom. A 1999 report from The National Center 
for Education found that ``Teachers with more professional development 
in the use of computers and the Internet over the last 3 years were 
more likely to assign students various types of work involving 
computers or the Internet. For example, teachers with more than 32 
hours of professional development were more likely to assign problem 
solving (41 percent) than were teachers with 0 hours (14 percent) or 
those with 1 to 8 hours (24 percent), graphical presentations (31 
compared with 10 and 16 percent for the same groups), and 
demonstrations or simulations (29 compared with 8 and 13 percent for 
the same groups).''
    Funding for professional development, however, remains a challenge. 
With their new skills, acquired free of charge, from the Training Cafe, 
teachers will be secure in their ability to prepare students to live 
and work in the digital age and will know how to empower students to 
employ higher-level thinking skills in approaching problems and 
tackling the demands of the 21st century workplace.
    Winstar offers training and support to teachers through another of 
its programs, Teach Vietnam. Teach Vietnam is a progressive curriculum 
for teenagers which stimulates the imagination using critical thinking 
exercises and cooperative learning strategies.

                        STANDARDS AND ASSESSMENT

    The Training Cafe not only offers valuable technology training to 
teachers but also meets academic standards and provides assessment 
tools for self-evaluation at each step.
    Academic standards assist schools and districts with the ability to 
set high expectations for student achievement, provide a basis for 
student and teacher accountability, promote educational equality for 
all learners, develop effective curricula and instructional strategies, 
allocate more resources, and create professional development programs 
to improve instruction. State education departments have developed 
standards for teachers and students to instill a level of 
accountability.
    The Training Cafe meets two (2) of the ISTE standards:

<bullet> Basic Computer/Technology Operations and Concepts
<bullet> Personal and Professional Use of Technology
    One of the many pedagogical features of the Training Cafe is the 
ability to provide consistent training for all teachers. The content of 
the Training Cafe was developed by educators and supports the ISTE 
National Education Technology Standards for Teachers. Training Cafe 
includes 17 modules covering such Internet topics as browsers, e-mail, 
and Web searches. Each module takes 45-60 minutes to complete and 
includes hands-on practice in a simulated web environment, Internet-
based teacher resources, and self-assessment quizzes.

E-Rate Program
    Winstar is proud to make available our broadband technology to 
participate in the E-Rate program by bringing the Internet into the 
classrooms of those who are our future - our students. Winstar is 
committed to providing the technology tools necessary to prepare 
students for the new digital economy, and currently provides Internet 
access to schools and school districts across the country.

                                SUMMARY

    Educational reform must serve the goal not only to prepare every 
student to compete in the global digital economy, but also to think in 
the global digital community. New jobs will be created everyday to 
fulfill the needs of this ever-changing digital community. It is the 
task of educators to facilitate a learning environment that will assist 
with producing citizens that can compete in the global digital economy 
of the 21st Century. The Internet is a tool to transform a classroom 
into a virtual community that links to resources and people from around 
the world. Our hope is that using skills acquired through the Training 
Cafe, teachers will incorporate technology into the classroom as a part 
of everyday curricula.
    Winstar's Web-based educational and social programs provide the 
tools that educators, students, and communities need to move themselves 
into the 21st Century. Winstar is honored to bring programs such as the 
Training Cafe into the classroom to ensure the success of our future--
our children--in the digital world.

                             ABOUT WINSTAR

    Winstar is a leading broadband services company. The company is 
rapidly building one of the world's most widely available, end-to-end 
broadband networks. Winstar makes this network important and useful to 
businesses by providing a comprehensive set of high-quality, digital-
age broadband services. These services include high-speed Internet and 
data, Web hosting and design, phone services, Web-based applications, 
e-commerce, professional services and Office.com<SUP>'</SUP>, A Service 
From Winstar, the top-ranked online business service for small and 
medium-sized businesses.
    For more information, we invite you to visit www.winstar.com and 
www.win4edu.com.

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
